<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2013 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-590, Part 4]
[From the U.S. Government Publishing Office]



                                               S. Hrg. 112-590, Pt. 4
 
       DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR 
        FISCAL YEAR 2013 AND THE FUTURE YEARS DEFENSE PROGRAM
=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3254

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2013 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                        MARCH 27 AND MAY 8, 2012


         Printed for the use of the Committee on Armed Services




                  U.S. GOVERNMENT PRINTING OFFICE
76-540                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

                 Ann E. Sauer, Minority Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

E. BENJAMIN NELSON, Nebraska         SCOTT P. BROWN, Massachusetts
CLAIRE McCASKILL, Missouri           JAMES M. INHOFE, Oklahoma
JOE MANCHIN III, West Virginia       JEFF SESSIONS, Alabama
KIRSTEN E. GILLIBRAND, New York      ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                           Army Modernization
                             march 27, 2012

                                                                   Page

Lennox, LTG Robert P., USA, Deputy Chief of Staff of the Army (G-
  8); Accompanied by LTG William N. Phillips, USA, Principal 
  Military Deputy to the Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology, and Director, 
  Acquisition Career Management; LTG Keith C. Walker, USA, Deputy 
  Commanding General, Futures, and Director, Army Capabilities 
  Integration Center, U.S. Army Training and Doctrine Command; 
  and LTG John F. Campbell, USA, Deputy Chief of Staff of the 
  Army (G-3/5/7).................................................     5

                       Tactical Aircraft Programs
                              may 8, 2012

Venlet, VADM David J., USN, Program Executive Officer, F-35 
  Lightning II Program...........................................    42
Wolfenbarger, Lt. Gen. Janet C., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition.......    50
Skinner, VADM Walter M., USN, Principal Military Deputy, Office 
  of the Assistant Secretary of the Navy for Research, 
  Development, and Acquisition...................................    55

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2013 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 27, 2012

                                U.S. Senate
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:58 p.m., in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Blumenthal, 
Brown, and Inhofe.
    Majority staff member present: William K. Sutey, 
professional staff member.
    Minority staff member present: Paul C. Hutton IV, 
professional staff member.
    Staff assistant present: Brian F. Sebold.
    Committee members' assistants present: Brian Burton, 
assistant to Senator Lieberman; Ethan Saxon, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; and Charles Prosch, assistant to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The hearing will come to order.
    This is my first time in the refurbished room. It is quite 
beautiful, isn't it? This is meant to be progress, I am sure.
    Do you remember how long and hard Senator John Warner 
worked to design that previous table, and it was grand.
    Senator Brown. It was.
    Senator Lieberman. Yes. I know.
    I apologize to our distinguished panel of witnesses. We, 
and I particularly, were held up on the floor because there is 
a bill on the Postal Service, and it comes out of the other 
committee that I am privileged to serve on. But we thank you.
    Senator Brown. We are cosponsors on it.
    Senator Lieberman. Senator Brown and I, marching in tandem.
    Senator Brown. Lockstep again.
    Senator Lieberman. Lockstep again. Yes. He is a courageous 
man to put himself in that position.
    Good afternoon. The Subcommittee on Airland will come to 
order.
    We meet today to receive testimony on Army modernization, 
as we do every year before we go into markup of the National 
Defense Authorization Act at the full committee level. This 
happens to be my last annual Army modernization hearing as a 
Senator. Don't be shocked, Senator Brown.
    In 1993, I became a member of this subcommittee, which was 
then called the Coalition Defense and Reinforcing Forces 
Subcommittee, chaired at that time by none other than Senator 
Carl Levin of Michigan. The following year, I attended my first 
hearing on the Army long-term modernization requirements and 
modernization programs.
    In 1995, the subcommittee was renamed Airland Forces, and 
since 1999, I have had the great privilege of being either the 
subcommittee's ranking member or chairman. I must say in that 
capacity, I have had the really high honor of getting to know a 
succession of leaders of the U.S. Army and members of the U.S. 
Army who really are the best of the best. So it has been one of 
the great parts of my service here in the Senate.
    As I recall, the first Army modernization hearing I 
attended in 1994, the subcommittee was pursuing a better 
understanding of the Army's plans for improvements in equipment 
and joint operations based on the lessons of the First Gulf 
War. At that time, the Army was beginning a very large end 
strength reduction from the Cold War high of 780,000 soldiers 
to 530,000. Subsequently, even lower, finally stopping at 
480,000 soldiers in 2001 before September 11. Rising again in 
recent years, and now the target of 480,000 sounds vaguely 
familiar, close to that for end strength reduction in the 
current Future Years Defense Program.
    The Active Army force structure went from 18 divisions down 
to 10. At that time, we were already 7 years into what was a 
13-year decline in Army procurement spending.
    Today, as I sit in this last Army modernization hearing, it 
is ironic that we find ourselves for very different reasons in 
a very similar situation. I hope we have learned some of the 
lessons of the past 10 years about how unpredictable future 
threat environments can be.
    Because the budget submitted to us this year for fiscal 
year 2013 I think includes unacceptable levels of strategic 
risk, mostly brought about by compliance with an act of 
Congress, which was the Budget Control Act (BCA). But as I keep 
saying, part of our responsibility, I think, as we go through 
the authorization process, is to decide whether everything we 
did in the BCA makes sense or whether we want to adjust some of 
the numbers. Of course, I hope we do because the obvious fact 
is we face an uncertain and dangerous global security 
environment.
    The Army fiscal year 2013 budget request includes several 
program cancellations, earlier than planned completions, or 
delays of equipment modernization that not only would increase 
strategic and operational risk, in my opinion, but could 
undermine the health of our national combat and tactical 
vehicle industrial base.
    This is particularly concerning, given the real progress 
that the Army has been able to make in stabilizing its 
requirements and modernization efforts under the leadership of 
former Secretary of Defense Gates, but really to give credit 
where it is due, former Vice Chief of Staff for the Army, 
General Peter Chiarelli, who launched the Army's comprehensive 
review of its investment strategies across the capabilities we 
need and expect the Army to have.
    The subcommittee today looks forward to an update on the 
progress achieved in what came to be known under General 
Chiarelli as the Capability Portfolio Review (CPR) process, 
also how you will sustain the momentum of this important part 
of your requirements determination process, and how portfolio 
reviews are leading changes in the acquisition strategy.
    The top three modernization efforts identified in the 
Army's fiscal year 2013 budget request are the tactical 
network, which will conduct the various communications data, 
video, and applications systems used by the Army, which I think 
there is broad support for and consensus about; the Ground 
Combat Vehicle (GCV), a developmental program to replace some 
of the armored infantry fighting vehicles in the Army's armored 
Brigade Combat Teams; and the Joint Light Tactical Vehicle 
(JLTV), another developmental program to replace some of the 
Humvees that do not provide sufficient crew protection to 
operate adequately in an improvised explosive device (IED) 
environment.
    I do want to ask our witnesses today whether the higher 
costs of those two new vehicle programs are justified by 
increased capabilities they will buy, as opposed to sustaining 
current programs for the Bradley fighting vehicle and the 
Humvee.
    I am going to jump around a little bit in deference to the 
time. I do want to make this point finally. I am very 
encouraged that the Army has taken pains--and I mean it, 
pains--in this fiscally difficult environment to protect its 
investments in aviation.
    One of the most important lessons, I think, from the wars 
in Iraq and Afghanistan is Army aviation provides unique 
capabilities that are absolutely essential to our soldiers in 
the field. I am pleased that even amidst all the planned cuts 
to end strength and force structure, the Army is going to 
continue to expand its aviation force to 13 brigades.
    Though it represents a significant investment, I think it 
is a necessary one, and essential, I think, to see that this 
process goes to completion. I say that because I am sure that 
the Army is going to be under pressure to cut into aviation 
funding to pay for other modernization areas.
    We have a great panel of witnesses here with extraordinary 
experience. I will introduce them when we get to that point.
    At this point, I am delighted to call upon my friend and 
colleague and ranking member, Senator Scott Brown, whose own 
military experience, as well as his personal insights, have 
proven extremely valuable to the work of this subcommittee. We 
will again work together to produce our mark for the full 
committee this year.
    Senator Brown.

              STATEMENT OF SENATOR SCOTT P. BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Thank you for your service and your leadership. Out of all 
the committees, I have truly enjoyed this one the most. I know 
we have tackled some really good issues, and what you did on 
the insider trader bill has showed a lot of courage.
    Thank you all for your service. I know we spoke earlier. I 
am not going to do a long and extensive opening, but I do 
recognize that the Army faces great challenges in the fact that 
in the Army, change is a constant because the threats against 
our country are constantly changing. We need to adjust and 
adapt.
    I know that. You know that, probably much more than I do. 
You have an unprecedented history, and you are ready for any 
mission that comes forth. I understand that, and I appreciate 
that.
    I am concerned about the role of the Guard and Reserve. In 
particular, I am concerned about the sequestration cuts and how 
that is going to affect our military preparedness. I want to 
make sure that we can respond professionally and provide the 
tools and resources to our men and women to serve, serve well, 
serve safely, and then come home. That is very important.
    Then what do we do with them thereafter? Being a member of 
the Senate Veterans' Affairs Committee, I take that role very 
seriously as well.
    The success or failure of the Army's efforts to realign and 
become the most effective possible fighting force depends on 
what we do in this committee, what we are doing here today, and 
what we do in the markup. I think it is critically important to 
try to wrestle with a lot of these challenges, these budgetary 
restraints, and the like.
    It is our responsibility here in this committee to 
understand what those challenges are so we can better advocate 
for you and make sure that we do the things as they should be 
done with the limited budgets that we have.
    Senator Lieberman. Thanks, Senator Brown.
    The witnesses before us are Lieutenant General Robert P. 
Lennox, who is Deputy Chief of Staff of the Army G-8; and 
Lieutenant General William N. Phillips, who is Principal 
Military Deputy to the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology, and the Director, 
Acquisition Career Management.
    Appearing for the first time before the subcommittee, and 
we welcome you with thanks, is Lieutenant General Keith C. 
Walker, Deputy Commanding General, Futures, and Director, Army 
Capabilities Integration Center at U.S. Army Training and 
Doctrine Command; and Lieutenant General John F. Campbell, who 
is Deputy Chief of Staff of the Army G-3/5/7.
    I gather that General Lennox will begin? Thank you, sir, 
for being here, and we welcome your testimony at this time.

 STATEMENT OF LTG ROBERT P. LENNOX, USA, DEPUTY CHIEF OF STAFF 
OF THE ARMY (G-8); ACCOMPANIED BY LTG WILLIAM N. PHILLIPS, USA, 
  PRINCIPAL MILITARY DEPUTY TO THE ASSISTANT SECRETARY OF THE 
ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY, AND DIRECTOR, 
ACQUISITION CAREER MANAGEMENT; LTG KEITH C. WALKER, USA, DEPUTY 
 COMMANDING GENERAL, FUTURES, AND DIRECTOR, ARMY CAPABILITIES 
 INTEGRATION CENTER, U.S. ARMY TRAINING AND DOCTRINE COMMAND; 
  AND LTG JOHN F. CAMPBELL, USA, DEPUTY CHIEF OF STAFF OF THE 
                         ARMY (G-3/5/7)

    General Lennox. Chairman Lieberman, Ranking Member Brown, 
Senator Inhofe, and all the members of the subcommittee, on 
behalf of the Secretary of the Army, Secretary McHugh, and the 
Chief of Staff of the Army, General Odierno, and all of the 1 
million plus men and women in the Army, we want to thank this 
subcommittee for its enduring support and commitment to our 
soldiers.
    Chairman Lieberman, on behalf of all the members of the 
subcommittee, we want to thank you for your support, your 24 
years of service, your leadership, and your personal care and 
commitment for our soldiers. I want to make sure we say that up 
front.
    In modernization, the Army really has two priorities, and 
the first is to win today's fight. General Campbell has come 
back from a year of command of Regional Command (RC) East. 
General Phillips and I have had a chance to visit over there in 
Afghanistan in the last month, and we bring insights as far as 
what we are doing to support those soldiers today.
    Our commitment to support them is number one. I want to 
thank you all for your support in equipping those soldiers to 
be successful today in combat.
    Our second priority is to make sure we are prepared to win 
in an uncertain future. The Secretary of Defense published in 
January the new strategic guidance, and we have attempted to 
shape our forces and our strategy to support that in a way for 
the armed forces for the foreseeable future.
    For the Army, we really have three priorities for the 
future, and the first is empower, protect, and unburden 
soldiers. We have tried to do that with a number of programs, 
improvements to things like body armor, sniper weapons, 
indirect fires, improved helmets, protective ballistic 
undergarments, and things like that.
    The second priority is to network the force, and we would 
be happy to talk to you about any of those programs from Net 
Warrior to the Warfighter Information Network-Tactical (WIN-T), 
and any of the Joint Tactical Radio Systems that we think are 
foundational to that approach.
    The third priority is to be able to deter and defeat hybrid 
threats by looking for improvements for our aviation, our 
combat vehicle fleet, and our tactical wheeled vehicle fleet. 
Chairman Lieberman, you mentioned some of those areas and those 
programs.
    One of the key facets for us is looking for parity across 
all the components in the Army--the Active Force, the National 
Guard, and the Reserve. We think we have achieved that, both in 
equipment on hand. We have reached the high 80 percent level 
for equipment on hand for all different components.
    Then in percent modernized, and we are in the 70s for all 
components. So we have reached parity, we think, in both those 
aspects for all components for the Army.
    We are facing tight fiscal challenges in the next couple of 
years. In order to address that, we have looked at things like 
incremental modernization, and we have really looked at our 
acquisition processes and the tradeoff in requirements early on 
in the process and then throughout the process to get 
affordable modernization programs.
    We would be happy to talk to you about areas like the JLTV, 
and the GCV, where we think we have made good trades, and we 
have yet to finish some of those trades in the way ahead. It is 
a real tremendous effort led by Acting Secretary Shyu and 
General Phillips in that regard.
    In closing, the Army's goal is really to equip soldiers for 
the current fight and future contingencies. Although we are a 
force in transition in a period of declining resources, we have 
to continue to provide our warfighters with modernized and 
capable equipment so they can prevail on any battlefield 
against any foe.
    Mr. Chairman, distinguished members of the subcommittee, I 
thank you again for your steadfast and generous support for the 
outstanding men and women of the Army, the Army civilians, and 
their families. We look forward to answering your questions.
    [The joint prepared statement of General Lennox, General 
Phillips, General Campbell, and General Walker follows:]
 Joint Prepared Statement by LTG Robert P. Lennox, USA; LTG William N. 
 Phillips, USA; LTG John F. Campbell, USA; and LTG Keith C. Walker, USA
                              introduction
    Chairman Lieberman, Senator Brown, and distinguished members of the 
Subcommittee on Airland, we thank you for this opportunity to discuss 
the fiscal year 2013 budget request as it pertains to Army 
Modernization. We are pleased to represent U.S. Army leadership, 
members of the Army Acquisition workforce, and the more than 1e million 
courageous men and women in uniform who have deployed to combat over 
the past 10-plus years, and who have relied on us to provide them with 
world-class weapon systems and equipment to ensure mission success. On 
behalf of our Secretary, the Honorable John McHugh and our Chief of 
Staff, General Ray Odierno, we would like to take this opportunity to 
thank the members of this committee for your steadfast support and 
shared commitment in this endeavor.
                 army equipment modernization strategy
    Today we are faced with uncertain strategic and operational 
environments coupled with declining resources. The Army's equipment 
modernization strategy reflects the need to be able to support the 
current fight, respond to uncertainties and implement the emerging Army 
strategy for the force in 2020. The President's budget 2013 Research 
and Development request reflects the Army's priority materiel programs 
and highlights the critical capabilities we need to give our soldiers 
and units the decisive edge in the range of military operations. This 
strategy is focused on equipment needed to: (1) empower, unburden, and 
protect our soldiers; (2) network the force; and (3) replace, improve, 
or transform our combat platforms in order to deter and defeat hybrid 
threats.
    We recognize we must shape the Army with an understanding of both 
our national security obligations and current fiscal constraints. The 
equipment modernization strategy for the Army aligns the ends, ways, 
and means to develop and field a versatile and affordable mix of the 
best equipment available to enable soldiers to succeed in current and 
future complex operational environments. This entails four lines of 
effort:

        <bullet> Modernize. Develop and acquire new equipment or 
        improve, upgrade or adapt existing equipment to meet identified 
        capability gaps and to achieve dominance in core capabilities 
        while evaluating modernization efforts for redundancy.
        <bullet> Sustain. Close capability gaps or avoid creating them 
        by extending the useful life of existing equipment and divest 
        or store equipment providing less value.
        <bullet> Mitigate. Procure mission-specific equipment for 
        immediate capability needs.
        <bullet> Distribute. Provide the appropriate quantity and type 
        of equipment to soldiers and units at the proper time in 
        accordance with the Army Force Generation (ARFORGEN) readiness 
        model and Army priorities to enable training, preparation and 
        employment for mission success.

    To meet the challenges of strategic, operational, and fiscal 
realities, the Army is working toward a truly collaborative process for 
requirements, resources and acquisition. The Army aims to develop and 
field a versatile and affordable mix of equipment to enable soldiers 
and units to succeed across a full range of missions today and tomorrow 
and to maintain our decisive advantage over any adversary we face. 
``Versatile'' encompasses the characteristics of adaptable (to changing 
missions and environments); expansible (able to add, update or exchange 
capabilities in response to changed circumstances); and networked (to 
enable interoperability within our formations and with those of our 
partners). ``Affordable'' relates to making fiscally informed decisions 
that provide greatest capability value in accordance with senior leader 
priorities, within projected resources and within acceptable risk 
parameters. To achieve that goal, the Army is transforming its 
Requirements and Acquisition processes.
                      requirements transformation
    Our future is filled with uncertainty with respect to operating 
environments, adversaries, resources, and other constraints; the Army 
continues to evolve its requirements generation process to find 
improved ways to shape future requirements.
    The Army has vigorously implemented processes and procedures to put 
the most capability in the hands of our warfighters. We are 
consistently challenging costly, duplicative, or unrealistic 
requirements and embracing innovation and warfighter feedback. 
Synchronization of our analytical efforts with combatant commanders, 
Combat Developers, Capability Portfolio managers, requirements 
generators, analysts and analytical agencies, and the acquisition 
community is leading to refined, realistic, and innovative 
requirements. Our goal is to have the'' right'' requirement at the 
start of a program.
                       acquisition transformation
    Over the past year, the Army has continued to make progress on 
changing the paradigm for acquisition to one that emphasizes 
affordability and agility throughout the acquisition cycle. We are 
challenging costly or unrealistic requirements, implementing systems 
engineering, and cost estimating, early in the acquisition cycle backed 
up by developmental testing and operational assessments. We are also 
embracing incremental modernization, commercial innovation and soldier-
industry feedback to deliver improved capabilities as technology 
matures, or resources are available. Integrated Portfolios are used to 
align the modernization community to ensure integration across 
requirements, acquisition, resourcing and sustainment. We are also 
actively supporting increased competition and rewarding technological 
maturity during the developmental cycle followed by open competition 
during the procurement cycle, to the maximum extent possible. The men 
and women of the Acquisition Corps are working hard to deliver 
capability to our warfighters and they are doing outstanding work.
    This approach is evident in several programs, to include JLTV, Nett 
Warrior and GCV, where we have already shown success in revising 
military requirements to avoid unnecessary cost and to develop 
executable strategies. For instance, in the JLTV program, a thorough 
review enabled us to revise our Acquisition Strategy which reduced the 
schedule for the next development phase from 48 to 33 months while 
reducing the projected cost of the vehicle by $400 million, a 50 
percent reduction.
    The Stryker Double-V Hull (DVH) program is yet another example, In 
the DVH program, we partnered with the testing community to efficiently 
conduct simultaneous test and production on an expedited basis. By 
taking a more collaborative approach, we provided soldiers with 
critical improvements and enhanced protection on a timely and effective 
basis. In a recent trip to Kandahar, Afghanistan, we saw and heard 
first-hand from soldiers the remarkable capability the DVH provides.
               priority army programs in fiscal year 2013
    Based on the Equipping Modernization Strategy, the priority 
equipment modernization programs in our President's budget 2013 request 
are:
Warfighter Information Network-Tactical (WIN-T)
    Provides the broadband backbone communications necessary for the 
tactical Army. It extends an Internet Protocol (IP) based satellite and 
line-of-sight communications network through the tactical force, 
supporting voice, data, and video. Increment 1 fielding is completed in 
fiscal year 2012 and will begin Increment 1b Engineering Change 
Proposal (ECP) implementation for interoperability with increment 2. 
Increment 2 extends the network to the Company and provides on-the-move 
IP communications for the first time. It begins fielding in fiscal year 
2013. President's budget 2013 will procure 7 new Brigade Combat Team 
(BCT) sets and funds fielding Increment 2 systems to 9 BCTs and 
procuring upgrades for 32 additional brigades to provide 
interoperability with Increment 2 systems.
Joint Tactical Radio System (JTRS)
    Provides the future deployable mobile communications family of 
tactical radios. It provides advanced joint tactical end-to-end 
networking data and voice communications to dismounted troops, aircraft 
and watercraft platforms. President's budget 2013 procures Handheld/
Manpack Small Form Fit (HMS) and Rifleman Radios to provide voice/data 
communications to eight BCTs. These radios will link mounted and 
dismounted soldiers and leaders into a robust, integrated network. The 
Ground Mobile Radio (GMR) was the primary JTRS vehicular radio. This 
program was restructured in favor of a more competitive Non-Development 
Item (NDI) program called the Mid-Tier Networking Vehicle Radio (MNVR) 
using the government-owned programmable waveforms developed as part of 
the JTRS program. This change in acquisition strategy will allow rapid 
delivery of capabilities (fielding in fiscal year 2014) at lower cost 
while meeting the mobility requirement of the restructured GMR program. 
In fiscal year 2013, the Army will field the PRC-117G as a bridge 
solution for the MNVR.
Joint Battle Command-Platforms (JBC-P)
    Provides a foundation for achieving information interoperability on 
current and future battlefields and will be the principal Command and 
Control/Situational Awareness system for the Army and Marine Corps at 
the brigade-and-below level. Leverages our investment in 88,000 Force 
XXI Battle Command Brigade and Below (FBCB2) systems (all maneuver 
formations) with improved situational awareness capabilities. JBC-P is 
the incremental improvement to the already fielded Blue Force Tracker 
(BFT) family of systems.
Nett Warrior
    Provides an integrated situational awareness system to the 
dismounted leader which allows for fast and accurate decisions in the 
tactical fight. As a result of Network Integration Evaluations and 
soldier feedback, the Army rebaselined the program to achieve a 
smaller, lighter handheld capability at significantly reduced cost to 
the Army. President's budget 2013 funds delivery of this capability to 
maneuver BCTs in support of next deployers.
Distributed Common Ground System-Army (DCGS-A)
    Provides integrated intelligence, surveillance, and reconnaissance 
processing, exploitation, and dissemination of data from airborne and 
ground sensor platforms. DCGS-A satisfies 100 percent of the Army 
intelligence enterprise requirements by pulling data from over 300 
Department of Defense (DOD) and national databases. No other system 
completely addresses the broad range of intelligence requirements 
satisfied by the DCGS-A program. President's budget 2013 funds 
development of the Army Common Operating Environment and Command Post 
Environment and procures equipment for 1 Army Service Component 
Command, 10 theater commands, 3 division headquarters, 14 BCTs, one 
Special Forces Group, and 15 support brigades.
Ground Combat Vehicle
    The Ground Combat Vehicle (GCV) is the U.S. Army's replacement for 
Infantry Fighting Vehicles in Heavy Brigade Combat Teams (HBCTs). 
Modernization imperatives include improved protection, mobility and 
sustainment; built-in growth capacity; and network integration. 
President's budget 2013 funds two competitive Technology Development 
(TD) contracts leading to a Milestone B decision in first quarter 2014 
and Engineering and Manufacturing Development (EMD) Phase. The 
Milestone B decision will be informed by a comprehensive analysis, an 
examination of nondevelopmental vehicles, and progress made during the 
current TD phase.
Joint Light Tactical Vehicle (JLTV)
    Provides Army and Marine Corps Warfighters more payload, protection 
and network capability than High Mobility Multipurpose Wheeled Vehicle 
(HMMWV), and more fuel efficiency than the HMMWV or Mine Resistant 
Ambush Protected (MRAP). President's budget 2013 fully funds JLTV 
Engineering and Manufacturing Development (EMD) using an acquisition 
strategy that maximizes full and open competition opportunities for 
interested companies and reduces EMD costs and schedule. The program is 
scheduled for a Milestone B decision in July 2012.
Paladin Integrated Management (PIM)
    The PIM program replaces the current M109A6 Paladin and M992A2 
Field Artillery Ammunition Supply Vehicle by incorporating Bradley 
common drive train and suspension components. PIM addresses a long 
standing capability gap in the self-propelled artillery portfolio 
brought about by an aging fleet and the termination of prior 
modernization efforts. President's budget 2013 funds continued 
development and integration of Bradley common components (Engine, 
Transmission, and Suspension System) into prototype vehicles for 
government testing. The program remains on schedule to meet a Milestone 
C in June 2013.
Armored Multi-Purpose Vehicle (AMPV)
    The AMPV program is an essential element of the Army's Combat 
Vehicle Modernization strategy to replace an aging M113 fleet that 
lacks protection, mobility, and the ability to accept future upgrades. 
The AMPV addresses critical capability gaps in protection, networking 
interoperability, and mobility for critical enablers (mortars, medical 
evacuation and treatment, mission command, and company command and 
control) of the combined arms team. The current M113 fleet has reached 
its growth margin in these areas and a new design is needed. 
President's budget 2013 funds development of the competitive source 
selection package. The AMPV program is an essential element of the 
Army's Combat Vehicle Modernization strategy.
Kiowa Warrior
    President's budget 2013 funds continued development of the Cockpit 
and Sensor Upgrade Program (CASUP) and procurement of fielded fleet 
upgrades and CASUP long lead items. CASUP replaces the OH-58D's 
outdated systems with a new onboard processor, communications suite, 
and navigation equipment along with a lighter, more capable sight to 
fill the immediate interoperability gaps existing in the fleet today. 
The fielding of these improvements begins in fiscal year 2016 and will 
be complete by fiscal year 2021. A decision to pursue either the 
development of a new aircraft to replace Kiowa Warrior or a Service 
Life Extension Program (SLEP) of Kiowa Warrior will be made in fiscal 
year 2013.
                       other programs of interest
Support to the Warfighter in Afghanistan
    President's budget 2013 fully funds priority warfighter equipment 
requirements and supports efforts toward a successful conclusion of 
Army missions in Afghanistan. President's budget 2013 Overseas 
Contingency Operations funding procures replacement aircraft, missiles, 
rockets and C4I equipment; specialized Distributed Common Ground 
System-Army (DCGS-A) equipment for Intelligence units; Carl Gustav 
Recoilless Rifles for selected units; Enhanced Combat Helmets, and OEF 
Camouflage Pattern clothing for deployers. The President's budget 2013 
Base funding procures seismic/acoustic intrusion devices for deploying 
Military Police and Engineer Companies, BCTs and Special Operations 
units; Command, Control, Communications and Intelligence equipment for 
Civil Affairs units; Enhanced AN/TPQ-36 (EQ-36) Radars and Lightweight 
Counter Mortar Radars; M2 and M240 Machine Gun modifications; and 
Precision Guided Artillery Fuzes for example.
Lightening the Load
    The Army is committed to a continuous, holistic effort to lighten 
the individual soldier's load. We have continued to reduce the weight 
of individual protection equipment while improving the level of 
protection provided. The weight of crew-served weapons like machine 
guns and mortars has also been reduced. We are expanding the scope of 
our weight reduction efforts to address consumable items. For example, 
we are developing case-less ammunition which will reduce the weight of 
ammunition. A lightweight solar battery charger is under development to 
reduce the number of batteries a soldier carries on patrol.
Combat Vehicle Programs
    Two Combat Vehicle Programs are Priority Programs in fiscal year 
2013 and discussed above. They are the GCV and the Advanced Multi-
Purpose Vehicle. Other combat vehicle programs include:

        <bullet> Stryker Family of Vehicles. Provides an integrated 
        combined arms team with maximum versatility across Unified Land 
        Operations. The Stryker fleet has emerging capability gaps in 
        Protection, Network Interoperability, and Mobility due to a 
        lack of space, weight, power, and cooling capabilities (SWaP-
        C). Modernization of the Stryker Fleet is focused on an ECP 
        that will buy-back SWaP-C to integrate future protection 
        technologies, provide the electrical power to integrate the 
        future network, and regain some mobility lost through wartime 
        protection enhancements.
        <bullet> M1 Abrams. Provides the main battle tank capabilities 
        to defeat armored vehicles in Unified Land Operations. The 
        capability to integrate future protection improvements, 
        integrate network technologies and regain mobility lost through 
        wartime protection improvements is needed. Modernization 
        efforts are currently focused on engineering changes that will 
        provide increased space, weight, power, and cooling 
        capabilities.
        <bullet> M2/M3 Bradley Fighting Vehicles. Provides the current 
        Infantry Fighting Vehicle, Cavalry Fighting Vehicle, and 
        armored fire support, engineer and reconnaissance capabilities 
        with the Bradley Fire Support Team Vehicle, Engineer-Bradley 
        Fighting Vehicle. Capability gaps exist with respect to SWaP-C 
        to integrate future protection improvements, integrate network 
        technologies and regain mobility lost through wartime 
        protection improvements. Modernization is currently focused on 
        engineering changes that will provide increased space, weight, 
        power and cooling capabilities.
Army Aviation Programs
    The Kiowa Warrior, OH-58D is a Priority Program in fiscal year 2013 
and discussed above. Other Aviation programs include:

        <bullet> Apache, AH-64D. Fiscal year 2013 funds the 
        continuation of the Block Three incremental modernization 
        strategy which includes the remanufacturing of block one and 
        block two aircraft along with a small number of new build 
        helicopters. Fielding of the first Block Three unit began 1st 
        quarter of fiscal year 2012 and remains on schedule to be 
        complete by the first quarter fiscal year 2013. Apache Block 
        Three will ensure the Apache remains a viable combat multiplier 
        well into the future.
        <bullet> Armed Aerial Scout. The Army strategy is to pursue a 
        replacement for the OH-58D Kiowa Warrior through the Armed 
        Aerial Scout (AAS) Analysis of Alternatives (AoA) and a 
        voluntary flight demonstration to inform the acquisition 
        process. If it is determined in mid fiscal year 2013 that an 
        affordable alternative does not exist, the Army will apply a 
        Service Life Extension Program. Should the Army determine that 
        an affordable Kiowa Warrior replacement is available; the 
        Defense Acquisition Executive will determine the milestone 
        entry point for the AAS program.
        <bullet> Chinook, CH-47F. This program is currently in the last 
        year of its first 5 year, multiyear contract. The current 
        budget request includes a second multiyear contract that would 
        complete the modernization fielding in 2018 with a fleet end 
        state of 533 aircraft.
Transformation for Network Capabilities
    In support of the transformation of our requirements and 
acquisition processes, the Army is designing a suite of network systems 
and equipment to answer the projected requirements of a 2-year cycle. 
Every year, we integrate the next capability set, reflecting any 
changes or advances in technology. This incremental modernization 
allows the Army to buy fewer capabilities, but more often, to ensure 
that we leverage industry advancements and provide our formation the 
most up-to-date capabilities. These Capability Sets are aligned to 
units in the queue for deployment or in the available pool to provide 
mission command capability from the command post, commander on the 
move, to the dismounted soldier.
    We have and will continue to encourage industry to participate in 
the acquisition process by submitting material solutions to solve 
capability gaps on a semi-annual basis. This allows for large and small 
scale industry involvement and leads to increased competition and lower 
costs.
    Capability Sets are a break with tradition in another very 
important way. Rather than conducting limited user tests of individual 
systems, the entire Capability Set undergoes two operational 
evaluations prior to fielding to assess the collective functionality, 
compliance with architectural standards, and interoperability with 
existing network capabilities.
    The Army will assess capability gaps, rapidly form requirements, 
solicit mature industry solutions, and perform laboratory and field 
evaluations in order to inform acquisition decisions semi-annually 
through the Network Integration Evaluation (NIE) construct. The intent 
of the NIE construct is three-fold: (1) reduce/eliminate the 
integration burden on operational formations; (2) develop/integrate 
network enabled mission command Capability Sets (CS); and (3) provide a 
forum to leverage industry innovation and to rapidly acquire promising 
capabilities that solve operational gaps. Fiscal year 2013 President's 
budget fully funds the semiannual NIE which provides a venue to 
evaluate new commercial technologies and network capabilities, in an 
operational environment, for possible inclusion into the Network. 
Resources have been added to the fiscal year 2013 President's budget 
request to allow procurement of commercial products evaluated and 
recommended for fielding based on NIE results.
               major program changes in fiscal year 2013
    Fiscal realities caused us to make significant changes in almost 
100 programs. Nevertheless, the Army is committed to maintaining the 
most capable Army in the world with the resources the American people 
provide us through Congress. In order to do so in an era of decreasing 
resources, we must make hard choices to maintain balance. To that end, 
we continuously examine programs to find where we may have overlapping 
or joint capabilities that meet the need, or where programs are simply 
unaffordable or where the resulting capability risk is acceptable. We 
believe that even with these changes, we still have balance in our 
equipping strategy and are on track to equip the Army of 2020. However, 
further reductions run the risk of upsetting that balance and force us 
to make very hard choices about where we sacrifice capabilities for the 
Army of 2020.
    Among the changes in our President's budget 2013 request is the 
restructure of over 20 programs, primarily due to affordability issues, 
honed requirements or availability of off-the-shelf items. These 
include Nett Warrior, JTRS, Joint Land Attack Cruise Missile Defense 
Elevated Netted Sensor (JLENS), Joint Air-to-Ground Missile and JLTV. 
In more than 50 programs we accepted risk by slowing deliveries of 
systems based on the current operational environment. These include EQ-
36 radars, Heavy Expanded Mobility Tactical Trucks, and Apache III 
Attack Helicopters. Finally, funding will cease for eight programs. 
These include: Mounted Soldier System; Long Range Advanced Surveillance 
Systems; Knight Targeting Under Armor; Liquid Logistics Storage and 
Distribution (Camel); HMMWV Recap; Family of Medium Tactical Vehicles; 
Joint Precision Approach and Landing Systems; and Airborne Common 
Sensor and Enhanced Medium Altitude Reconnaissance and Surveillance 
System.
    We also accelerated 11 programs to provide new capabilities to our 
warfighters faster. Examples include: Improved Target Acquisition 
System for Soldiers, Patriot PAC-3 Missiles, and Combat Communications 
for Casualty Care (MC4).
                           equipping strategy
    The goal of our Equipping Strategy is to ensure soldiers are 
equipped for the current fight and for future contingencies as we 
transition the Army. With the support of Congress, the Army 
significantly improved the Equipment On Hand (EOH) and modernization 
levels for the Army National Guard (ARNG), the U.S. Army Reserve (USAR) 
and the Active components (AC). The EOH levels for the individual 
components as of November 2011 are as follows: the AC 87 percent, ARNG 
87 percent and the USAR 86 percent. Based on planned procurements and 
assuming the inventory in theater and depot is made available for 
redistribution, EOH levels have the potential to be AC 94 percent, ARNG 
92 percent and the USAR 90 percent for fiscal year 2013. The 
modernization levels for the individual components as of November 2011 
are as follows: AC 70 percent, ARNG 71 percent and the USAR 66 percent. 
Modernization has the potential to be AC 76 percent, ARNG 74 percent 
and the USAR 69 percent for fiscal year 2013, if theater and depot 
stocks are made available for redistribution. Although we are a force 
in transition during a period of declining resources we must continue 
to provide the Army with the best equipped most modernized and most 
highly capable units that will prevail on any battlefield against any 
foe.
                            closing comments
    These continue to be challenging times for our Nation and for our 
military. We can assure the members of this committee--your Army's 
senior leaders remain focused and are working hard to address current 
challenges and the needs of the Army now and in the future enable 
continued readiness and expansion should the Army be needed. We will do 
this with affordability as our watchword as we endeavor to remain good 
stewards of our Nation's resources.
    Mr. Chairman, members of the subcommittee, we thank you again for 
your steadfast and generous support of the outstanding men and women of 
the U.S. Army, Army civilians, and their families. We look forward to 
your questions.

    Senator Lieberman. Thanks very much, General Lennox.
    General Phillips? Am I right that the three of you are 
prepared to, at least for now, accept General Lennox's 
statement as your own?
    General Phillips. Sir, that is correct.
    Senator Lieberman. Okay. Thank you.
    We will proceed to the questions. We will have 7-minute 
rounds. I want to welcome my colleague from Connecticut and 
fellow member of the committee and subcommittee, Senator 
Blumenthal.
    I mentioned in my opening statement my concern about the 
GCV and the JLTV programs, and the unit costs of those new 
systems, which are projected to be double or triple that of the 
upgraded current generation Bradley fighting vehicles and 
Humvees that they are replacing.
    Obviously, the two new programs bring some improvements. 
The broad question I want to ask you first is to elaborate, if 
you would, on the operational need for those new development 
systems. Why, given the tremendous fiscal restraints we are all 
under, you think that the incremental money we are spending on 
the GCV and the JLTV is worth it, essentially, as opposed to 
maintaining and upgrading the two existing programs.
    General Lennox. If I could start, Senator Lieberman.
    Senator Lieberman. Please.
    General Lennox. I think others on the panel may want to 
join in.
    In the infantry fighting vehicle, we found over the last 10 
years that there is a number of shortfalls that we are aiming 
to correct with the GCV program. The Bradley is underpowered, 
cannot carry a full squad, has limited growth potential for the 
future, and has a number of shortfalls along those lines.
    Right now, we are right after Milestone A. So we have just 
really launched the GCV, and I think we are on a very good path 
of investigating whether we have our requirements right, is our 
cost range right or not.
    We are also looking at nondevelopmental vehicles by other 
countries, and we are experimenting with them as part of our 
network evaluation at Fort Bliss, TX, this spring.
    Finally, we are looking at what industry has been able to 
provide us in terms of technical development, the new starts, 
by both the two industry partners. We are evaluating those to 
see if we have our requirements right and if this is the right 
path ahead.
    I think we are taking a very prudent, measured approach to 
making sure we have our requirements right for the GCV.
    For the JLTV, we have spent the last year really working 
with the Marine Corps to make sure that we have the 
requirements right in that regard. We have driven down the 
price substantially. It was about $450,000 a copy. We now think 
in the request for proposal it is around $250,000 a copy.
    We think it has the capabilities we need for the future. 
The Humvee is not a vehicle that soldiers can operate in today 
outside of the fence line. We desperately need a replacement 
for that, and we think we are on a good path for that as well.
    Senator Lieberman. So why don't you talk just a little more 
about the advantages of the two new programs over the two 
existing ones, the Humvee and the Bradley fighting vehicle? 
Particularly, what potential is there to upgrade the two 
existing programs so they could do better than they are doing 
now for our troops?
    General Lennox. I would be happy to be joined by anybody 
who has thoughts on this. But for me, the Humvee, for example, 
is incapable of going off the forward operating base.
    Senator Lieberman. Right.
    General Lennox. It doesn't provide the protection for 
soldiers today. We have overburdened it with the weight and 
things on that frame. There are roles that it is probably 
suitable for, and we are going to have a number of them in the 
force for probably 10 or 15 years.
    Senator Lieberman. We have a large number, don't we?
    General Lennox. Yes, sir. So they will probably remain in 
there for Homeland defense, those kind of mission areas. Or if 
the environment is permissive, we could use those vehicles.
    What we found with the Bradley based on an analysis of 
alternatives (AOA) is that the price is much closer to a new 
vehicle for fixing up the Bradley, to give it the growth 
potential and protection that we would need in a similar 
version.
    We are not done with that analysis. Improving the Bradley 
is an option for the Army in the future, and it is being looked 
at as well.
    Senator Lieberman. General Walker, did you want to add 
anything?
    General Walker. Sir, you had asked about what we do for 
risk mitigation, given the uncertain future. We do our concepts 
work based on strategic guidance we receive and informed by 
joint concepts. We have a broad mission set.
    But there is a part of that mission set that remains, and 
that is our ability to conduct combat operations. When we look 
at ways that we might mitigate risk, that capability is 
fundamental, and only--the Bradley does not have the 
maneuverability and the protection for our rifle squads that we 
believe we might encounter for those adversaries that would 
employ hybrid-like tactics against us.
    I am reminded of the fight in Fallujah in November 2004. 
Three Army task forces led three axes of advance with the 
Marine Corps. We talk about the counterinsurgency (COIN) 
operation; but it was a tank fight, protected by riflemen in 
Bradleys.
    If we did that again today, given the advances that we have 
seen in IEDs and explosively formed penetrators, we would lose 
a lot of people. I think we can expect more of that in the 
future. So this does mitigate risk.
    Senator Lieberman. Okay. I appreciate that.
    What I am hearing is that it is hard to, at this point, 
conceive of a sensible upgrade to the Humvee to meet the 
challenges. But on the question of the GCV, although as you 
have just said, there are problems with the Bradley, that that 
is still a question that is being pursued. Am I hearing it 
right?
    General Phillips. Sir, if I could just add?
    Senator Lieberman. Please.
    General Phillips. You are absolutely right, sir. We think 
we have the absolutely right strategy going forward for GCV. We 
call it the three-pronged strategy. We have the two contractors 
in the technology development phase that General Lennox 
mentioned that are actively looking at, through modeling and 
simulation, how to build this vehicle. At the same time, we are 
looking at what a stretch Bradley might look like or what it 
might be able to do.
    We are also looking at potential foreign systems, like the 
Namer. Other systems, like Puma, we will look at as well. That 
is going to inform us going into the Milestone B about 20 
months from now the exact right vehicle that we will enter into 
Milestone B through engineering, manufacturing, and 
development. So we think we have it about right.
    In terms of cost, sir, if I could just add, we refined the 
cost of the GCV as we pulled back the original request for 
proposal (RFP) and then reset. We think we can bring this 
vehicle in, and we are pretty confident, somewhere between $9 
million and $10.5 million.
    As General Lennox mentioned earlier, that is not far above 
what it would cost to do a stretch Bradley to give it the 
capability of the GCV.
    Senator Lieberman. Just a final question because my time is 
up. You are looking at the German Puma and the Israeli Namer. 
What is possible there? That we would adapt those designs to 
our own use, or that we would actually purchase from them?
    General Phillips. Sir, I will start and then turn it over 
to General Walker to finish. What we want to do going into 
Milestone B is to make sure we get our requirements documents 
as right as we can. We learn as much from those systems to 
include what the two contractors are doing and to make sure 
that we are fully informed so the Army can make the best 
decisions.
    Senator Lieberman. Gotcha.
    General Walker. Sir, to follow up, by putting those 
vehicles in the hands of soldiers in a brigade operational 
context at Fort Bliss and White Sands, what we can do is we can 
dynamically adjust our requirements if we have the requirements 
wrong. It is a way to really ask ourselves do we have it right, 
based on seeing some other alternatives.
    Senator Lieberman. Very good. My time is up.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    The reduction in end strength will not only impact the 
availability of soldiers, it is going to affect the Army's 
equipping plan. There are going to be some excesses which 
include modernization of tanks and fighting vehicles.
    What does the excess in vehicles mean for the continuation 
in production of tanks, trucks, and Bradleys? How do you plan 
to distribute the excess equipment caused by the reduction in 
end strength? For example, do the Guard and Reserve play a role 
in that?
    General Lennox. Senator Brown, we are undergoing analysis 
right now on what the future force structure will look like. So 
what is our actual force design as we draw down from 547,000 to 
490,000 in the Active Force?
    That final decision, to be made by the Secretary of the 
Army and Chief of Staff of the Army, will drive whether or not 
we do have excess or whether or not we are employing our 
Bradleys and our Abrams tanks today. It will help us define 
whether or not we do have excess.
    We don't see a lot of excess, frankly, in tanks and 
Bradleys. We do see some excess tactical wheeled vehicles, 
trucks in particular. Our plan is to make sure that we get rid 
of the oldest trucks in all our formations, Active and Guard, 
first and then divest the excess trucks. Make them available 
for divestment.
    Senator Brown. Thank you.
    The Guard and Reserve's more active role in the President's 
new national security plan is evident. How does the Army intend 
to resource training and equipping of the Reserve components? I 
am a little unclear. Are the Army Reserve and National Guard 
sufficiently funded to support the current and prospective 
missions?
    General Campbell. Sir, I can take a shot at that. First 
off, sir, thank you, and the members of the committee, for your 
continued support.
    Senator Lieberman, thank you very much for your service.
    Sir, we have what we call now the Army Force Generation 
(ARFORGEN) model, and that has been used for the last several 
years to make sure we provide manned, equipped, and trained 
ready forces for the combatant commanders. We are going through 
a process right now to make sure that we take all the lessons 
learned from the last 10 years and apply that as we revamp the 
ARFORGEN process. Included in this is the National Guard, 
Reserve, and the Active component.
    As we go through that, we will determine how many brigades 
are required to combatant commanders over a certain amount of 
time, and we can provide those resources at that time. We have 
really gone from a tiered readiness piece to a progressive 
readiness piece with the ARFORGEN getting supply/demand, and 
now we are looking hard, as we move forward, how many National 
Guard brigades and Reserve brigades we will actually need in an 
operational reserve concept versus strategic reserve.
    We talked earlier, sir. In Afghanistan, I had two National 
Guard brigades underneath my command and control. They had 
battle space just like the Active components. You couldn't tell 
the difference unless you knew the patch that was on their 
shoulder.
    They are manned, equipped, and trained just like the Active 
brigades. They perform excellent, and we have to make sure that 
we can do everything we can to maintain that capability we have 
had in the past.
    Senator Brown. Thank you.
    General Walker, in regard to the new weapons programs, they 
sometimes seem to be weighed down with unaffordable or in some 
cases, technologically unrealistic requirements. In some 
circumstances, requirements change in the middle of program 
development and, as a result, generate poor cost and schedule 
outcomes and increase the chances that a program will be 
canceled prior to fielding it. We all know instances of that.
    What is the Army doing to improve the requirements 
generation process, and what could the Army acquisition 
community do to assist in this area?
    General Walker. Senator Brown, to start at the beginning of 
when we do requirements, we have adjusted how we go about it. 
We formed integrated capability development teams with all 
stakeholders early in the process so that we don't come up with 
something that might defy the laws of physics or not make 
sense. That is one thing that we have started doing routinely 
that helps the process.
    The other is we have adjusted the way we write requirements 
so that the requirements have a more open architecture, and we 
don't end up painting ourselves into a corner early in the 
process when we don't know enough about that capability that we 
seek to develop.
    The other thing we are doing is not being so resistant to 
changing a requirement once we write it, and we can do that by 
getting that capability in the hands of the soldier earlier in 
the process and let them try it in an operational context and 
give us some feedback. I like to say that we can dynamically 
adjust the requirement as we go.
    Those have already started helping a lot as we get into the 
trades process when that time comes, working with my partner, 
General Phillips.
    General Phillips. Senator, I would just add that we are 
very serious about changing the acquisition paradigm. I used to 
call it acquisition reform, but I really now refer to it as 
acquisition transformation. Ms. Shyu and I are both really, 
really focused on that aspect.
    We are teamed with our partners to my left and right. We 
are serious about teaming with the requirements generation, 
Keith Walker and his folks. We now have program executive 
officers and program managers embedded with those that are 
looking at the requirements not only to review the 
requirements, to make sure that we have cost analyst folks, 
smart folks that have modeling and simulation to make sure that 
we know the cost of those programs as they come forward.
    Two of the programs that have been critical for the way 
that we changed the acquisition paradigm have been the GCV and 
the JLTV. In the case of GCV, we went from the original RFP 
that was going to cost about $20 million per vehicle, through 
cost-informed trades, looking hard at the requirements, looking 
at how we can do it faster and bring it in within 7 years, and 
we went to a cost of about $9 million to $10 million per 
vehicle.
    For the JLTV, it was well over $400,000 per copy, and we 
got it down to about $250,000, working with our Marine Corps 
counterparts, bringing forth mature technologies, using 
competition, and using fixed-price incentive fee or cost-plus 
incentive fee type contracts.
    One of the key aspects, sir, that I want to emphasize is 
industry builds these systems. So, in the past, we have 
probably not listened to industry to the extent we could, and 
now we are listening to industry and taking their feedback to 
make sure that we build our requirements and our acquisition 
strategies appropriately.
    Senator Brown. Just one final question. If Congress doesn't 
do anything with regard to sequestration, when do you need to 
start planning for sequestration?
    General Lennox. Tough question, Senator Brown, and a good 
one. It really doesn't take much planning for us to know that 
there is a catastrophe coming with sequestration.
    For us, it is about manpower first. That is relatively 
fixed. In the Army, you can get rid of it very quickly. But if 
you get rid of the manpower quickly, you have to pay 
unemployment, and you have to pay for people to go. So you 
won't get any savings in manpower. We will come back and ask 
for reprogramming money to pay those bills.
    We can't close our installations very quickly. You can't 
put a padlock on them and send people home. We will have to pay 
those bills, and we will have to come back and ask for help.
    The billpayers for those have to be modernization. They 
have to be training accounts, and the cost of those is that 
will very quickly have hollowing effects on the Army. I don't 
want to predict the outcome.
    So it doesn't take a lot of preparation or mathematics to 
know the impacts for us are going to be catastrophic in this 
case.
    Senator Brown. Okay. Thank you.
    Senator Lieberman. Thanks, Senator Brown.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I will make this quick because I have a time conflict. I 
will direct this question to both General Phillips and General 
Lennox, since I know what your answer is going to be.
    As an old Army guy, you have heard me talk about before I 
came to the Senate my last year in the House on the House Armed 
Services Committee. I remember we had expert witnesses that 
came in, and they said that in 10 years we would no longer need 
ground troops.
    As time went by and we looked forward, it seemed like that 
was an attitude at that time we were not modernizing our ground 
capability. Other countries around the world were. I remember 
the Crusader came along. That was going to be the answer to all 
this. We were all excited about that.
    As a Republican, I readily admit it was a Republican 
President that axed that program.
    Senator Lieberman. So noted.
    Senator Inhofe. So noted is right.
    Then the non-line-of-sight came along. Then, of course, 
Shinseki was there. We had the Future Combat Systems. They just 
axed all these things.
    Now we are down to the Paladin Integrated Management (PIM) 
program, recognizing the Paladin was actually just a little 
after World War II technology. But still, this PIM system is a 
good one. I have been watching it very carefully. After seeing 
the others slide by, I just want to see what level of assurance 
the two of you would give us that this program is going to be 
seen through, and then also why it takes so long to do it?
    General Phillips. Senator Inhofe, I will start off, and 
then turn it over to General Lennox to add to my comments. But 
upfront, I can tell you that PIM is a critical part of our 
modernization strategy.
    Senator Lieberman, you mentioned upfront the value of the 
CPRs and how General Chiarelli brought that into fruition 
inside the Army. That was absolutely critical for us to take a 
critical look at our programs and figure out which ones are 
most important. One of those that rose to the top was PIM.
    Since that time, about 2 years ago when we started working 
PIM harder than we had in the past and putting more resources 
against it, it was 2 years ago we brought a new strategy 
forward for PIM. We have kept Milestone C as June 2013, and we 
are highly confident that we will make that date, and we 
thanked Congress last year for adding money into PIM that 
allowed us to keep the milestone on track.
    We have two critical paths between now and Milestone C to 
really finalize PIM and the way ahead. One is the business case 
analysis that needs to be done in case of determining do we 
proceed with a sole source, or do we go competitive? We expect 
that to be done probably within the next 30 days. Senator, we 
will come back and make sure that we brief you on that 
strategy.
    The second would be as we drive toward the Defense 
Acquisition Board (DAB) review with Mr. Kendall, the Acting 
Defense Acquisition Executive, that we get all the testing 
completed prior to that milestone event so we are ready to go 
into low-rate initial production and soon after there into 
full-rate production. It is a high priority for us, sir.
    Senator Inhofe. Thank you. Thank you very much.
    General Lennox. Senator, I don't know that there is much 
more that I could add. I want to echo your original comment 
that we do often get our strategies wrong. In those cases, you 
have to have a modern Army.
    What we are trying to do is do incremental modernization to 
the extent possible so we are not going out on a limb, but that 
the things we undertake are achievable and affordable.
    Senator Inhofe. When we are out on the stump and talking to 
people, there is an assumption that the United States, or 
specifically the Army, has the best of everything. When their 
kids go out, they have the best equipment.
    But there are some areas where that is not true. I think 
that should be a goal for those of us who are looking into the 
future, to make sure that that does happen.
    I appreciate that assurance. If you would, General 
Phillips, in the next month or so, update us. Perhaps me in my 
office or give me a ring so we can talk about that.
    The only other area I was going to ask you about is the 
reset issue. We haven't experienced this before in our country, 
being out there in battle for 10 years, and we have all been 
over there. We have all seen the condition of our equipment.
    We know that reset is going to have to happen. We know that 
the Overseas Contingency Operations funding is going to stop. 
How are you going to handle that?
    General Lennox. Senator, I think all Army leaders have been 
very consistent about needing to have some sort of reset 
funding for several years after the end of any conflict. We are 
out of Iraq, as you well know. But the equipment is not yet 
completely out of Kuwait.
    Some is on ships coming home. Some has just shown up in our 
depots. It will probably take 2 to 3 years for us to clear the 
backlog of equipment out of Iraq and get it into the hands of 
our soldiers.
    Afghanistan will be even more challenging, and we are going 
to need the support of Congress to help us make sure that we 
get the equipment home, get it reset, and get it into the hands 
of soldiers. We have been pretty consistent, as I said. I think 
it will take about 2 or 3 years after the last soldier is out. 
We will need that kind of support.
    Senator Inhofe. Yes. I appreciate that very much, and thank 
you for your responses.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Inhofe.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today, and thank you 
for your extraordinary service to the country.
    I want to focus first on the defense against IEDs. I know 
that each of you knows about and cares about this issue at 
least as much, certainly more than I do. But I note in your 
testimony, General, that in the section dealing with support to 
the warfighter in Afghanistan, at least so far as I can see--I 
may be missing it--there is nothing in reference to the 
protective gear or to better detection and the various series 
of devices and so forth that can be mounted in that regard.
    I notice enhanced combat helmets is part of what you list, 
and I am just wondering whether there is more that you might 
say about that problem?
    General Lennox. I would ask the entire team to help me here 
because I know they have lived it and have been challenged with 
this from the beginning, Senator. So if I did leave it out of 
the opening statement and written remarks, it is a complete 
oversight.
    It is a top priority and commitment to overcome this. There 
has been a series of different items that we have fielded to 
soldiers in Afghanistan to help deal with the threat, from the 
Self-Protection Adaptive Roller Kit System mine rollers to go 
in front of the vehicles to protective ballistic undergarments 
to help those that are struck with the ability to better 
survive those kinds of effects.
    We have had a series of upgrades to our mine-resistant 
ambush-protected (MRAP) vehicles and MRAP all-terrain vehicles 
to include underbelly protection. General Phillips and I 
visited the facility while we were over there a month ago to 
watch the progress of this new and improved vehicle. A number 
of hand-held devices that help dismounted soldiers find the 
threat and get in front of the threat.
    It is top priority investment, a top area, and if I 
neglected to mention it, it is my oversight.
    Senator Blumenthal. My question was not to ask whether you 
have done everything you can. I know that you have and you are. 
I am wondering whether there is another iteration of gear, 
detection devices, that you are developing because from 
everything I know--and I am new to this committee, new to the 
Senate--this will be one of the threats to our Armed Forces 
going forward for years to come, unfortunately and tragically.
    Is there anything we can do to help you, and I am wondering 
whether there are other program areas that you are developing?
    General Phillips. Senator, I would just add that we 
continue to look hard at this. IEDs are something that we are 
putting a lot of science and technology (S&T) effort into, and 
research and development (R&D). One of those areas that we 
continue to improve is body armor which also helps to protect. 
We have done nine improvements.
    When we have gone forward to ask for funding, whether it 
has been Congress or working with the Office of the Secretary 
of Defense (OSD), no one said no when it comes to IED 
protection or soldier protection. We have the resources that we 
need, and we have to continue the investment in S&T and R&D as 
we go forward.
    One of those that we have just recently learned about from 
England, as a matter of fact, are two systems. One is pelvic 
protection and then the Goldie Detection System that is used to 
detect command wire. Those are systems that we are fielding 
today.
    Pelvic protection, this is probably first generation.
    Senator Blumenthal. Right.
    General Phillips. But we also have other generations. Sir, 
General Campbell has an organization called the Rapid Equipping 
Force (REF) that works with them, and they do some remarkable 
work in this area.
    General Campbell. Yes, sir. The REF for the last several 
years gets out in front, is able to provide equipment to 
soldiers working through the Joint IED Defeat Organization 
(JIEDDO) to get it out very quickly to the soldiers.
    Where we are making the turn now, just this year, is we are 
finally getting some of that equipment back here to stateside 
so that soldiers are able to train on that before they go over 
to Afghanistan. So, in the past, our policy, our strategy, is 
really to get it into theater very quickly, get it into the 
hands of the soldiers that are in harm's way.
    But a lot of times, that is the first time they have seen 
it. Now we are finally getting it back here. So each post, 
camp, and station has a set of training equipment. They are 
able to use that before they go. That has been with the help of 
Congress providing additional funds to do that.
    Senator Blumenthal. Right. I am hopeful that there will be 
iterations and development in the future that will be even more 
effective. Obviously, it all depends on the troops using it, 
which I understand they are doing so more and more.
    I would be happy to follow up on this. I have been in touch 
with JIEDDO, but any way that I can be helpful, I would like to 
be.
    On the Black Hawk UH-60M, the procurement is down. I think 
the numbers are 72 to 59. Are you satisfied that you will have 
enough of those helicopters not only to equip, but also to 
train and maintain the skill sets of your pilots?
    General Lennox. Senator, I think that the key issue for us 
is that we are able to continue modernizing in this constrained 
fiscal environment. So the key for Black Hawk is to keep 
improving and keep replacing things like the body and the frame 
of the aircraft, and the UH-60M model does that.
    So we are able to keep that going and hope to have a 
multiyear contract completed, I think, in the next several 
months that will allow us to keep producing the Black Hawks. 
They are performing phenomenally in combat. General Campbell 
can give firsthand experience.
    Apache also, the Apache Block III is a question of first 
giving you enhanced capabilities and then also finally 
replacing the frame on that vehicle. We have flown these things 
to no end over the last 10 years, and we have tried to keep 
them up through reset, but now it is time to replace the frame 
and to actually get a long-term replacement.
    So we have been able to continue that in our strategy, 
although at a lower level.
    Senator Blumenthal. Did you have anything you wanted to 
add, General Campbell?
    General Campbell. Sir, General Lennox was right on point. 
What I would add is just the courageousness of the pilots and 
the crews and the performance they have both in Afghanistan and 
Iraq in probably the hardest conditions that you can ever fly 
in, whether it is the weather or the terrain. They continue to 
perform superbly.
    We are very, very fortunate. We need to continue to 
modernize the Black Hawks.
    Senator Blumenthal. Thank you.
    General Phillips. We have worked hard to sustain the 
multiyear procurement contract. So thanks for supporting us on 
that.
    I would also add to what General Campbell just said, that 
there have been 5.1 million combat flight hours for Army 
aviation. Today, there are 569 aircraft in theater serving in 
combat operations in the most austere environment that General 
Campbell just described. It is remarkable what our aviation 
forces have done in this war in both Iraq and Afghanistan.
    Senator Blumenthal. The helicopter has performed well under 
very difficult conditions, matched by the courage and expertise 
of our pilots.
    I have one more area, but my time has expired.
    Senator Lieberman. Senator Blumenthal, go right ahead.
    Senator Blumenthal. Thank you.
    Senator Lieberman. It is just you and me, and I am going to 
be here a while. [Laughter.]
    Senator Blumenthal. Thank you.
    I wanted to ask about the Kiowa. You mentioned it in your 
testimony, General. I know that a decision will have to be made 
either to replace it or to use the Service Life Extension 
Program (SLEP). I wonder what is being done, in essence, to 
prepare the industry to adapt to your decision, which I guess 
will be made sometime in fiscal year 2013?
    But are your industry partners being kept informed, and 
will they be prepared to adapt to whatever your decision is on 
that?
    General Phillips. Sir, we are quite excited about how 
industry has come back to the Army and expressed interest in 
the Armed Aerial Scout (AAS), as well as the Kiowa program, 
working with Bell and the potential to upgrade that aircraft or 
to go through a SLEP.
    Last year, at the Army Aviation Association of America, I 
spoke to industry, and I will do that again here in about 
another 10 days. It wasn't too long ago that General Lennox and 
I were on a stage together, and we spoke to a host of industry 
partners here in Washington, DC, that were interested in this 
program as well. So we have gotten extraordinary feedback.
    We think there is probably somewhere around six or seven 
industry partners that are interested in the AAS program. I 
will just quickly describe our way ahead. It is really twofold.
    We are doing the Kiowa Warrior cockpit and sensor upgrade 
program today. That is going well, actually, working with Bell 
Helicopter. It is not a SLEP, though. It is not a formal SLEP.
    It is simply putting in a new cockpit and sensor, which 
upgrades the capacity of the Kiowa and reduces weight. So we 
will continue that program.
    At the same time, we expect an acquisition decision memo 
(ADM) from OSD around April 23 that will allow us to go forward 
with a formal AAS flight demonstration. That will occur 
sometime this summer within 4 months of receipt of the ADM from 
OSD.
    Then shortly after that, we expect to have a DAB around 
April of next year. So it will be fiscal year 2013, sir. We 
will make a decision on whether we have a good enough solution 
with industry and what they can provide based upon the flight 
demonstration, or is the Kiowa Warrior SLEP good enough for us 
to go forward with?
    I think our dual path strategy sets us on the right course, 
sir. Again, we are getting great feedback from industry.
    Senator Blumenthal. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Blumenthal, for those 
important questions.
    I just want to follow up on the Black Hawk. Am I correct 
that the Army is still committed to the full planned multiyear 
procurement buy of 511 aircraft, though the acquisition is down 
for this year?
    General Lennox. Senator, I would have to take for the 
record the exact number. We are committed to continue buying 
the Black Hawk beyond the program. So what we have done is just 
slip it to the right. We aren't going to stop at the end of the 
program.
    [The information referred to follows:]

    The Army is still committed to procure 511 UH-60M aircraft in the 
Multiyear Procurement VIII Contract. The contract is structured to 
procure 318 aircraft for the Army and 193 for the Navy.

    Senator Lieberman. Right. I appreciate your checking to 
confirm that that is the still the buy.
    I was going to ask about the multiyear negotiations with 
Sikorsky, when you thought that would conclude. But what I 
heard you say, I think, is that it is going to be sometime in 
the next period of months?
    General Phillips. Senator, I think we sustain the 
multiyear. I will go back and check on that and make sure that 
we get you the correct response for the record.
    [The information referred to follows:]

    Currently, the Army is still committed to the full planned buy of 
511 aircraft (318 Army/193 Navy) during the Multiyear Procurement VIII 
(MYP-8) Contract. The fiscal year 2013 budget was reduced by 12 
aircraft, but the other years have increased accordingly. The Army 
still has a requirement for a total of 2,135 H-60 L/M aircraft and will 
continue to procure UH-60M aircraft through the 5-Year Defense Plan and 
beyond to meet those modernization requirements, 1,375 UH-60M and 760 
UH-60L. The currently scheduled award date for the MYP-8 Contract is 
June 29, 2012.

    General Lennox. The funding is there, Senator, but I think 
they haven't resolved it yet. So I think it is within a matter 
of months.
    Senator Lieberman. Am I right that there are going to be 
certain price advantages for us, for the Army, for the 
Government, as a result of that?
    General Phillips. Yes, sir. We normally look for about a 10 
percent advantage for going with a multiyear, and actually, 
Sikorsky and the president of Sikorsky have committed to at 
least a 10 percent savings, sir. That is good for the Army and 
good for our aviators and our soldiers.
    Senator Lieberman. Yes. That is what I had heard. I 
appreciated Senator Blumenthal's questions about the Kiowa 
potential replacement. Major General Ben Hodges was in 
Connecticut the other day and visited Sikorsky. I happened to 
be in the State. So I spent some time with him.
    But it was also a first opportunity for me with him to get 
a briefing on the proposed aircraft at Sikorsky, other 
proposals that Sikorsky will make for what they call the 
Raider, the S-97 variant of their X2. It is a fascinating 
aircraft, and it will just be something to watch how it 
develops because it has a combination of capabilities. It is 
quite remarkable.
    I wanted to go back and look a little bit more broadly 
based on the study that was done in 2010, the Decker-Wagner 
study, which was, as you remember, quite critical of Army 
acquisition programs, saying that since 2004, the Army had 
spent $3.3 billion to $3.8 billion annually on weapons programs 
that ultimately were canceled.
    There was pretty critical language there. ``The Army lacks 
a credible quantitative model and process for determining 
realistic, achievable requirements for modernization and 
recapitalization, given reduced budgets.''
    I put that into the record because I viewed the work that 
has been done over the last year, as we referred to the work 
that has been done under General Chiarelli, as a response to 
that report and to the general concern about the cost of the 
programs and the amount of money that was being spent for 
programs that didn't materialize.
    So could you analyze the fiscal year 2013 request in the 
context of the Decker-Wagner criticisms and perhaps what I will 
generally refer to as the Chiarelli reforms? In other words, 
what did you do differently this time based on that experience 
and that report?
    General Phillips. Sir, I will from an acquisition 
perspective, and then I will let General Lennox and our 
partners join in. But we really used something that Congress 
gave us in terms of the Weapon Systems Acquisition Reform Act 
and the ability to execute configuration steering boards.
    We in acquisition had the authority for the first time to 
sit with those that had the requirements and the resources. So 
all of us together, through the CPR process that you defined, 
sir, and the Configuration Steering Boards (CSB), could really 
look hard at everything from requirements generation to what we 
are bringing forward, all the way through to the acquisition 
strategy.
    Through some very tough discussions in and among the Army 
family, we were able to come to closure on what requirements 
were. Do we have them right? Can we refine them? Do we have 
cost-informed trades? Do we have the right strategy? What did 
we no longer need that we can divest in terms of systems that 
might be in a given portfolio?
    But we tied that together in a way that it really allowed 
us to make sure that we are buying what we should be buying 
and, at the same time, leveraging Decker-Wagner, which was a 
blueprint for us to improve. Really, we looked at all 76 
findings, and we have already implemented about 42, which a 
part of that has been the CPRs and the CSBs being tied 
together.
    It has been very positive for us, sir, and I think you see 
that reflected in the fiscal year 2013 budget.
    Senator Lieberman. That is great to hear. Anyone want to 
add? General Lennox?
    General Lennox. If I could? A precursor to that, sir, is 
that we lost about $2 billion in buying power from fiscal year 
2012 to the fiscal year 2013 budget submission. From our plan, 
it was even higher than that.
    If we did not have the portfolio review process, we would 
have really been awash, I think, and it is that portfolio 
review process that helped us prioritize what inside each 
portfolio was more important than the others.
    General Campbell's job then is to give an independent 
prioritization for the Army, and what he helped us do is 
determine where we had to take those cuts. We ended up killing 
8 programs and delaying almost 80 others not because of 
performance; some of those programs were performing well. It 
was a function of whether or not you could afford to do it and 
what priorities you had to give up in order to do this.
    So I think the entire process you talked about, set in 
stage by General Chiarelli, continued by General Lloyd Austin, 
in this portfolio review look, is enabling us to help 
prioritize.
    Senator Lieberman. Either of you want to add anything?
    General Campbell. Sir, I was just going to add to what 
General Lennox said at the end there that when General Austin 
came onboard, the first thing he did was say, ``Let us look at 
the CPR business and really take and work that.'' So we will 
continue with that. I think the discussions that we have as a 
group are very open, candid, and really looking hard toward the 
future. What General Walker and his unit does down in the Army 
Capabilities Integration Center is look out at the Army of 2020 
and really determining where we need to go in the future. 
Combining that with the CPR business, it is going to give us 
the best solution in the end.
    Senator Lieberman. Good. General Walker?
    General Walker. Sir, I talked about a few of the 
requirements procedures we are doing differently. But 
specifically, with regard to Decker-Wagner, Training and 
Doctrine Command was asked to look at some areas specifically 
with regard to staffing on ways to speed up staffing processes 
requirements. So we did that.
    We were asked to look at key performance parameters that 
were mandatory versus nonmandatory and the same thing for key 
system attributes and provide recommendations on how to 
quantify those to speed the process so they didn't get out of 
control. We were also asked to look at the threshold and 
objective key system attributes on policies we could establish 
about just using low-risk ones so we didn't invent things that 
were so risky because, I used the term before, it might defy 
the laws of physics and engineering.
    We worked those responses in the Decker-Wagner 
recommendations up with DOD.
    Senator Lieberman. I appreciate that response because I 
think you took that report seriously. I know it is never 
possible to guarantee anything, but is it fair to say that you 
present this budget this year, for fiscal year 2013, with a 
sense of confidence that we are not going to be spending a lot 
of money on programs that are going to be canceled? I guess I 
would put it that directly.
    General Lennox. Senator, I think so. We have really only 
two transformative programs, I think, in our entire portfolio. 
One is the network.
    Senator Lieberman. Right.
    General Lennox. We have network evaluations designed to 
help us learn and iterate through that process. We are relying 
more on commercial off-the-shelf capabilities than leap-ahead 
technologies.
    The other one is the GCV. Because we have put in a 7-year 
requirement there, we are not looking at miracles in terms of 
armoring and armoring capability. We are looking at what 
industry can do for us today.
    Those are really our two big leap-ahead programs. Most of 
the rest of the Army's modernization portfolio involves 
incremental improvements. I do think we come with much more 
confidence this year to you, that I think our proposals are 
well-grounded, and there has been a lot of work done.
    I don't want to tell you that we haven't made a mistake, 
but I think we are in better shape this year than we have been.
    Senator Lieberman. I must say in my 24 years here, no one 
has ever told me they haven't made a mistake.
    Let me ask some general questions about the defense 
industrial base. The defense strategic guidance set it as a 
major tenet to protect the Nation's defense industrial base, 
which can be problematic at a time of diminishing budgets.
    Specifically, DOD funding reductions for fiscal year 2013 
have reduced, as we have said, Army's modernization investment 
accounts and acquisition strategy. I wanted to ask you, given 
that and the fact that we are going to continue to operate for 
some period of time in this resource-constrained environment, 
what, in your view, are the major risks, if any, to the defense 
industrial base?
    General Phillips. Senator Lieberman, I will start off and 
then turn it over to my colleagues.
    As we look across all the portfolios, I think the one that 
we have to look hard at, and we are looking hard at, is the 
combat vehicle portfolio. When you look at the way the Army has 
made some great progress in the past of upgrading Bradleys and 
upgrading Abrams tanks and what that means in terms of not just 
the prime contractors, but also the sub-tier contractors.
    We are worried about all portfolios. We are looking across 
all of them, whether it is thermal weapons sites, soldier 
systems, or tactical wheeled vehicles. But the one that rises 
to the top for me is combat vehicle portfolios.
    I would add that we are a team with OSD as we look at 
sector-by-sector, tier-by-tier, and sub-tier contractors to 
figure out where the great risks are so we can work on the 
single points of failure to make sure that we sustain the 
important sub-tier vendors not only for combat vehicle 
portfolios, but for other systems as well.
    General Lennox. I think General Phillips has hit on it, 
Senator. These are tough choices for us, and if you cover down 
on something you don't need, are you then exposing another 
industry?
    Senator Lieberman. Yes. I agree. You can't do it all. So 
the challenge, of course, is to minimize risk. You can't 
eliminate it here.
    Let me ask you, in that regard, to talk about what the 
logic is behind the Army's plans for 3- to 4-year production 
gaps for M1 Abrams tanks and the M2 Bradley fighting vehicles.
    General Lennox. Sir, the big one is that both the Abrams 
fleet, about 3.5 years in average age, because we have been 
able to reset the fleet as it has come out of Iraq, because we 
have produced and have been producing new vehicles, the Abrams 
fleet is very young. We have a very good strategy accepted by 
both the Guard and the Active Force to field with a two-variant 
fleet, and we have reached that objective.
    Buying additional tanks is something that we deemed less 
important than investments in aviation, and investments in some 
of the other areas for the future. As you mentioned, it is a 
question of where do you want to take your risk? Because it is 
all risky.
    In the case of the Bradley vehicle line, York, PA, and the 
Bradley plant there, we have tried to mitigate that in our 
fiscal year 2013 budget proposal by proposing to upgrade the 
M88A1 Hercules to an A2 variant. We think we may need that in 
the future not only for recovering tanks, but for the GCV. So 
we have attempted to mitigate that in fiscal year 2013.
    Senator Lieberman. You answered the next question, which is 
how do you deal with the potential loss of industrial 
capability or capacity associated with those two production 
gaps? Do you want to add anything to that, General Phillips?
    General Phillips. Sir, I would add just a couple of 
comments to the Joint Services Manufacturing Center, better 
known as Lima.
    Senator Lieberman. Right.
    General Phillips. Some of the things that we are working 
with General Dynamics (GD) is to better understand the sub-tier 
contractors that support the production at that facility. We 
know that there are about 790 or so workers that are there. 
Working with GD, we know that about 49 of those are very 
critical workers that are engineers that are involved in 
tooling and design and other aspects of engineering tasks.
    There are another 439 or so that are manufacturing workers 
that are involved in welding of ballistic holes, understanding 
how to put classified armor on the Abrams, and being authorized 
to execute those tasks. There is a host of those as well.
    Working with our international partners and working with 
GD, one thing that we want to do is leverage foreign military 
sales (FMS) as much as possible. There are no guarantees, but 
it looks more promising today than it did just several months 
ago in terms of countries like Egypt, Saudi Arabia, and others 
who have shown an interest in upgrading Abrams tanks or buying 
new Abrams tanks.
    We are working hard to make sure that we can do everything 
possible to sustain the critical skills.
    Senator Lieberman. That is a great point and, obviously, 
very helpful, using FMS.
    Let me ask you a last series of questions about 
reversibility because in the full committee's hearings on the 
budget for next year, in posture hearings, a number of the 
witnesses have described the concept of reversibility as 
enunciated in the defense strategic guidance.
    What are the Army's specific objectives with regard to 
reversibility? How much of the force would the Army be able to 
reconstitute and in what amount of time if you were called upon 
to do that?
    General Campbell, maybe that is a good place to start? Then 
General Walker as well.
    General Campbell. Yes, sir. Great question. The 
reversibility issue is key for us as we take down to 490,000, 
not knowing what we will face in the future, how do we raise 
that force back or grow the Army. So what we are looking at in 
reversibility is having policies and procedures in effect that 
we can put into place things now that will enable us to move 
forward that way.
    Then expansibility would be actually growing the Army to 
meet that demand. I don't think we know exactly the number that 
we need to grow to, to be able to work that piece. We will 
continue to work that hard.
    I think there are ways that we can enable ourselves to be 
in position to do that better, whether it is through having 
more officers in position. So cadre-type led organizations that 
can bring in new recruits because it is a lot easier to bring 
in a new recruit, to train him, as opposed to having a senior 
noncommissioned officer (NCO) or an officer. It takes more time 
to grow that.
    We will be a little bit more officer or senior NCO heavy in 
some organizations. We have to continue to take a look at those 
types of policies, put those in place, and make sure that we 
can look for the future.
    Senator Lieberman. Thank you.
    General Walker.
    General Walker. Sir, what I would like to add is that 
reversibility goes with expansibility. The idea being should 
the Nation need the Army to grow again, will we have the 
capacity to do that? So, in that context, reversibility for us 
becomes everything we invest in the Army now so that should the 
Nation call upon us, we can do that.
    A couple of points I would like to highlight in that 
regard. One is the type of investment we need to do, it is all 
about readiness and investment in our people, and that is more 
than just equipment modernization, which we have talked about 
now, particularly in this environment.
    We are taking a very broad look across doctrine, 
organization, and training. Yes, we still look at materiel, but 
aspects of leader development are huge, and our personnel 
policies and facilities that would help us do that. Perhaps 
most importantly we think is the investment in our mid-grade 
leaders so that should we have to expand, we can do that.
    When we grew the Army a few years ago, we showed the 
ability to recruit about 15,000 soldiers a year, should we have 
to do that in the future.
    But of course, if there are no captains and majors and 
sergeants with which those new recruits can form units around, 
we won't be able to expand. So a real holistic approach is 
critical, and investment in our mid-grade leaders is critical.
    Senator Lieberman. That is a really important point and one 
I have worried about. How do we not only invest in the mid-
grade leaders, but sustain their involvement in the Army, their 
reenlistment in the kind of context we are going into?
    General Walker. I think one of the things Army leaders have 
really asked themselves is with our young leaders right now, 
who have had a lot of freedom of action, independence in 
combat, how are we going to keep them interested when we get 
them back from combat and put them in Fort Hood or Fort Benning 
or what have you?
    Senator Lieberman. Right. That is exactly my question.
    General Walker. Maybe I have the benefit of having kids who 
are serving. When I talk to them about it, the blinding flash 
to the obvious becomes that, ``Dad, we didn't join the Army for 
a new piece of equipment, or we didn't join the Army for some 
newfangled technology or software. We joined it for the 
opportunity to lead soldiers.'' Those opportunities exist here.
    Now our challenge in leader development is we talk about a 
leader development triad of training, education, and 
experience. We are real high on the experience right now. We 
have to rebalance as part of our investment strategy to pull up 
the education and training piece to balance that experience so 
we can take the Army forward.
    Senator Lieberman. You obviously did a good job at raising 
your children.
    General Walker. Their mother did well, sir.
    Senator Lieberman. I think you both did, I am sure.
    Notwithstanding what your children said, and of course, I 
admire it, I want to now turn just briefly to those gadgets and 
to ask General Lennox and General Phillips how the Army is 
going to seek to incorporate the concept of reversibility into 
your modernization strategy?
    General Lennox. Senator, I have been thinking while my 
folks here at the table have been discussing leader 
development. What we have tried to lay out for senior leaders 
in the Army is where are the best places to take risk? Where 
can you best take risk? If you guess wrong, then how 
challenging is it to recover?
    For example, we have sustained our investment in things 
like attack helicopters. If you stop the line, it is incredibly 
challenging to build a new attack helicopter from scratch. We 
build the best ones in the world. We don't want to do that.
    We did take risk on things like our tactical wheeled 
vehicles. We are going to ramp down the number of medium 
trucks, for example, that we are buying. We are going to reset 
our heavy fleet rather than buying new.
    The Nation does this very well, and if we guess wrong, that 
is an area that we can ramp back up in. So it is that kind of 
calculus that we tried to set out for senior leaders, and I 
think we have been able to accomplish in the fiscal year 2013 
proposal that we have taken risk in areas that we can recover 
from if we guess wrong.
    General Phillips. Sir, I would just add that the key for us 
is the industrial base, which is what General Lennox is 
discussing. If we want to double the production of any given 
system, whether it is a weapon or a vehicle or a tank or 
whatever it might be, do we have the capacity to actually 
expand and to meet those requirements?
    So the industrial base becomes critical for us, sir.
    Senator Lieberman. I appreciate the answer. I appreciate 
your testimony. You have been very responsive. You are really 
an impressive group of leaders. We are lucky to have you 
serving our country, serving the Army.
    I thank you for your testimony and for what you have had to 
say today and what you have done over the years.
    The record of the hearing will be held open until this 
Friday, March 30th at 5:00 p.m., to allow Senators to submit 
additional statements or questions for our witnesses.
    Gentlemen, we would be grateful if you would respond to any 
of those that the subcommittee members might submit as soon as 
possible.
    The date for the markup has not been set yet, but it is 
probably sooner than later. So the sooner you can respond, the 
better.
    Do you want to add anything, any of you, to the record?
    General Lennox. One more shot, if we could, just to thank 
you, Senator, for your patience, your support of Army 
modernization, and your service to the Nation.
    Senator Lieberman. That is not why I gave you one more 
opportunity to speak. [Laughter.]
    But nonetheless, I appreciate it very much.
    With that, the hearing is adjourned.
    Thank you.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
              army science and technology and investments
    1. Senator Lieberman. General Lennox, the Army's science and 
technology (S&T) budget is down by approximately $600 million relative 
to last year's requested levels; of particular concern is the reduction 
in investments in combat vehicle research. I know that the Army vehicle 
modernization program is critically dependent on advanced technologies 
in armor, energy, power, and networks and communications. In general, 
what are your top areas of budget risk in the Army's S&T program?
    General Lennox. The fiscal year 2013 budget request submitted to 
Congress provides the correct levels of investment for the Army S&T 
enterprise. The Army S&T program request for Budget Activity (BA) 1-3 
for fiscal year 2013 is $2.2 billion--a 3.2 percent, or $73 million, 
decrease from the Army's fiscal year 2012 request. BA3 programs 
decrease by $86 million, while BA1 and BA2 programs increase by $7 
million and $6 million, respectively.
    In fiscal year 2013, the Army is placing increased emphasis (and 
investment) on ground and aviation vehicle survivability, research in 
focal plane arrays, and alternative fuels for ground vehicles. Due to 
budgetary pressures, we will accept some greater risk (reducing 
funding) in lethality, unmanned/autonomous ground vehicles, and 
military engineering. We are not accepting greater risk in technology 
areas critical to Army vehicle modernization. Specifically, some of the 
areas of Army S&T with a reduced investment in fiscal year 2013 are:

    (1)  Lethality, including the delay of a laser ruggedization 
demonstration, reduction to 6.3 mortar lethality/precision efforts and 
a reduction in 6.3 investments in the Small Organic Precision Munition.
    (2)  Unmanned/autonomous ground vehicles, including the termination 
of Small Unit Unmanned Aerial Vehicle radar and the delay of tactical 
command and control for robotic technology demonstrations.
    (3)  Military engineering, including geospatial products for 
tactical units and military technologies for installations.

    2. Senator Lieberman. General Phillips, do you feel that the Army 
is adequately investing in military construction (MILCON) and 
sustainment of its laboratories and research and engineering centers?
    General Phillips. The Army laboratories and research, development, 
and engineering centers do not compete well with other priorities for 
MILCON funding, although many have benefitted from the Base Realignment 
and Closure, congressional earmarks, minor MILCON authority and the 
authority provided in section 219 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009. Making improvements to our 
infrastructure and facilities like this at the margins is not a long-
term solution. The Army does not find that this is a sustainable model, 
and is currently undertaking a comprehensive review of its S&T 
infrastructure and facilities to quantify the most serious areas of 
concern and develop a priority list for needed repairs and upgrades.

    3. Senator Lieberman. General Phillips, I understand that the Army 
is working to optimize materiel development as a result of the Decker-
Wagner report. While I applaud efforts to save money, I am concerned 
that recommendations involving the S&T community have not considered 
the full impacts on the ability of the Assistant Secretary of the Army 
(ASA) for Acquisition, Technology, and Logistics staff to manage S&T, 
or the impacts on Army Medical Command labs, Army Corps of Engineers 
labs, and other non-Army Materiel Command (AMC) Army organizations 
involved in S&T. Please comment on this effort to optimize and the 
recommendations that are currently under consideration.
    General Phillips. The Decker-Wagner Army Acquisition Review 
recommended the disestablishment of the Research, Development, and 
Engineering Command (RDECOM) because in the study group's view, RDECOM 
``has not added enough value to be continued.'' The Army did not concur 
with this assessment. RDECOM provides a valuable service by integrating 
research and development (R&D) efforts across different RDECOM Centers. 
Currently, the Army is studying how to optimize materiel development 
and sustainment efforts, to include research, across the Army 
acquisition and materiel communities. This study is considering how 
best to leverage the R&D headquarters to efficiently apply S&T across 
the community to solve critical Army problems. This effort, which is 
primarily focused on improving processes, is ongoing.

    4. Senator Lieberman. General Phillips, I understand that the Army 
staff is in the process of developing their recommendations for MILCON 
projects for fiscal year 2014 to fiscal year 2018. Over the past 
several years, the priority has rightfully been on meeting the needs of 
a growing Army and the needs of the warfighter in general. As a result, 
our research facilities took a back seat and are in need of upgrades to 
ensure they can support the needs of the future. Will you ensure that 
the fiscal year 2014 to fiscal year 2018 MILCON Program Objective 
Memorandum (POM) considers the needs of our laboratories and begins to 
recapitalize the Army's laboratory S&T infrastructure?
    General Phillips. The Army is committed to recapitalization of its 
laboratory/S&T infrastructure along with recapitalization of other 
critical facility types such as barracks, training ranges, industrial 
production facilities and Reserve component readiness centers. Fiscal 
year 2013 investments in laboratory infrastructure included two Army 
Material Command projects: a $47 million Flight Activity Facility at 
Lakehurst Naval Air Engineering Center, NJ; and a $10.2 million 
Ballistics Evaluation Center at Picatinny Arsenal, NJ.
    Commands involved in Research, Development, Testing and Evaluation, 
to include the Army Materiel Command, the U.S. Army Medical Command, 
the U.S. Army Test and Evaluation Command, and the U.S. Army Corps of 
Engineers, have submitted requirements for recapitalization and 
modernization of their respective laboratory infrastructure throughout 
the United States. The Army is carefully reviewing these requirements, 
and the Commands' project prioritization, as they compete for funding 
against all of the Army's other facility recapitalization needs in the 
fiscal year 2014-2018 POM process.

                        force structure changes
    5. Senator Lieberman. General Campbell and General Walker, the Army 
has been reassessing its modular armored and infantry brigade 
structures and will soon decide to add a third maneuver battalion 
(infantry or armor) to each. Under the Army's current modular design, 
armored and infantry brigades have only two maneuver battalions. The 
combination of end-strength reductions and adding a third maneuver 
battalion will likely drive manpower realignments that result in an 
additional reduction in the total number of Active Duty combat 
brigades. These reductions will be in addition to the 8 brigades 
reduction announced with the new Defense Strategic Guidance, and press 
reports suggest the reduction could be as many as 13 total or from 45 
Active Army combat brigades down to 32. What are the Army's plans to 
reduce the current structure of 45 Active Duty Brigade Combat Teams 
(BCT) and to change the current mix of Armored, Infantry, or Stryker 
brigades?
    General Campbell and General Walker. The Army announced during the 
fiscal year 2013 President's budget release that a minimum of 8 BCTs 
and other force structure totaling 57,400 would have to be reduced over 
the course of the 13-17 Future Years Defense Program to achieve the 
Active component end state of 490,000 by the end of fiscal year 2017. 
Additionally, the Army continues to assess the design and mix of BCTs 
based upon the lessons from the last 10 years of war. This analysis 
could lead to a decision to reorganize BCTs within the 490,000 Active 
component end strength, into more capable and robust formations, 
requiring further BCT reductions to increase overall versatility and 
agility for tomorrow's security challenges. Within its currently 
planned reduced end strength, the Army continues to assess the best mix 
and quantity of BCTs (Heavy, Infantry, Stryker, Airborne) required to 
provide the necessary mix of combat power and capabilities for 
projected future obligations. An announcement on specific force 
structure actions is expected sometime before, or in conjunction with, 
submission of the fiscal year 2014 President's budget in early February 
2013.

    6. Senator Lieberman. General Campbell and General Walker, how will 
Army plans and execution of the reductions account for different 
equipment requirements?
    General Campbell and General Walker. The Army continues to assess 
the best mix and quantity of BCTs (Heavy, Infantry, Stryker, Airborne) 
required to provide the optimal blend of combat power and capabilities 
for projected future obligations within its currently planned reduced 
end strength. The Army intends for the reorganization to be cost 
neutral to the extent possible, and so equipment inventories have been 
factored into recommendations on the quantity, as well as design, of 
the different types of brigades. The emerging force structure plans are 
being closely coordinated with the Army acquisition community to ensure 
impacts to modernization programs are identified and accounted for in 
transition timelines. Equipment requirement adjustments will be 
dependent on the specific force structure actions expected to be 
announced in conjunction with submission of the fiscal year 2014 
President's budget in early February 2013.

    7. Senator Lieberman. General Campbell and General Walker, where is 
the Army in its analysis and decision process with respect to adding a 
third maneuver battalion to the Infantry and Armor brigades?
    General Campbell and General Walker. The Army continues to assess 
the design and mix of BCTs based upon the lessons from the last 10 
years of war. This analysis could lead to a decision to reorganize BCTs 
within the 490,000 Active component end strength, into more capable and 
robust formations, requiring further BCT reductions in order to 
increase overall versatility and agility for tomorrow's security 
challenges. An announcement on specific force structure actions is 
expected sometime before, or in conjunction with, submission of the 
fiscal year 2014 President's budget in early February 2013.

    8. Senator Lieberman. General Campbell and General Walker, how 
would such a change enhance the Army's warfighting capabilities?
    General Campbell and General Walker. Reorganized BCTs with a third 
maneuver battalion and an engineer battalion will be more capable; this 
will result in a more agile and versatile Army and BCTs that are 
properly resourced to meet mission requirements. This major transition 
for the Army involves shifting from a force focused on 
counterinsurgency, counterterrorism, and advising and assisting to one 
that actively prepares to effectively conduct a fuller range of 
potential missions. The reorganization preserves combat power by 
increasing the number of combat battalions in the force over the 
unreorganized BCT. The Army has conducted extensive analysis and has 
determined that this reorganization retains a sufficient number of more 
capable BCTs to meet the New Defense Strategy.

    9. Senator Lieberman. General Campbell and General Walker, when 
will the Army make a decision and announcement?
    General Campbell and General Walker. An announcement on specific 
force structure actions is expected sometime before, or in conjunction 
with, submission of the fiscal year 2014 President's budget in early 
February 2013. The Army will develop a plan that will provide detailed 
information regarding the drawdown and address notification of affected 
congressional districts and Army installations prior to the decision 
going into effect.

    10. Senator Lieberman. General Campbell and General Walker, given 
that requirements assessment and development processes now include cost 
estimates, what are the Army's estimates of the potential incremental 
increase in costs to implement such a decision, particularly with 
respect to modernization and equipment distribution?
    General Campbell and General Walker. The Army intends for the 
reorganization to be cost neutral to the extent possible. There may be 
some one-time costs to move equipment, move soldiers on Permanent 
Change of Station (PCS) orders, and provide appropriate facilities for 
larger formations. These costs are entirely dependent on the final 
stationing outcomes. Equipment modernization and distribution for the 
reorganized BCTs will occur in accordance with emerging Army 
priorities.

    11. Senator Lieberman. General Campbell and General Walker, given 
the capability that the current brigade structure has demonstrated in 
combat and the potential increase in costs to implement a major 
reorganization, what would be the basis for justifying the additional 
expense?
    General Campbell and General Walker. Reorganized BCTs with a third 
maneuver battalion and an engineer battalion will be more capable; this 
will result in a more agile and versatile Army and BCTs that are 
properly resourced to meet mission requirements. The Army intends for 
the reorganization to be cost neutral to the extent possible. There may 
be some one-time costs to move equipment, move soldiers on PCS orders, 
and provide appropriate facilities for larger formations. These costs 
are entirely dependent on the final stationing outcomes. An 
announcement on specific force structure actions is expected sometime 
before, or in conjunction with, submission of the fiscal year 2014 
President's budget in early February 2013.

    12. Senator Lieberman. General Campbell and General Walker, what 
factors would drive the urgency of such a change?
    General Campbell and General Walker. The Army faces a more 
ambiguous future, one in which it must be prepared to fight and win 
major combat operations while potentially facing a wide range of other 
foundational missions. This major transition for the Army involves 
shifting from a force focused on counterinsurgency, counterterrorism, 
and advising and assisting to one that actively prepares to effectively 
conduct a fuller range of potential missions. These BCTs must possess 
the versatility necessary to meet demands across a very wide range of 
foundational missions. Now in 2012, our Nation's leaders are adopting a 
national strategy that states ``forces will no longer be sized'' for 
the types of operations conducted in Iraq and Afghanistan.

                           armed aerial scout
    13. Senator Lieberman. General Lennox and General Phillips, a 
recent press report portrays the Army's Armed Aerial Scout (AAS) 
analysis of alternatives (AOA) as finished, submitted to the Office of 
the Secretary of Defense (OSD), and that it recommends updating the OH-
58F Kiowa Warrior and teaming them with unmanned aerial vehicles (UAV). 
I understand, however, that the AOA is an interim product provided to 
OSD to inform an acquisition decision memorandum supporting a voluntary 
flight demonstration of existing helicopters with the potential--if 
effective, suitable, and affordable--to replace the Kiowa. What is the 
current status and plans for the AOA and the AAS program?
    General Lennox and General Phillips. As a supplement to the 
completed AOA, the Army is conducting market research by releasing a 
Request for Information (RFI), conducting discussions with industry, 
and giving industry an opportunity to voluntarily demonstrate potential 
solutions to help determine what technologies are available from 
industry that may contribute to a potential material solution option. 
The Army does not intend to compare individual results from the 
voluntary flight demonstration against each other, but rather assess 
their capability against the capability gaps identified in the initial 
capabilities document and utilized for the AOA. The end state is to 
identify an affordable, achievable, moderate risk material solution 
option and requirements based on the current state of technology in the 
market. If the results of the voluntary flight demonstration(s) 
determine that a material solution option that delivers greater 
capability is not affordable, then the Army will consider pursuing a 
Service Life Extension Program of the Kiowa Warrior fleet. 
Affordability will be a major factor in the capabilities determination 
decision at the end of the market research effort.

    14. Senator Lieberman. General Campbell and General Walker, has the 
Army settled on what capabilities and requirements it wants in an AAS 
helicopter?
    General Campbell and General Walker. There are no specific 
requirements for the AAS as we have yet to enter into a formal 
acquisition process. The July 2009 AAS Joint Requirements Oversight 
Council validated and approved the Initial Capabilities Document, 
identifying the capabilities being sought in a new Scout helicopter. 
Those capabilities included the ability to respond across a division 
area, able to operate with a combat load of Hellfire missiles or 
rockets, and 50 caliber weapons appropriate to the threat at a baseline 
environment of 6,000 feet and 95 degrees Fahrenheit.
    On April 25, 2012, the Army received approval to release the AAS 
RFI soliciting input from industry regarding cost, production schedule 
and performance data for their armed Scout helicopter. The RFI 
describes the capability shortfalls listed in the 2009 AAS ICD that 
continue to exist in the Kiowa Warrior fleet with respect to speed, 
range, endurance, performance in high/hot conditions, and lethality. 
These capabilities are being used as the baseline in evaluating any 
potential armed Scout helicopter.

    15. Senator Lieberman. General Campbell and General Walker, with 
the proven capability of unmanned systems to conduct armed 
reconnaissance missions and the major investment the Army is making in 
the Kiowa Warrior fleet and other existing systems, has the Army 
definitively concluded that there is still a requirement for a manned 
armed reconnaissance type aircraft like the AAS?
    General Campbell and General Walker. The AAS AOA clearly determined 
that unmanned aircraft are not yet fully capable of replacing manned 
aircraft in an armed reconnaissance role. The practice of teaming 
unmanned aircraft in a reconnaissance roll with either lightly armed 
Kiowa Warriors or more heavily armed Longbow Apaches has proven to be 
very effective in combat operations in Iraq and Afghanistan. Recent 
Combat Training Center rotations with the first Shadow-equipped Full 
Spectrum Combat Aviation Brigade continues to show the synergy achieved 
when teaming unmanned systems with manned systems. However, unmanned 
systems are extremely limited in every other mission required of an 
AAS, to include security of mounted and dismounted ground forces as 
well as close combat attack missions. Additionally, our unmanned 
systems have operated in Iraq and Afghanistan at altitudes out of the 
range of threats such as small arms, RPG, and hand-held IR guided 
missiles; however, they are very vulnerable to any modern threat 
employing radar guided air defense systems.

    16. Senator Lieberman. General Campbell and General Walker, could 
the armed reconnaissance capability be met with existing legacy 
upgrades and an unmanned system, and, if so, would a new developmental 
aircraft effort be needed at this time?
    General Campbell and General Walker. The airframes in the current 
fleet of Kiowa Warriors are 40 years old. The Cockpit and Sensor 
Upgrade Program will modernize communications, navigation, and weapon 
processors to address obsolescence and safety issues in the Kiowa 
Warrior. However, these upgrades do not improve the performance of the 
Kiowa nor extend the service life of the aircraft, which is currently 
2025. The ongoing research we are conducting with the AAS RFI and 
Voluntary Flight Demonstration will help determine if there is an 
affordable replacement to the Kiowa Warrior or whether we need to 
invest in extending its service life and improving the performance.

                           uh-60m black hawk
    17. Senator Lieberman. General Lennox and General Phillips, the 
justification for a multiyear procurement (MYP) for UH-60M helicopters 
was based on the production of 511 aircraft for the Army over 5 years. 
Last year's fiscal year 2012 budget request projected the procurement 
of 71 aircraft in fiscal year 2013, however, the actual fiscal year 
2013 budget request received in Congress reduces the planned buy from 
71 to 59. Is the Army still committed to the full planned buy of 511 
aircraft?
    General Lennox and General Phillips. The Army is still committed to 
procure 511 UH-60M aircraft in the MYP VIII Contract (MYP-8). The 
contract is structured to procure 318 aircraft for the Army and 193 for 
the Navy.

    18. Senator Lieberman. General Lennox and General Phillips, does 
the reduction of 12 aircraft in fiscal year 2013 have any impact on the 
UH-60M MYP such as cost per helicopter or total value of the MYP?
    General Lennox and General Phillips. The MYP-8 contract is 
structured to provide flexibility each year to procure from 100 percent 
to 80 percent of the President's budget 2012 annual quantity without 
breaking the MYP-8 contract. The reduction of 12 aircraft in fiscal 
year 2013 is within this 80 percent boundary and therefore does not 
affect the contract. Prior to the final MYP-8 negotiation settlement, 
82 Foreign Military Sales (FMS) were added to the contract which 
supplemented the base Army quantity, thereby offsetting any increased 
unit cost due to base quantity reductions.

    19. Senator Lieberman. General Lennox and General Phillips, is 
there any impact or risk to achieving the 10 percent savings projected 
in the MYP authority justification?
    General Lennox and General Phillips. Based on completed 
negotiations of the Multi-Service MYP-8 contract, the risk is low for 
achieving the projected 10 percent savings. Substantial savings will be 
achieved during the MYP-8 timeframe based on savings realized during 
negotiations and through the realization of FMS aircraft prior to 
negotiations, which allow an offset to increasing unit costs should the 
base quantity decrease due to budget reductions.

                    improved turbine engine program
    20. Senator Lieberman. General Lennox and General Phillips, the 
Army Improved Turbine Engine Program (ITEP) envisions a more fuel 
efficient and powerful engine for the UH-60 Black Hawk and AH-64 Apache 
helicopter fleet. Please describe the Army's development and 
acquisition strategy for the ITEP.
    General Lennox and General Phillips. The ITEP will be initiated 
with a Materiel Development Decision planned in the fourth quarter of 
fiscal year 2012. Contract award is planned to two competitors for the 
design, development, and qualification effort. A competitive down 
select to a single vendor will be made following qualification and 
testing for Low-Rate Initial Production (LRIP). After the completion of 
LRIP, a sole source contract will be awarded for the Full Rate 
Production.
    Two additional contracts will be awarded to Sikorsky, manufacturer 
of the Black Hawk, and Boeing, manufacturer of the Apache, for Airframe 
Integration and Qualification of the ITEP engine.

    21. Senator Lieberman. General Lennox and General Phillips, will 
there be competitive prototyping for this program through a technology 
demonstration phase and into an engineering, manufacturing, and 
development phase?
    General Lennox and General Phillips. Yes. Currently the competition 
involves two contractors, General Electric-Aviation and Advance Turbine 
Engine Company (a joint venture between Pratt & Whitney and Honeywell), 
developing demonstrator engines during a S&T program through the Army 
Aviation and Applied Technology Directorate, Fort Eustis, VA. The S&T 
program is expected to culminate with component technology being 
demonstrated at Technology Readiness Level, level 6. The Improved 
Turbine Engine Program intends to leverage results of the S&T program 
and continue competition through engineering, manufacturing, and 
development.

                     small arms/carbine procurement
    22. Senator Lieberman. General Lennox and General Phillips, over 
the years there have been many assertions that the Army's current basic 
rifle and carbine should be replaced. The Army has started a phased 
approach to a competition for a potential carbine replacement. Please 
outline the Army's current plan regarding the individual carbine (IC) 
competition.
    General Lennox and General Phillips. The IC competition consists of 
a three-phase down-selection approach that will result in the selection 
of a single weapon. Upon completion of the IC competition, the Army 
will conduct a Business Case Assessment (BCA) that will determine 
whether the Army will procure a new IC or stay with the M4A1. The 
competition is currently in progress:

    a.  Solicitation period began in June 2011 and closed in October 
2011.
    b.  Phase I of the IC competition, which began in October 2011, is 
complete.
    c.  Phase II is scheduled to begin in May 2012. Phase II, a down-
select evaluation, will result in up to three competitors remaining in 
the competition and is scheduled to conclude in October 2012.
    d.  Phase III begins in the second quarter of fiscal year 2013 and 
concludes in the fourth quarter of fiscal year 2013. A BCA of the 
successful IC candidate occurs at the end of Phase III and the results 
will inform the Army leadership decision of proceeding with the IC or 
the M4A1 in the first quarter of fiscal year 2014. Pending the results 
of the BCA, a Milestone C decision will be made at the end of the first 
quarter of fiscal year 2014.

    The decision to procure the IC or remain with the M4A1 will be 
followed by a decision concerning the mixed fleet of weapons and 
quantities which the Army will sustain.

    23. Senator Lieberman. General Lennox and General Phillips, how has 
the current M4 carbine performed in theater?
    General Lennox. The M4 Carbine has performed exceptionally well in 
theater with almost 95 percent of our soldiers approving of its 
performance. It exceeds standards for reliability and lethality by 200 
percent to 300 percent. There have been over 60 modifications to the M4 
since 2001 which further enhance its reliability, maintainability, and 
performance. The base design of the weapon and the modifications to it 
make the M4 an extremely lethal instrument for our soldiers.
    General Phillips. The M4 Carbine has performed very well in 
theater. It meets or exceeds standards for reliability and lethality as 
our soldiers' individual weapon. There are several modifications that 
are being applied to the M4 which enhance its reliability, 
maintainability, and performance. These modifications improve an 
individual weapon that is already considered one of the best in the 
world.

    24. Senator Lieberman. General Lennox and General Phillips, in your 
view, is there a clear requirement for a new IC?
    General Lennox and General Phillips. The Army has an approved 
requirement for an IC which provides the basis for conducting the IC 
competition. The purpose of the competition is to identify the best 
carbine that industry has to offer. The single best of the competition 
will be compared with our current individual weapon and a business case 
analysis will determine if the competitive winner is significantly 
better and would justify the expense of replacing the Army's current 
carbine.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
        impact of personnel reductions on strategy and readiness
    25. Senator Brown. General Campbell, the President's new defense 
guidance has abandoned the national security goal of having enough 
forces to be successful in two major regional conflicts. In a time of 
reduced defense budgets, it has been replaced by a plan for enough 
forces to conduct a combined arms campaign, including securing 
territory and populations and facilitating a transition to stable 
governance on a small scale for a limited period using standing forces 
and, if necessary, for an extended period with mobilized forces. The 
forces under the new plan are also theoretically able to simultaneously 
deny objectives of an opportunistic aggressor in a second region. How 
will the proposed end strength reductions for the Army support this new 
strategy?
    General Campbell. The Army will implement the new defense guidance 
while effecting end-strength reductions. While we reduce our presence 
in Afghanistan and decrease force structure, we will train contingency 
forces for a broad range of missions. We will use a progressive force 
generation model to monitor and resource readiness, ensuring units are 
ready for unified land operations to meet conventional and hybrid 
threats in support of combatant commanders' needs. The Army will rely 
on Reserve component forces to surge for major contingencies and 
maintain the proper deployed/home-station balance for the Total Army. 
We will also ensure the Army capitalizes on the investments of the past 
decade--Intelligence, Surveillance, and Reconnaissance capabilities, 
Special Operations Forces, and leader development to support the new 
strategy, as we decrease the Army's end-strength. Investment in 
readiness and reliance on Reserve component forces will allow the Army 
of 2020 to quickly expand, if necessary, while remaining flexible and 
able to meet requirements and support long duration operations.

    26. Senator Brown. General Campbell, what planning factors did the 
Army use to support this assessment?
    General Campbell. The Army uses a combination of factors when 
planning the use of forces: war plans, approved Defense Planning 
Scenarios in conjunction with the Joint Staff, and known and projected 
steady-state activities. These ranges of force demands are used in 
conjunction with force structure and end strength analysis to help the 
Army and senior leaders determine the risk associated with any course 
of action.

    27. Senator Brown. General Campbell, will the proposed force 
structure allow the Army to meet its goal for a dwell period of 2 years 
at home for every year deployed?
    General Campbell. The proposed force structure will allow the Army 
to meet our Boots-on-the-Ground (BOG):Dwell goals. Attaining sufficient 
dwell time is critical to ensure the progressive readiness of a unit 
before it is prepared to deploy again. The Army will achieve a 1:2 
BOG:Dwell for Active units and 1:4 BOG:Dwell for Reserve units in 2015. 
This is predicated upon a balanced requirement to reduce force 
structure and end strength while simultaneously returning forces from 
Afghanistan. Dwell time will increase, and readiness will increase for 
the range of potential future contingencies. Reductions beyond 490,000, 
however, will challenge the Army's ability to meet timelines for 
current, identified requirements and to maintain necessary dwell for 
units and soldiers, thereby imposing a significant readiness risk to 
the force and strategic risk to the Nation.

    28. Senator Brown. General Campbell, the current unit readiness 
reports for the Army still reflect the impact of 10 years of sustained 
deployments. How will the reduction in personnel affect the current 
unit readiness of the Army's combat units?
    General Campbell. The Army will carefully balance capability and 
risk as we size the force to meet national security demands when 
challenges arise. With the directed drawdown of Army end strength, our 
ability to provide future forces is heavily dependent upon how we 
source units in accordance with Army's priorities-resourcing and 
prioritization must be synchronized. We intend to focus on addressing 
readiness across all of our formations while decreasing the Army's end 
strength, still maintaining expertise and leader competencies as well 
as retaining the ability to regenerate the force and expanding to meet 
large demands, if necessary.

    29. Senator Brown. General Campbell, what do you consider to be an 
acceptable level of current unit readiness in order to meet the force 
generation requirements of the updated strategy?
    General Campbell. An acceptable level of unit readiness is the 
level which allows Army units to respond to the needs of the Nation. 
Under the Army's force generation model, units progress through 
training events over time, meeting established aim points that ensure 
their readiness peaks in the year of execution. The Army uses this 
training model to monitor and resource readiness, ensuring every unit 
is ready to perform the full range of operations from humanitarian 
assistance to combat operations. The readiness focus of our force 
generation model allows the Army to prepare its forces to meet the new 
security strategy and any emerging threats facing our Nation.

    30. Senator Brown. General Campbell, what are your most urgent 
requirements in order to restore current unit readiness in the Army 
back to acceptable levels?
    General Campbell. The demand from 11 years of conflict in Iraq and 
Afghanistan has stressed the Army and its core competencies. Repeated 
deployments have significantly impacted the core readiness of the three 
components of unit readiness--Manning, Training, and Equipping.

    1.  Manning. The Army will require sustained Overseas Contingency 
Operations (OCO) funding through fiscal year 2017 to ensure manning 
levels are commensurate with our drawdown objective of approximately 
490,000 soldiers by fiscal year 2017. Any premature or accelerated 
funding reduction below 490,000 without OCO funding will jeopardize the 
Army's ability to meet combatant commander operational requirements.
    2.  Training. Soldier dwell time and training resources are 
critical to allow commanders to train units to execute Unified Land 
Operations (ULO) and Decisive Action (DA) in order to rebuild core Army 
competencies. Eleven years of sustained counterinsurgency (COIN) and 
stability operations have eroded the Army's ability to train on the 
full suite of our core competencies.
    3.  Equipment. The Army forecasts a need for reset operations to 
continue for several years following the end of Operation New Dawn and 
Operation Enduring Freedom. The reset phase of Army Force Generation 
(ARFORGEN) is critical to ensure equipment is refitted, redistributed, 
and/or fielded as new equipment to units. This will require OCO funding 
for at least 2 to 3 years upon retrograde of equipment from the U.S. 
Central Command theater assuming no additional or unforeseen major 
contingency operations.

    31. Senator Brown. General Campbell, what measurements or 
assessments will you use to determine whether there is a trend towards 
a hollow force? Please provide your definition of hollow force with 
your answer.
    General Campbell. The Army will use personnel readiness metrics 
that measure our ability to man units based on available Army 
inventory. We'll also measure our ability to recruit and assess the 
number of quality soldiers needed each year, including metrics to 
measure retention rates of soldiers that decide to remain Army strong. 
A balanced force maintains a proportional distribution of available 
resources against three equally important components: manpower, 
modernization, and readiness. A hollow force occurs when decisions are 
made that take a disproportionate share of resources from one or more 
of those components, or that take too many resources too quickly so 
that reductions are forced at a pace not maintaining force readiness. 
One key to remaining in balance and avoiding hollowing the force is 
ensuring the resources to continue leader development, modernization, 
and readiness.

                    reduction of brigade combat team
    32. Senator Brown. General Lennox, the Army's reduction of at least 
13 BCTs will affect a number of military bases overseas and 
domestically. Which bases will be impacted and to what extent?
    General Lennox. The Army announced during the fiscal year 2013 
President's budget release that initially 2 brigades in Europe would be 
inactivated to achieve the Active component end state of 490,000 by the 
end of fiscal year 2017. The Army continues to assess the design and 
mix of BCTs based upon the lessons from the last 10 years of war. This 
analysis could lead to a decision to reorganize BCTs, within the 
490,000 Active component end strength, into more capable and robust 
formations, requiring further BCT reductions in order to increase 
overall versatility and agility for tomorrow's security challenges. An 
announcement on specific force structure actions is expected sometime 
before, or in conjunction with, submission of the fiscal year 2014 
President's budget in early February 2013.

    33. Senator Brown. General Lennox, what analysis went into the 
determination of bases to be impacted?
    General Lennox. The Army considers a broad array of criteria when 
assessing which forces and which installations will be impacted by 
inactivations. Criteria will be based on strategic considerations, 
operational effectiveness, geographic distribution, cost and the 
ability to meet statutory requirements.

        <bullet> Strategic considerations: aligns Army force structure 
        to the new defense strategy and forthcoming Defense Planning 
        Guidance with a priority on the Pacific region.
        <bullet> Operational considerations: seeks to maximize training 
        facilities, deployment infrastructure and facilities to support 
        the well-being of soldiers and their families, and aligns 
        appropriate oversight/leadership by senior Army headquarters 
        for better command and control.
        <bullet> Geographic distribution: seeks to distribute units in 
        the United States to preserve a broad base of support and 
        linkage to the American people.
        <bullet> Cost: considers the impacts of military personnel, 
        equipment, MILCON, and transportation costs.
        <bullet> Statutory requirements: complies with the provisions 
        of the National Environmental Policy Act as appropriate, 
        including an environmental and socio-economic analysis.

    34. Senator Brown. General Lennox, will you have excess 
infrastructure and bases as a result of the reduction in forces?
    General Lennox. The Army considers a broad array of criteria when 
assessing which forces and which installations will be impacted by 
inactivations. This criterion includes consideration of geographic 
distribution of forces and availability of training facilities, 
deployment infrastructure, and other facilities to support the well-
being of soldiers and their families.

    [Whereupon, at 5:09 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2013 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                          TUESDAY, MAY 8, 2012

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                       TACTICAL AIRCRAFT PROGRAMS

    The subcommittee met, pursuant to notice, at 3:07 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Blumenthal, 
and Brown.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Bryan D. Parker, minority 
investigative counsel; and Christopher J. Paul, professional 
staff member.
    Staff assistant present: Brian F. Sebold.
    Committee members' assistants present: Brian Burton, 
assistant to Senator Lieberman; Lenwood Landrum, assistant to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; and Charles Prosch, assistant to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. Good afternoon. The subcommittee meeting 
will come to order.
    I want to extend a welcome and thanks to each of our 
witnesses for being here today.
    On behalf of the subcommittee, I want to thank each of you 
who represent the men and women of our Armed Forces for the 
exceptional job as a force all of them and you are doing around 
the world today. I want you to know that we keep all those who 
are serving now in our thoughts and prayers and remember that 
both they and their families are serving and sacrificing every 
day.
    In some sense, it is actually against this backdrop of 
wonderful service that we meet today to discuss the present 
status and future of tactical aviation programs. Every year, we 
are challenged to make decisions balancing a number of 
competing demands for resources, including resources for 
current operations and investment in future modernization. But 
ultimately the number one standard has to be what is best for 
our troops, what is best for the men and women in uniform.
    Central to our discussion today is the F-35 Joint Strike 
Fighter (JSF) program. Obviously, we all know it is an 
important program. It has been central to the long-term 
modernization plans for the Air Force, Navy, and Marine Corps 
for more than 15 years now. Any perturbation in the cost 
schedule and performance of the JSF program sends shock waves 
through the Department of Defense (DOD) and well beyond and, of 
course, raises questions about whether we can achieve the 
balance that I just described between the demands of 
maintaining readiness in the near term and those of modernizing 
for tomorrow.
    We are going to examine a number of issues today but 
primarily we want to understand how DOD has defined a new 
baseline for the JSF program since last year, how the Services 
are responding to the additional delays in the JSF program, and 
what effects those delays may have on our Armed Forces. We look 
forward to hearing what DOD has found in various reviews of the 
JSF program after the Nunn-McCurdy certification 2 years ago, 
what actions DOD has taken to ameliorate the problems that it 
found in the program, and what levels of risk remain in the 
development and fielding of the program since DOD conducted a 
technical baseline review and announced additional delays in 
production since last year's budget request.
    The delays in the F-35 program have led to worrisome 
developments for the future of tactical aviation programs, 
particularly in terms of having the numbers of aircraft we need 
to keep from hollowing out our tactical aviation forces. We 
have been following your progress in trying to mitigate or 
close those gaps, and I will have some questions about that as 
well.
    For example, the Navy has been attempting to reduce the 
strike fighter shortfall to manageable levels. Four years ago, 
the Navy was estimating that we would be facing a shortfall in 
2017 that optimistically would amount to 125 tactical fighters 
needed to outfit our 10 aircraft carrier wings and 3 Marine 
Corps air wings. Three years ago, based on further analysis, 
the Navy was estimating that the maximum shortfall could be 
nearly twice that large or roughly 250 aircraft. Since last 
year, the Navy's estimate of the problem has been more stable, 
fortunately. The Navy believes that with certain actions, such 
as reducing squadron size, conducting service life extension 
programs (SLEP) on some aircraft, and reducing the time 
aircraft spend in the depots, they could reduce gaps to roughly 
50 to 60 aircraft, which is encouraging.
    Unfortunately, there has been a similar story regarding the 
Air Force. Previous Air Force witnesses at our aviation 
hearings have also projected a potential shortfall of Air Force 
tactical fighters in excess of 800 aircraft by 2025. This year, 
the Air Force, as a part of the New Defense Strategy, has 
planned to reduce fighter force structure. It is not clear to 
me, at least, to what extent this change in demand for tactical 
fighters has actually ameliorated the shortfall that the Air 
Force has been projecting, but I hope to hear more about that 
this afternoon.
    Last year, the Air Force was also investigating ways to 
extend the service lives of A-10, F-15, and F-16 aircraft to 
help mitigate the gap between requirements and aircraft that it 
foresees. This year, we see that the Air Force wants to retire 
roughly one-third of the A-10s and conduct a SLEP on some of 
the F-16 fleet. I would like to ask about that too.
    We would also like to get an update on the F-22 life 
support and hypoxia problems, including a brief description of 
what the Air Force has done about these problems, what it has 
concluded in its own investigation of these problems, and what 
action that you are taking, have taken, or will take to 
minimize the risk to F-22 crews. That takes me back to the 
beginning, which is to make sure we give our fighting forces 
the safest, most effective military equipment systems we can.
    So we have a lot to cover this afternoon, and I thank the 
three of you very much for being here.
    I would now call on the ranking member of this subcommittee 
with whom I have worked very closely and productively across 
party lines because on this subcommittee or in the committee 
generally, they really do not exist. Senator Scott Brown of 
Massachusetts.

              STATEMENT OF SENATOR SCOTT P. BROWN

    Senator Brown. Thank you, Mr. Chairman.
    I want to thank all of our witnesses as well.
    I am not going to reiterate the very relevant and valid 
points that you made, but I do want to focus on, obviously, the 
JSF program and the increases that we have seen since its 
inception. It is slated to receive billions of dollars per year 
over the next 2 to 3 decades. Quite frankly, that is 
unprecedented for a single tactical aviation program. So I am 
concerned, as many others are, about the disconnect between how 
many F-35 jets DOD has signed on for and the lack of the 
program's progress in developing and testing. Why should we 
keep purchasing the jets when we fail to test them? As we know 
all about the overruns and cost problems, I want to make sure 
we can touch on that a little bit.
    On readiness, we learned DOD estimated that the cost of 
owning and operating the JSF could amount to about $1.1 
trillion over its life cycle. I know DOD is trying to drive 
down the costs. That is obviously a good thing.
    The F-22 Raptor, while capable when it does fly, costs 
about $1 billion each year just to operate, and that is 
unprecedented as well. I am hopeful that General Wolfenbarger 
could address that.
    On the F-22, the problems you just referenced, Mr. 
Chairman, the unexplained physiological incidents which caused 
the Air Force to stop flying for nearly 6 months and pilots who 
have refused to fly because of questions of safety. I am 
hopeful that, ma'am, you can also address those very real 
issues.
    On the strike fighter shortfall, while your testimony 
states that the JSF shortfall for the Navy and Air Force is 
manageable, the 2013 budget proposes additional cuts to the 
tactical air (TACAIR) forces in the Navy, Marine Corps, and Air 
Force. The witnesses, I would hope, would comment on these cuts 
and the effect they will have on the strike fighter shortfall.
    Then we all know the big gorilla in the room is 
sequestration, and we know what the Secretary of Defense has 
said about it. I am hopeful that our witnesses can provide us 
with their assessment of how these cuts would affect our TACAIR 
forces and military strength.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Brown.
    We will begin with Vice Admiral David J. Venlet of the U.S. 
Navy, Program Executive Officer of the F-35 Lightning II 
Program. Thanks very much for being here.

   STATEMENT OF VADM DAVID J. VENLET, USN, PROGRAM EXECUTIVE 
               OFFICER, F-35 LIGHTNING II PROGRAM

    Admiral Venlet. Thank you, sir. Chairman Lieberman, Ranking 
Member Brown, and distinguished members of the subcommittee, 
thank you for inviting me to discuss the F-35 JSF.
    My observations and assessments over the past year give me 
reason to believe the basic aircraft and engine designs are 
sound and will deliver. Schedule and resource adjustments that 
have been made to the remaining development program underpin a 
realistic plan to deliver the required capability.
    While there is still risk in the program, it is risk-
balanced rather than low risk. I have confidence in the 
resilience of the plan to absorb expected further learning, 
discovery, and stay on track.
    There has been very good engine and airframe contractor 
responsiveness and progress in many areas over the last year. 
Short takeoff and vertical landing (STOVL) flight tests 
exceeded plans and expectations and completed a highly 
successful initial sea trial aboard the USS Wasp. In addition 
to the impressive stability, control, and performance of the 
STOVL in slow flight and vertical landing, the F-35 has flown 
to its maximum speed and hardest turn limits. Carrier test 
pilots are highly complimentary of the carrier version handling 
characteristics, flying precise carrier approaches at Patuxent 
River, MD. It is a testimony to the very effective and 
impressive marriage of engine and airframe.
    Software development, coupled with flight test execution, 
will remain the major focus of program execution in the coming 
year and through the completion of the development program.
    I have observed performance by industry on software that 
gives me some concern about delivering full capability within 
the current schedule without improvement in performance. I will 
continue to closely examine progress and seek the changes 
needed to gain the required performance. I have a solid program 
baseline. It ensures the program has the resources, tools, and 
processes in place to make proactive, disciplined decisions 
regarding the development and delivery of incremental 
capabilities to the F-35 fleet. However, industry must 
understand that this new schedule, with all of the margin and 
realism, will not execute itself. A rededication to the 
characteristics of systems engineering fundamentals is crucial, 
and I continue to speak bluntly to industry on this issue.
    Concurrency is a transient issue that the program is 
dealing with right now but which will lessen over time. I 
recognize DOD would prefer to not be in this highly concurrent 
program situation. It is now my responsibility to navigate 
through this and deliver the most capable aircraft at the best 
price.
    I believe the procurement strategy for low-rate initial 
production (LRIP) 6 and 7 will allow DOD to control production 
quantity based on the performance of the development program. 
It is important that Lockheed Martin performs dependably and 
sustains confidence that the F-35 is a stable and capable 
platform.
    As in any complex development program, there are 
challenges, but I believe the enhanced capability of the JSF 
will provide the backbone of U.S. air combat superiority for 
years to come. The program's management over the past year has 
put in place the right fundamentals and realistic plans using 
sound systems engineering processes. I am monitoring tracking 
performance with detailed metrics.
    Technical and cost issues certainly exist. The helmet 
system has three critical characteristics that need to 
demonstrate fixes. The carrier hook system, electronic warfare 
antenna quality, and buffet loads in flight are all being 
worked. There are leading program issues that occupy my focus 
for 2012, the critical and significant few that, if 
successfully advanced, will bring beneficial tailwind for the 
entire program and genuine value for DOD and our partner 
nations.
    These leading issues are: one, software development 
performance and its dependable delivery of capability; two, 
concurrency change incorporation improvement and delivery of 
affordable full-life jets; three, production quality and its 
ultimate result on affordable price for the United States and 
our allies; and four, continued sustainment estimate cost 
reduction.
    All of these have a common fundamental that will advance 
the external result in performance and keep reality clearly in 
view. Systems-based analysis and corrective action with a 
specific eye on impacts to early fleet training operations will 
be required in steady and committed execution throughout the 
industry team, primes, and suppliers. Rigorous management 
control by the Joint Program Office (JPO), supported by the 
service systems commands, will be applied with the development, 
dial-on production, and focus on affordable delivery 
capability, our only meaningful external result.
    I look forward to your questions, sir.
    [The prepared statement of Admiral Venlet follows:]
            Prepared Statement by VADM David J. Venlet, USN
    Chairman Lieberman, Ranking Member Brown, and distinguished members 
of the subcommittee. Thank you for the opportunity to address this 
subcommittee regarding the Joint Strike Fighter (JSF).
    The JSF is the Department of Defense`s (DOD) largest acquisition 
program, and its importance to our national security is immense. The 
JSF will form the backbone of U.S. air combat superiority for 
generations to come. It will replace the legacy tactical fighter fleets 
of the Air Force, Navy, and Marine Corps with a dominant, multirole, 
fifth-generation aircraft, capable of projecting U.S. power and 
deterring potential adversaries. Furthermore, the JSF will effectively 
perform missions across the full spectrum of combat operations. For our 
international partners and foreign military sales customers who are 
participating in the program, the JSF will become a linchpin for future 
coalition operations and will help to close a crucial capability gap 
that will enhance the strength of our security alliances.
    The multirole F-35 is the centerpiece of DOD's future precision 
attack capability. The JSF is designed to penetrate air defenses and 
deliver a wide range of precision munitions. This modern, fifth-
generation aircraft brings the added benefit of increased allied 
interoperability and cost-sharing across Services and partner nations. 
The fiscal year 2013 budget includes $9.3 billion for continued system 
development, test and procurement of 29 F-35 aircraft.
    It is our duty to produce the next generation fighter jet for the 
United States and our and allies, understanding that we live in a 
resource constrained world. Holding fast to the three pillars I 
embraced when I joined the JSF team--a commitment to fundamentals, a 
firm grasp on reality, and transparency in all we do--remains key to 
the successful completion of development, and delivery of critical 
capability.
                program accomplishments in the last year
    The F-35 program team achieved a number of accomplishments over the 
past year, including the delivery of 13 aircraft, 4 test aircraft to 
test bases and the first 9 production jets to Eglin Air Force Base. The 
F-35B sea trials conducted on the USS Wasp marked a high point in the 
year. The F-35B conducted 72 vertical landings and short take-offs 
while exhibiting aircraft handling performance that met all expected 
standards. The program completed F-35C static structural testing and 
improved the schedule and cost performance of assembled wings and 
forward fuselage deliveries to the production line mate station. The F-
35C conducted ship suitability events at Lakehurst, conducting 65 
catapult launches, including 1 on the new Navy Electromagnetic Aircraft 
Launch System (EMALS). The production F-35A has started local area 
flights at Eglin AFB.
    In January 2011, Secretary Gates placed the F-35B on ``probation'' 
because of the existence of several unique short takeoff and vertical 
landing (STOVL) aircraft design issues. All F-35B test issues in view 
now are comparable to those being encountered with the other F-35 
variants and there is no reason at this point to single out the F-35B. 
Secretary Panetta made the decision to remove STOVL from probation on 
January 20, 2012.
    An Operational Assessment released in the fall of 2011 expressed 
concern about the risk associated with several design issues that had 
surfaced during the F-35 JSF test program. After the F-35 Operational 
Assessment was released in October 2011, the acting Under Secretary of 
Defense for Acquisition, Technology, and Logistics (USD(AT&L)) 
commissioned a Quick Look Review (QLR) of the F-35 program. The review 
found that, while the overall F-35 design is sound, there is 
significant risk remaining in the program. Resolving key technical 
issues is important to address concerns about the F-35's operational 
capabilities and to having confidence in the design so that production 
rates can be increased. The Department used the result of the QLR to 
inform the fiscal year 2013 Future Years Defense Program, which holds 
U.S. production at 29 per year through 2014 to reduce concurrency and 
permit additional progress on the test program before increasing 
production. The technical issues are all being addressed in the 
restructured System Development and Demonstration (SDD) phase of the F-
35 program.
    The original MS B, approved in October 2001, was rescinded 
following a critical Nunn-McCurdy breach in March 2010. The Defense 
Acquisition Board reviewed the F-35 development, production, and 
sustainment technical status and cost estimates in February 2012 and on 
March 28, 2012, the Office of USD(AT&L) signed an Acquisition Decision 
Memorandum that officially recertified the program and granted MS B 
approval.
                       international partnership
    The F-35 program continues to be DOD's largest cooperative program, 
with eight Partner countries participating under Memorandums of 
Understanding for SDD and for Production, Sustainment and Follow-on 
Development. The eight partner countries include the United Kingdom, 
Italy, The Netherlands, Turkey, Canada, Australia, Denmark, and Norway. 
The partners recently met and all expressed their continued commitment 
and support for the program.
    In October 2010, Israel signed a letter of agreement to purchase 19 
F-35A aircraft for $2.75 billion, with deliveries scheduled to begin in 
2016. In December 2011, Japan selected F-35 using a competitive 
process. Japan signed a $6 million agreement to conduct F-35 studies on 
February 1, 2012. Japan is expected to sign an agreement to purchase 
the first 4 of a planned acquisition of 42 conventional take-off and 
landing (CTOL) aircraft in the summer of 2012. Deliveries will begin in 
2016. On January 20, 2012, the Republic of Korea released a competitive 
request for proposal for acquisition of its future fighter. The F-35 
team is developing a proposal that will be delivered in June 2012.
                    development program restructure
    The F-35 development program has been replanned and is now 
resourced with realistic planning factors to complete the required 
Block 3 capability testing by the end of 2016. Key activities that 
created the replan include the development of an integrated master 
schedule (IMS), execution of a Schedule Risk Assessment, and completion 
of the Integrated Baseline Review. These efforts incorporated the 2010 
Technical Baseline Review's recommendations including revised flight 
test rates, longer software development spans, new systems engineering 
processes, and reestablished technical performance measurement. This 
plan provides the time and resources realistically required for the 
development program to deliver Block 3 capabilities.
    F-35 SDD flight test program exceeded overall test point and flight 
goals in 2011. The overall test point progress was 7 percent above the 
2011 plan. The Integrated Test Force (ITF) achieved 972 test flights, a 
137 percent increase from the total flights in 2010. The ITF also 
executed 7,823 unique test points, a 93 percent increase from that 
achieved in 2010.
    Key 2011 achievements included the completion of F-35A and F-35B 
flight science testing to support the Block 1 Training envelope; the 
accomplishment in 2011 of 268 F-35B vertical landings, 395 short 
takeoffs and 156 slow landings; the completion of the first F-35B ship 
trials aboard USS Wasp; initial land based F-35C ship suitability 
testing, consisting of jet blast deflector testing and catapult 
Structural Survey and Steam Ingestion testing; the first test of the F-
35C launched by the Electromagnetic Aircraft Launch System (EMALS); 
completion of radar cross section baseline testing on 3 aircraft and 
the completion of Block 1A mission systems maturity testing. The 2012 
F-35 flight test plan calls for the execution of 1,001 flights and 
7,873 test points and we are currently ahead of plan on all fronts. We 
expect to see this high level of performance continue through 2012.
    Pratt & Whitney F135 engines have completed a total of 21,857 
operating hours, 9,106 hours on flight-test and production engines, and 
a total of 2,908 hours of flying time on all three variants of F-35 
aircraft.''
    Pratt and Whitney is currently supporting flight test on all three 
variants at three locations. Based on the total F-35 program 
restructure, the Pratt and Whitney contract is being adjusted to 
support the extended ground and flight testing required to complete SDD 
and to resource the resolution of integration issues currently in view.
    In 2011, Pratt and Whitney F135 engines helped flight test exceed 
all goals. Various engine ``firsts'' were also achieved including a 
maximum speed demonstration (1.6 Mach).
                    production program restructuring
    The F-35 aircraft manufacturing plan, as adjusted in September 
2010, continues to exhibit dependable aircraft assembly up to the point 
of aircraft rollout to the flight line. Current production performance 
to the September 2010 baseline is about 14 days behind schedule to 
aircraft roll-out from the factory, and about 4 months behind for 
aircraft roll-out to government acceptance. In 2011, the production 
program finished deliveries of the remaining SDD test aircraft (one 
CTOL, one STOVL, and two CV). One more Navy test aircraft, CF-5, is 
scheduled to deliver in 2012 as part of the low rate initial production 
(LRIP) 4. Included in the 2011 deliveries were 9 LRIP aircraft (LRIP 1 
and part of LRIP 2), for a total of 13 aircraft delivered out of 20 
planned.
    During the last year we have increased attention to manufacturing 
quality metrics, including supplier quality, assembly and test. 
Additionally, we have incorporated oversight into the contractor's 
supplier risk management process to ensure timely awareness of problems 
in the supply chain.
    Pratt & Whitney has delivered 41 F135 Production propulsion 
systems. From early 2011 to the beginning of 2012, Pratt & Whitney has 
improved their delivery rate, increasing from one per month to now two 
per month consistently, staying ahead of aircraft deliveries. Spare 
engines have also been delivering to Eglin to support current flight 
and sustainment efforts.
    DOD established the F-35 program in 2001 with a planned measure of 
concurrent development and production that attempted to balance cost, 
risk, and the need for tactical aircraft modernization. That plan had 
unfounded optimism in time and resources, driven by assumptions about 
design stability through the test program. The development program is 
taking longer and costing more to overcome technical issues that have 
been discovered. Concurrency generated impacts. Changes that must be 
made to the production aircraft due to problems found in testing are 
very real and affect schedule and cost in hardware, software, test and 
production. However, concurrency is a transient issue in which risks 
progressively decline through the end of SDD and the test program. 
Concurrency changes have also been taking an unacceptable time, two to 
three production lots, to incorporate into the build baseline. These 
issues are being addressed with the incorporation of strong contract 
incentives to the prime contractor and by slowing the rate of 
production in 2013 and 2014. Concurrency risk will progressively recede 
between now and 2015, when second-life fatigue testing should complete 
for all variants and flight test will be through 80 percent of the 
loads envelope.
                development risk mitigation and control
    The three F-35 variants are encountering the types of development 
problems historically encountered on highly sophisticated state-of-the-
art high performance aircraft development programs at this stage of 
maturity. While risk does remain in the balance of the development and 
flight test program, there is no known design issue that cannot be 
overcome by effective engineering. There is also margin in the SDD plan 
to account for discovery during the balance of the test program. This 
section summarizes the major risks and the steps that are being taken 
to address them.
    Software development and flight test of mission systems are the 
primary drivers to completion of the SDD program. These program drivers 
were highlighted in the 2010 Technical Baseline Review and were a major 
focus of efforts to restructure the SDD program. Some of the solutions 
in the restructured program include additional planning for software 
rework and integration, as well as increasing lab capacity, which comes 
on-line in October 2012. The program plan includes three basic 
capability steps in this concurrent development. Block 1 is for initial 
training, Block 2 is for initial warfighting capability and Block 3 is 
the required full warfighting capability for the Services. Each year of 
production delivers a version of one of these software blocks at 
government acceptance. Technical difficulties encountered in Block 1 
and initial Block 2 development resulted in schedule delays. The 
performance in software development is under intense scrutiny by the 
program, and industry performance must improve to deliver within the 
boundaries of time and funding in the replanned program.
    The pilot's helmet for the F-35 is a major technological advance 
and a design challenge. Three helmet technical risks affecting the 
original helmet design are night vision acuity, stability of the 
symbology or frame ``jitter'', and the latency of the displayed 
information. The second generation of the original helmet is the 
desired solution for its capability to display all information on the 
visor, day and night, without goggles. As a result of testing, the 
program now understands the measured latency that is acceptable for 
pilot tasks and this understanding is leading to cost effective system 
adjustments. Improved night vision acuity will be evaluated with new 
camera technology and visor symbology jitter will be evaluated with 
small inertial measurement units embedded in the helmet itself. As risk 
reduction, the program has funded development of a night vision goggle-
based alternative helmet solution. The goggle-based helmet development 
will continue until we see demonstrated improvement in the three risk 
areas. A system-level design review will occur in the fall of 2012 
where the program will evaluate the development performance of both 
helmet designs.
    During land-based ship suitability testing, the F-35C tailhook did 
not catch the arresting wire. Comprehensive system improvement is 
ongoing and involves damping of hook bounce and hook point shape 
adjustment. Testing will be conducted in 2012 to evaluate the new 
design.
    Early fuel dump testing revealed that fuel was migrating within the 
wing during fuel dumping and the fuel was impinging on the underside of 
the wing. Improved seals within the wing will mitigate the migration 
issue and the program is pursuing improvements in the fuel dump system 
to resolve the fuel impingement issue.
    The flight test program continues to address known aero performance 
issues like transonic roll-off (TRO); TRO is an issue every swept wing 
fighter has to deal with. We continue to refine our flight control laws 
to minimize the impact of TRO. At this point in testing, we're 
confident we have reduced TRO to an acceptable level for the F-35A and 
F-35B. The F-35C TRO testing is underway at this time.
    Durability testing for the F-35B was restarted in January 2012. The 
test was halted to correct the bulkhead design in November 2010 and was 
one of the reasons cited for the F-35B ``probation''. This delay in the 
testing does not directly impact the flight test program or production 
schedules.
    Aircraft are experiencing higher than predicted buffet during 
flight test and have not yet reached areas of highest predicted buffet 
loads. Flight testing in 2012 will assess the operational impacts to 
aircraft tracking and other requirements affected by buffet at low 
angles of attack. Future flight test will include higher buffet loads 
where the program will evaluate structural and systems fatigue impacts.
                    cost risk mitigation and control
    The December 2011 Selected Acquisition Report (SAR) reflects the 
new approved Acquisition Program Baseline (APB) which sets the program 
cost, schedule and performance baseline. SAR 2011 has been updated from 
base year (BY) 2002 dollars to BY 2012 dollars. SAR 2011 and the APB 
reflect two sub-programs: F-35 Aircraft and F-35 Engine.
    There are two facets of inflation that impact the SAR. First, the 
F-35 baseline costs have increased approximately 22 percent as the 
program transitioned from SAR 2010 (BY02) to SAR 2011 (BY12). Second, 
inflationary assumptions have a significant impact to the operating and 
support (O&S) cost estimate as it is applied over the next 50+ years.
    The SAR 2011 total program cost estimate in then-year (TY) dollars 
includes both the acquisition and the operating and support cost; these 
include the research, development, test and evaluation estimate--$55.2 
billion, the procurement estimate--$335.7 billion, the military 
construction estimate--$4.8 billion and the O&S estimate--$1,113.0 
billion. The total cost estimate for the program is $1,508.7 (TY$B) 
over the life of the program which began in 1994 (70+ years).
    Control of production costs is being achieved in part by movement 
from cost plus to fixed price contract types. The F-35 LRIP Lot 4 
aircraft and F135 engine contracts purchased 30 air systems for the 
United States, plus 1 for the United Kingdom and another for the 
Netherlands. The Lot 4 contracts were negotiated as fixed-price-
incentive-fee (firm target) (FPIF) type contracts. The prime 
contractor, Lockheed Martin Aeronautics Company (LM Aero), is projected 
to overrun LRIP 4 costs by approximately 7 percent. This overrun 
percentage is approximately half the overrun experienced on the F-35 
LRIP Lots 1 to 3 cost-reimbursement-type contracts. On the LRIP Lot 4 
contracts, overrun costs on the aircraft and engines are shared equally 
between the government and the contractor until the overrun exceeds 20 
percent of the target cost, at which point the contractor is 
responsible for all additional overrun costs.
Fiscal Year 2011 Lot 5 Fixed-Price Airframe and Propulsion System 
        Production Contracts
    The fiscal year 2011 airframe and engine contracts for Lot 5 were 
initiated via undefinitized contract actions (UCA) in the month of 
December 2011. The UCAs incorporate FPIF terms for the procurement of 
30 aircraft and engines (21 F-35A, 3 F-35B, and 6 F-35C) but are being 
modified to procure one additional F-35A for the U.S. Air Force and one 
additional F-35C for the U.S. Navy, for a total fiscal year 2011 
purchase of 32 air systems. This brings the total number of air systems 
procured on the program to 95.
    In Lot 5, the government's cost risk is being mitigated by 
transferring some responsibility for concurrency cost risk to the prime 
contractor for the first time. The terms of the UCA include a ``cost-
sharing/no fee'' contract arrangement for known concurrency changes 
identified at the time of UCA award. The Government and LM Aero will 
share equally (50/50) in these costs (estimated at $150 million) with 
no fee for the known concurrency changes specified in the UCA. Newly 
discovered concurrency changes will be added to the contract as 
engineering change proposals (ECPs) and will cause a renegotiation of 
the target cost of the aircraft, but with no profit.
    The Office of the Secretary of Defense's (OSD) Director of Defense 
Pricing led an F-35 LRIP 5 ``should cost'' effort from the contractor 
proposal submittal in late April 2011 through early October 2011. 
Following an OSD Peer Review, LRIP Lot 5 negotiations commenced on 
December 9, 2010 and are heavily informed by the F-35 LRIP Lot 5 
``should cost'' conclusions which are based on actual experienced 
costs. Negotiations on the definitized contracts for Lot 5 are 
anticipated to conclude in late spring.
    An effective Earned Value Management System (EVMS) is critical to 
monitoring performance and controlling costs. In 2007, a Defense 
Contract Management Agency (DCMA) review found the LM EVMS to be 
noncompliant with EVM guidelines. Although both parties engaged in a 
focused effort to bring the LM Aero EVMS into compliance, appropriate 
corrections were not completed and DCMA decertified the LM Aero EVMS in 
2010. LM Aero has been working to complete its EVMS corrective action 
plan (CAP). LM CAP actions include development of new tools and 
processes as well as modifications to core management processes. A DCMA 
EVMS compliance validation review is underway and is scheduled to 
finish in the next few months. DCMA continues to work with LM to bring 
the LM EVMS to full and sustainable compliance.
    In accordance with DOD Federal Acquisition Regulations, the DCMA 
imposed a 2-percent withhold against F-35 LRIP 5 Progress Payments as 
part of last year's UCA. This 2 percent withhold is a result of the 
disapproved status of LM Aero's EVMS. The withhold will remain in place 
until LM Aero's EVMS deficiencies are corrected and the system regains 
approval status.
Fiscal Year 2012 and Fiscal Year 2013 Contracts
    The JSF Program Office will obligate the majority of fiscal year 
2012 and fiscal year 2013 procurement dollars to fixed-price-type 
contracts for F-35 aircraft and F135 engines. The JSF Program Office 
will ensure that future U.S. aircraft and engine procurements comply 
with section 143 of the National Defense Authorization Act (NDAA) for 
Fiscal Year 2012, which provides: `` . . . [t]he Secretary of Defense 
shall ensure each of the following: (1) That the contract is a fixed-
price contract. (2) That the contract requires the contractor to assume 
full responsibility for costs under the contract above the target cost 
specified in the contract.''
    The F-35 Lightning II JSF Program is implementing an event based 
contracting strategy for low rate initial production (LRIP) Lots 6 and 
7 that buys aircraft production quantities based upon development and 
test progress. This strategy provides a means to have control (a 
``dial'') on production that is informed by demonstrated development 
performance against the 2012 plan and concurrency cost risk reduction.
    The Department will request Lockheed Martin provide a consolidated 
proposal for LRIP Lots 6 and 7 based on the following structure:

        - Award 25 fiscal year 2012 Lot 6 aircraft (31 are authorized/
        appropriated)
        - Provide flexibility to procure 0 to 6 remaining fiscal year 
        2012 funded Lot 6 aircraft concurrent with the Lot 7 contract 
        award in 2013
        - Link total aircraft quantity ultimately procured in Lot 6 to 
        development performance and concurrency cost risk reduction

    The Department will decide to award the additional aircraft based 
on progress expected in 2012, as planned and resourced in the 
development program IMS. This schedule is executable, appropriately 
resourced, includes sufficient margin for issues that are normal in a 
development program, and has been agreed to by both Lockheed Martin and 
the F-35 program office.
    Specific decision criteria include, but are not limited to, the 
following:

    1.  Planned 2012 system engineering technical reviews for Block 3 
software
    2.  Lockheed Martin progress improving concurrency change 
incorporation, both forward into production and back fit post delivery 
modification engineering.
    3.  Planned 2012 progress in F-35A, F-35B, and F-35C durability 
testing
    4.  Planned 2012 progress in flight test
    5.  Planned 2012 line replaceable units (LRU) qualification

    These criteria will enable the Department to determine that the 
additional quantity of six Lot 6 aircraft can be in optimum 
configuration. Each successive contract will include sharing of known 
concurrency changes, until concurrency change generation recedes, as we 
have on contract now with LRIP 5.
    Currently appropriated fiscal year 2012 funding is necessary to 
implement this contracting strategy. The variable quantity of up to six 
Lot 6 aircraft will be paid for with the fiscal year 2012 funds 
originally authorized and appropriated for their purchase; however, 
these funds will not be obligated on contract until fiscal year 2013.
    The Department intends to award Lot 7 aircraft and the Lot 6 
variable quantity aircraft through fully definitized contract actions 
in fiscal year 2013. The initial Lot 6 contract award for 25 aircraft 
will require an UCA to ensure production flow is not disrupted. 
However, the Department does not intend to award a UCA for the 25 
aircraft in Lot 6 until essential agreement is reached for Lot 5.
    The strategy outlined in this testimony continues the Department's 
rigorous management control of the F-35 Lightning II JSF. Ensuring 
sufficient discipline and progress in development will deliver aircraft 
that last their required service life, come with the required mission 
capability, and reduce the need to modify delivered aircraft.
Operations and Sustainment Costs
    F-35 Sustainment costs are a concern across the Department. While 
the F-35 Joint Program Office and the Services made progress in 2011 
toward reducing its estimate, there is more work to do in this area, 
and this is an area of increasing focus. The Services and the 
Department will continue to support the F-35 JPO in its disciplined 
approach to analyzing and reducing sustainment costs. Over the next 12 
months the JPO will complete the F-35 business case analysis (BCA). The 
results from the BCA will assist the PEO in refining the current F-35 
support strategy by identifying the best mix of existing Service/
Partner organic capabilities with that of the industry team to develop 
the optimum long term best value F-35 support solution.
    This year, the Services and OSD, working in concert with the JPO, 
will analyze options outside of the PEO's span of control to reduce 
operating cost. These include reviewing basing options and the 
sequencing of those actions, unit level manpower/squadron size and 
discrete sustainment requirements. Through these efforts, the 
Department believes the PEO and the Department can converge on a more 
affordable F-35 sustainment strategy. The past year was largely about 
making progress in testing, moving toward a stable design, and 
controlling the cost and risk in the production program with an initial 
review of sustainment costs. The next year will continue those efforts, 
but the focus will shift more to identifying and implementing 
opportunities to reduce sustainment costs.
                               conclusion
    My observations and assessments over the past year give me reason 
to believe the basic aircraft designs are sound and will deliver. The 
remaining development is focused on testing and integration. Schedule 
and resource adjustments that have been made to the remaining 
development program underpin a realistic plan to deliver the required 
capability. While there is still risk in the program, I have confidence 
in the resilience of the plan to absorb expected further learning and 
discovery and stay on track, so long as it remains properly resourced.
    Software development, coupled with flight test execution, will 
remain the major focus of program execution in the coming year and 
through the completion of SDD. I have observed past and current 
performance by industry on software that gives me concern about the 
ability to deliver full capability within the current schedule without 
improvement in performance. I will continue to closely examine progress 
and seek the changes needed to gain required performance. I have 
developed a solid program baseline, ensuring the program has resources, 
tools, and processes in place to make proactive, disciplined decisions 
regarding the development and delivery of incremental capabilities to 
the F-35 fleet. However, industry must understand that this new 
schedule with all of the margin and realism will not execute itself. A 
rededication to the characteristics of systems engineering fundamentals 
is crucial and I continue to speak bluntly to industry on this issue.
    Concurrency is a transient issue that the program is dealing with 
right now, but which will lessen over time. I recognize that while DOD 
would prefer to not be in this concurrent program situation, it is now 
my responsibility to navigate through this and deliver the most capable 
aircraft at the best price.
    I believe the plan for negotiations for LRIP 6 and 7 will allow DOD 
to control production quantity based on the performance of the 
development program. It is important that Lockheed Martin dependably 
perform and establish confidence that the F-35 is a stable and capable 
platform.
    As in any complex development program there are challenges, but I 
believe the enhanced capability of the JSF will provide the backbone of 
the U.S. combat air superiority for generations to come. The 
technological capabilities of the aircraft are sound. The program's 
management over the past year has put in place the right fundamentals 
and realistic plans using sound systems engineering processes, and I am 
monitoring and tracking performance using detailed metrics. Overall, 
there is much work still ahead of us, but through the multiple reviews 
and adjustments in the past year I believe the Department has put the 
program on sound footing for the future.
    Thank you again for this opportunity to discuss the F-35 JSF 
Program. I look forward to answering any questions you have.

    Senator Lieberman. Thank you, Admiral. It is a good 
beginning.
    General Janet C. Wolfenbarger, Military Deputy, Office of 
the Assistant Secretary of the Air Force for Acquisition, 
thanks so much for being here. I just would be remiss if I did 
not say for the record that you are also about to become an 
historic figure, which is very exciting and well-deserved. Upon 
your pending promotion, as you well know, you will become the 
first woman Air Force officer to wear four stars. So, 
congratulations.
    General Wolfenbarger. Thank you very much, sir.
    Senator Lieberman. Please proceed.

  STATEMENT OF LT. GEN. JANET C. WOLFENBARGER, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                          ACQUISITION

    General Wolfenbarger. Chairman Lieberman, Ranking Member 
Brown, distinguished members of the subcommittee, thank you for 
the opportunity to provide you with an update on the Air 
Force's tactical aviation programs.
    Today, the Air Force is fully engaged in operations across 
the globe, participating in joint Overseas Contingency 
Operations, and providing support to the combatant commanders 
to enable them to successfully execute their missions.
    Our fiscal year 2013 budget request aligns with these 
standing operational requirements and with the future needs of 
the Air Force as we shift implementation of the new National 
Security Strategy.
    I understand your focus today is on the Air Force 
investment plans to ensure that our tactical aviation 
capabilities are adequate for executing the National Military 
Strategy with an acceptable level of risk. Our rapidly aging 
aircraft fleet drives the urgent need to balance procurement of 
new inventory with sustainment of our current fleet. I look 
forward to discussing how the Air Force has matched our 
requirements with available resources in order to execute the 
National Military Strategy.
    In light of recent media attention regarding the F-22 and 
its life support system, I would like to briefly address what 
the Air Force is doing to protect the health and safety of Air 
Force pilots, as well as the importance of the F-22 to our 
Nation's capabilities. Our pilot safety is of utmost concern 
and a top priority. Our Air Combat Command-led Life Support 
System Task Force has joined with experts from across 
government, academia, and the scientific community to work on 
root cause analysis until this issue has been completely 
resolved.
    In the meantime, we have initiated 17 life support 
enhancements to the F-22 as direct risk mitigation steps. Many 
of these enhancements are already fielded, including a 
modification to the emergency oxygen activation handle and an 
air crew blood oxygen sensor. All these mitigation steps help 
reduce safety risks and permit F-22 operations that deliver 
unique stealth and range capabilities ideal for countering 
advanced integrated air defenses in known trouble spots around 
the world.
    I would like to thank the subcommittee for the invitation 
to testify today and for your continued support of the Air 
Force.
    I would like to request that my written statement be 
submitted for the record. I look forward to your questions.
    [The prepared statement of General Wolfenbarger follows:]
       Prepared Statement by Lt. Gen. Janet C. Wolfenbarger, USAF
    Chairman Lieberman, Ranking Member Brown, and distinguished members 
of the subcommittee. Thank you for the opportunity to address this 
committee regarding the Air Forces' tactical aviation programs. The Air 
Force remains fully engaged worldwide, supporting the combatant 
commanders' requirements and executing our National Strategy.
    Finding the proper balance between force structure, readiness and 
modernization is our guiding principle. While we will be a smaller 
force, we will maintain the agility, flexibility and readiness required 
to meet our commitments to the combatant commanders as well as continue 
to modernize and grow more capable in the future. The Service protected 
our distinctive capabilities fundamental to the priorities of the new 
strategic guidance: control of air, space, and cyberspace; global 
intelligence, surveillance, and reconnaissance; rapid global mobility 
and global strike--all enabled by effective command and control.
               current environment and operations update
    Today, the Air Force flies and fights in air, space, and 
cyberspace--globally and reliably--as a valued member of our Joint and 
coalition teams. Over 30,000 airmen are deployed across the globe, 
including over 23,000 in the U.S. Central Command Area of 
Responsibility, with another 134,000 ``committed in place'' to defend 
the homeland, command and control our nuclear forces, operate remotely 
piloted aircraft, and support other combatant commander requirements. 
The Air Force is an active partner in Defense Department planning that 
will shift our emphasis from today's wars, to the broader range of 
challenges and opportunities posed by the President's strategic 
guidance, particularly in the Asia-Pacific region. Be assured that 
soldiers, sailors, airmen, and marines who deploy in support of our 
global commitments will do so with an Air Force that is agile, 
flexible, ready, and technologically advanced. Last fiscal year alone, 
Air Force global precision attack aircraft flew over 24,000 sorties and 
110,000 hours in support of Overseas Contingency Operations.
    Since September 11, 2001, your mobility air forces have executed 
more than 440,000 airlift sorties, moving more than 3.6 million tons of 
cargo and nearly 6.9 million passengers in support of Operation 
Enduring Freedom, Operation Iraqi Freedom, and then New Dawn. Your 
combat air forces simultaneously provided top cover and weapons on 
target with another 162,000 sorties supporting those same operations. 
Aeromedical evacuation crews surged to complete nearly 180,000 patient 
movements, averaging 52 per day. On the homefront, Air Force fighter, 
air refueling, and early warning aircraft have flown almost 62,000 
total sorties supporting Operation Noble Eagle. As a testament to the 
capability of our Total Force, the Air National Guard and Air Force 
Reserve have flown more than 65 percent of these sorties with the Air 
National Guard currently operating 17 of 18 Aerospace Control Alert 
sites across the United States.
    As we transition to support the New Defense Strategy, we must 
carefully balance our force between the Active and Reserve components 
to maintain what will be a smaller Air Force at a higher state of 
readiness. One part of the solution will be to pursue Active 
Associations with many Air Reserve component units, combining Active 
Duty and Reserve component airmen on the same operational team.
    The Air Force continues to work towards meeting the current 
strategy laid out by the President and the Secretary of Defense, while 
operating in a more fiscally constrained environment. The fiscal year 
2013 PB retains critical core capabilities and maintains the Air 
Force's ability to rapidly respond to global mission demands. It 
requires the Air Force to balance risk, modernization and force 
structure reductions with a commitment to maintain readiness and take 
care of our people. We stand ready to support the Department's efforts 
to meet the demands of the U.S. National Security Strategy.
               fighter force structure and modernization
    In 2011, Air Force analysis indicated a fighter force structure of 
1,200 primary mission aircraft and 2,000 total aircraft were required 
to execute the National Military Strategy (NDS) with some risk. The new 
strategic guidance combined with new fiscal constraints required the 
Air Force to balance risk across its core functions. Current analysis 
estimates fighter force structure demand at approximately 1,100 primary 
mission aircraft and approximately 1,900 total fighter aircraft to 
carry out the NDS with increased risk. Additionally, the Air Force 
previously reported a fighter force shortfall in both the near- and 
mid-term. We aggressively pursued mitigating efforts to meet force 
structure requirements. The most significant efforts involved closely 
monitoring F-35 production and increasing production as capability 
matures, and fourth generation sustainment and modernization. The F-35 
program status remains the key variable in the fighter force structure 
as the Air Force transitions to a fifth generation fighter force. 
Current Air Force mitigation options preserve decision space as we 
carefully monitor program status and impending decision points.
    As directed, to develop the fiscal year 2013 PB the Air Force 
accepted risk in our Combat Air Forces by retiring or reclassifying 
aircraft from seven squadrons: five A-10 squadrons, one F-16 squadron, 
and one training/support coded F-15 Aggressor squadron. We chose to 
retire more A-10s as a result of guidance to size our forces for one 
large scale combined arms campaign with sufficient combat power to also 
deny a second adversary, without conducting a large scale, prolonged 
stability operation. The A-10 remains essential for combined arms and 
stability operations and we retain enough A-10s to meet the 
requirements of the new strategic guidance, but multi-role platforms 
provide more utility across the range of the potential missions for 
which we are directed to prepare. After reductions, we retain 54 
combat-coded fighter squadrons and maintain the capabilities and 
capacity required to meet the requirements of new strategic guidance at 
increased risk while providing a bridge to the F-35.
    Fifth generation fighters such as the F-22A and F-35 are key 
elements of our Nation's defense and deterrent capability. These 
aircraft are necessary to maintain a margin of superiority which 
permits our air, sea, and ground forces freedom of maneuver and attack. 
They each possess unique, complimentary, and essential capabilities 
that provide synergistic effects across the spectrum of conflict. 
Legacy fourth generation aircraft simply cannot survive to operate and 
achieve the effects necessary to win in an integrated, anti-access and 
area denial (A2/AD) environment.
                                  f-35
    During fiscal year 2012 the Air Force will continue the balanced 
approach across the global precision attack portfolio used in fiscal 
year 2011, by prioritizing investment in fifth-generation aircraft 
while sustaining legacy platforms as a bridge to the F-35, Joint Strike 
Fighter.
    The multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
eight partner nations. The fiscal year 2013 PB includes approximately 
$5 billion for continued development and procurement of 19 F-35A, 
conventional take-off and landing (CTOL) aircraft. In response to 
continued program cost growth, lagging production performance, and 
escalating concurrency modification costs, we reduced the program of 
record by 179 aircraft, 98 of those are USAF F-35A CTOL aircraft, over 
the Future Years Defense Program (FYDP) in the fiscal year 2013 PB. The 
reduction of F-35 quantities in the FYDP realigns the pace of 
production to balance the need for a stable industrial base with the 
realities of increasing concurrency modification costs and a resource-
constrained fiscal environment. Finally, the fiscal year 2013 PB 
suspended F-35 dual capable aircraft (DCA) funding until the program is 
mature enough to support DCA integration.
    Flight Operations at Eglin recently commenced. In close 
coordination with Air Force staff and the DOD Director, Operational 
Test and Evaluation, the Air Force Technical Airworthiness Authority 
(ASC/EN) signed a Military Flight Release (MFR) for F-35A aircraft on 
February 28, 2012, which allowed the Commander of Air Education and 
Training Command (AETC/CC) to approve the start of local area 
operations (LAO) at Eglin AFB for F-35A aircraft. LAO will build 
familiarity with the aircraft, exercise the logistics infrastructure, 
and measure the maturity of the air system. These flights will be 
conducted within the restrictions and limits of the MFR. AETC will 
continue LAO at Eglin until they judge that training operations are 
ready to begin.
    During calendar year 2011, the F-35 program team achieved a number 
of significant milestones, including: delivery of six training aircraft 
to Eglin AFB; achieving the 1,000th CTOL flight hour; performing the 
first successful fuel transfer from a KC-10 tanker; reaching over 450 
CTOL flights for the year; rolling-out the first partner nation (UK) 
short take-off and vertical landing (STOVL) aircraft from the 
production line in November 2011; and completion of academic and 
simulator requirements by the first two U.S. Air Force pilots at the 
Academic Training Center (ATC). They performed instructor pilot 
monitored engine runs in AF-9 to become the first operational, engine 
run qualified CTOL pilots.
                                  f-22
    The F-22 is the only fielded U.S. fighter capable of operating in 
anti-access and area denial (A2/AD) environments. F-22 attributes of 
stealth, super cruise, integrated avionics and sensors combine to 
deliver the Raptor's unique operational capability in A2/AD 
environments. F-22 modernization is required to counter threat 
advancement efforts that specifically target F-22 attributes in order 
to degrade U.S. ability to operate in A2/AD environments. Accordingly, 
F-22 modernization is consistent with DOD Strategic Guidance to 
``invest as required to ensure [the] ability to operate effectively in 
(A2/AD) environments''.
    Focused on maintaining operational superiority against the 
advancing threat, the fiscal year 2013 PB request for F-22 
modernization investment includes $512 million RDT&E plus $333 million 
procurement in fiscal year 2013. Modernization increment 2.0 is fielded 
now on the combat-coded F-22 fleet and will be the final (very capable 
warfighting) configuration of the F-22 training fleet at Tyndall AFB. 
Increment 3.1 initial operational capability (IOC) is scheduled to 
occur in 2012, delivering advanced air-ground capabilities including 
SAR ground mapping, threat geolocation, and SDB carriage. Increments 
3.2A/B, fielding in 2014/2018 respectively, will deliver advanced 
electronic protection and combat ID, AIM-120D and AIM-9X missiles, and 
significantly-improved ground threat geolocation.
    F-22 production is complete--the last Raptor is scheduled to be 
delivered in early May 2012, completing the program of record of 187 
aircraft. The final F-22 fleet will include 139 combat coded Block 30/
35s, 32 training Block 20s, 12 Developmental Test/Operational Test 
Block 20/30/35s, and 2 pre-block test aircraft. The production line is 
shut down with no plan for restart at any time. Accordingly, all 
government-owned production tooling is being stored for F-22 
sustainment purposes only.
    The F-22 fleet stood down May-Sept. 2011 while safety issues 
associated with delivery of adequate breathing oxygen to pilots were 
investigated. Safety Investigation and Scientific Advisory Board (SIB/
SAB) investigations were not able to determine root cause but informed 
development of technical and procedural mitigations which enabled a 
safe return to flight (RTF). Over 7000 sorties have been flown since 
return to flight. RTF mitigations allowed eight in-flight oxygen-
related incidents to be resolved safely. The F-22 fleet transition from 
production to sustainment has been marked by a solid improvement in 
operational availability (Ao)--growing from 59 percent Ao for calendar 
year 2011 to 66 percent Ao in January 2012.
                                  a-10
    The A-10 provides our Joint Force Commanders responsive, lethal, 
precise, and persistent firepower for close air support and combat 
search and rescue. It has been a steady, stellar performer in all 
recent conflicts. Notably, the A-10s very high operations tempo and 
advanced age present substantial sustainment challenges. Reflecting 
this, the A-10s fiscal year 2011 aircraft availability rate was 59 
percent.
    The Air Force plans to retain 242 A-10s through 2030. The fiscal 
year 2013 PB invests approximately $205 million across the FYDP to fund 
A-10 modernization, sustainment, and life extension programs. Following 
completion of the Precision Engagement modification in fiscal year 
2011, all previously designated ``A'' model aircraft were designated as 
the A-10C. The Precision Engagement upgrade gives the venerable A-10 
the ability to deliver the newest and greatest complement of weapons 
than was ever available before, through the integration of targeting 
pods, digital data links and global positioning systems. Installation 
of the Helmet Mounted Cueing System, beginning in fiscal year 2012, 
will provide increased situational awareness to the pilot. Further, 
installation of the first of the new replacement wings began in fiscal 
year 2011, an essential program for the long-term structural longevity 
of the airplane. Other updates include a replacement portable 
maintenance tester and improved turbine and aircraft monitoring systems 
used to monitor structural fatigues and stresses. Emphasis on the 
continued health and upgrades will ensure the A-10 excels at close air 
support for the next 2 decades.
                                  f-16
    Our primary multi-role F-16 comprises 50 percent of the current 
fighter fleet. The fiscal year 2013 PB invests approximately $1.4 
billion across the FYDP for F-16 modernization, life extension, and 
continued sustainment to meet critical warfighter needs to 2025 and 
beyond. The majority of the efforts to accomplish this across the FYDP 
will focus on the service life extension program (SLEP) and Combat 
Avionics Programmed Extension Suites (CAPES) modernization program for 
300 aircraft, with the intent of reaching 350 aircraft. The requirement 
for the legacy SLEP is highlighted by bulkhead cracks found in 
approximately 73 percent of our Block 40/52 F-16 aircraft.
    Legacy SLEP will extend airframe structural service life by 
approximately 25 percent from the current 8,000 hours to 10,000+ hours, 
adding 6 to 8 years. The fiscal year 2013 PB request adds $8.8 million 
to continue design and development of structural modification kits for 
the Block 40/52 fleet to be responsive to the Air Force's total fighter 
requirement. Additionally, the Falcon Structural Augmentation Roadmap 
(STAR) program, which replaces known life-limited structural components 
and maintains the original design airframe life of 8,000 actual flight 
hours, has been rephrased to complete in fiscal year 2015.
    The fiscal year 2013 PB adds $69.7 million in development, with a 
total of $526 million in development and procurement funding laid in 
across the FYDP for F-16 CAPES. This will allow for the development of 
capabilities for active electronically scanned array (AESA) radar, a 
new center cockpit display unit, data link enhancements and electronic 
warfare defensive suite upgrades. These avionic upgrades will keep the 
F-16 Block 40/52s relevant in the threat environment beyond 2025 until 
replaced by the F-35 Joint Strike Fighter.
    Currently the F-16 aircraft availability is 64.9 percent and in 
fiscal year 2011 was 66.1 percent. F-16 fleet aircraft availability 
dropped 4.9 percent since fiscal year 2005. Drivers to the reduced 
availability include the Falcon STAR (all blocks) structural integrity 
program, engine inlet ram (all blocks), lower wing skin cracking 
(blocks 25/30/32), and aft cockpit corrosion for two seat aircraft. We 
expect these drivers to continue to impact aircraft availability 
through fiscal year 2015.
                                f-15 c/d
    The fiscal year 2013 President`s budget (PB) invests approximately 
$1.7 billion across the FYDP on modernization and sustainment programs 
for the F-15C/D fleet. We project the F-15C/D fleet will remain viable 
until 2030-2035 with potential for an airframe service life extension 
following full-scale fatigue testing. This test is underway and will 
conclude in 2014. The Air Force manages the fleet through scheduled 
field and depot inspections under an individual aircraft tracking 
program. In fiscal year 2011, the F-15C/D`s aircraft availability was 
55.9 percent.
    We continue to modernize our F-15C/D fleet with AESA radars, and a 
more capable aircraft mission computer. We expect these efforts to 
enable 175 F-15C/D aircraft to operate safely and effectively through 
at least 2035 as determined by the full-scale fatigue test. We may 
extend the long-term status to the entire 249 aircraft inventory based 
on requirements of the future force structure.
                                 f-15e
    The F-15E fleet continues to provide support for ongoing 
operations. Aircraft availability for the F-15E in fiscal year 2011 was 
64.9 percent.
    The fiscal year 2013 President`s budget investment across the FYDP 
is approximately $2.1 billion for F-15E modernization and sustainment 
programs. This includes integrating the latest precision weapons to hit 
targets accurately and reduce collateral damage, and adding a helmet 
mounted cueing system for all front seat cockpits that will reduce the 
F-15E`s time to engage a target. Finally, we are adding a state-of-the-
art AESA radar system that advances capabilities to identify and engage 
targets. The Air Force expects the F-15E to be an integral part of the 
Nation`s force through at least 2035. A full-scale fatigue test, due to 
be complete in 2015, will provide data regarding the feasibility of a 
service life extension.
                               conclusion
    The Air Force stands ready to win today's joint fight as we adjust 
to the challenges of tomorrow. While the environment we are in 
necessitated difficult choices, we remain committed to working together 
to manage risks and determine a fiscally sound procurement, sustainment 
and retirement strategy to remain prepared for the current fight as we 
posture for the new strategic guidance. The dominance of air, space, 
and cyberspace continues to be requisite to the defense of the United 
States. We appreciate your continued support and look forward to 
working in concert to ensure our decisions enable us to strengthen our 
force.

    Senator Lieberman. Thanks, General. Without objection, your 
statement and the statements of the other witnesses will be 
included in the record in full.
    Vice Admiral Walter M. Skinner, Principal Military Deputy, 
Office of the Assistant Secretary of the Navy for Research, 
Development, and Acquisition, thanks for being here. Welcome.

 STATEMENT OF VADM WALTER M. SKINNER, USN, PRINCIPAL MILITARY 
   DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE NAVY FOR 
             RESEARCH, DEVELOPMENT, AND ACQUISITION

    Admiral Skinner. Thank you. Chairman Lieberman, Ranking 
Member Brown, distinguished members of the subcommittee, it is 
my honor to appear before you today to discuss the Navy's 
tactical aviation procurement programs.
    The fiscal environment and the Budget Control Act (BCA) of 
2011 required hard choices to be made. In response, the Navy 
deferred procurement of F-35s, P-8s, E-2Ds, F-18 Es and Fs, and 
MV-22s, and terminated the Medium Range Maritime Unmanned 
Aerial System program and Joint Air-to-Ground Missile 
investment in the President's budget request. We are facing 
challenges: the budget reductions necessitated by the BCA and 
aging aircraft inventory and significant threats. During these 
austere times, we must persist in modernizing and 
recapitalizing our naval aviation forces and increase our 
capability through force multipliers such as the Navy 
integrated fire control counter air and using should cost/will 
cost processes to bring more affordable systems to our 
warfighters.
    Affordability will be our business focus over the Future 
Years Defense Program (FDYP) so we can continue to deliver the 
capabilities to meet the warfighters' needs. With your 
assistance, we are leveraging our buying power with the 
successful multiyear procurements on the F-18, B-22, and H-60, 
and together we are saving the taxpayers over $1.5 billion.
    Last year, we commemorated our historical past as naval 
aviation celebrated its centennial. This year, Marine Corps 
aviation will do the same. New history has also been written 
over this past year when we conducted F-35 shipboard operations 
aboard the USS Wasp and flew the first F-35C formation flights 
at Patuxent River and deployed the first E/A-18 Growler 
expeditionary squadrons to Iraq and then redeployed the 
squadron on short notice to support Operation Odyssey Dawn. We 
commenced E-2D Advanced Hawkeye initial operational test and 
evaluation (OT&E), and we delivered the first P-8 Poseidon and 
the 500th Super Hornet Growler on cost and on schedule. The 
Naval Air Systems Command (NAVAIR) hired 155 wounded warriors 
into the acquisition workforce.
    We also continue to actively manage our TACAIR inventory. 
The first Hornet will be inducted into our SLEP later this 
year, and both SLEP and future aircraft procurements must 
continue on schedule to mitigate the strike fighter shortfall 
through 2028. The Navy will transition three Navy F-18 Charlie 
squadrons to F-18Es, and the Marine Corps will reduce their 
force structure by four squadrons and delay the retirement of 
the AV-8B Harrier until 2030.
    Thank you and we welcome your questions on the Department 
of the Navy's tactical aviation procurement programs.
    [The prepared statement of Admiral Skinner follows:]
            Prepared Statement by VADM W. Mark Skinner, USN
    Mr. Chairman, Senator Brown, and distinguished members of the 
Airland Subcommittee, thank you for the opportunity to appear before 
you today to discuss the Department of the Navy's (DoN) Aviation 
programs. My testimony will provide background and rationale for the 
Department's fiscal year 2013 budget request for aviation programs 
aligning to our strategic priorities and budgetary goals.
    The United States is a maritime nation with global 
responsibilities. For 236 years, our Navy and Marine Corps' persistent 
presence and multi-mission capability have been the representation of 
U.S. power across the global commons. Our naval tradition informs our 
decisions today, as the Navy and Marine Corps remain firmly in a 
forward posture for engagement and action, continuing to build on our 
ability to come from the sea to conduct our missions rapidly across the 
range of military operations. The Navy and Marine Corps is an agile 
strike and amphibious power projection force in readiness, and such 
agility requires that the tactical aviation arm of our naval strike and 
expeditionary forces remain strong.
    The fiscal year 2013 DoN budget request, while less than was 
requested in fiscal year 2012, aligns with the new strategic guidance 
for the Department of Defense (DOD) and provides the Department with 
the best balance of naval aviation assets. Guided by the Defense 
Strategic Guidance, the Navy-Marine Corps team is built for war, 
capable of operating forward to preserve the peace, respond to crises 
and protect United States and allied interests. The force will be 
leaner, agile, flexible, ready, and technologically advanced.
    The Navy and Marine Corps are committed to the Joint Strike Fighter 
program in both the F-35B and F-35C variants. We have reduced the 
quantity of the fiscal year 2013 aircraft procurement request to 
minimize the number of aircraft the Department will have to modify for 
concurrency. This action funds the costs associated with concurrency 
from within the JSF program as well as reduces the Department's overall 
investment in the JSF Program. The budget also has optimized unmanned 
aerial systems (UAS) investments across the DoN's portfolio and is 
developing a comprehensive and flexible portfolio of unmanned systems 
to meet a variety of maritime reconnaissance requirements. In 2012, the 
Unmanned Carrier Launched Airborne Surveillance and Strike (UCLASS) 
development program began; while the MQ-8B Fire Scout aircraft 
demonstrated in-theater capability and follow-on MQ-8C upgrade have 
superseded the need for the Medium Range Unmanned Aerial System 
(MRMUAS) which was terminated in the fiscal year 2013 request. The Navy 
and Marine Corps continues to optimize our buying power through the use 
of multi-year procurements (MYP) of the F/A-18E/F, EA-18G, MV-22 and H-
60 programs. We are recapitalizing our aging fleet of E-2C, EA-6B and 
P-3 aircraft with more capable and more supportable aircraft--the E-2D, 
EA-18G and P-8A. We are exploring alternatives and concepts for the 
recapitalization of the Executive Helicopter, the C-2A and the F/A-18E/
F--we will do so with lean acquisition and optimized technology at an 
affordable cost.
    The fiscal year 2013 President's budget requests funding for 94 
aircraft including 10 F-35 JSFs for both the Navy and the Marine Corps, 
13 P-8As to replace the aging current anti-submarine warfare and 
maritime patrol squadrons, 17 MV-22 tilt-rotor aircraft, 26 F/A-18E/F 
fighter attack planes, 12 EA-18G to complete the replacement of the EA-
6B, 5 E-2D Advanced Hawkeyes, and 11 unmanned aerial vehicles (UAV). 
The DoN has also requested funds for the continued development of the 
Broad Area Maritime Surveillance (BAMS) unmanned system and for the 
demonstration of the Navy Unmanned Combat Aerial System (N-UCAS). The 
DoN fiscal year 2013 aircraft program budget request is funded for 
planned program execution throughout the Future Years Defense Program 
(FYDP).
                       tactical aviation (tacair)
TACAIR Inventory Management
    In 2010, we estimated the DoN strike fighter shortfall (SFS) to be 
about 100 aircraft, but the net effect of the fiscal year 2013 
President's budget, which includes restructuring the F-35B/C ramp, 
along with the impact of reduced operational rates and force structure 
requirements, put the DoN's projected shortfall at a manageable level 
below 65 aircraft in the 2020s.
    While the SFS continues to fall within the manageable levels 
throughout the DoN, the Marine Corps may experience elevated 
operational risk in the 2020s if the predicted shortfall comes to 
fruition. Over the past two Presidential budgets, the Marine Corps 
TACAIR transition completion has extended from 2023 to 2031. This 8-
year slide has forced the Marine Corps to evaluate inventory 
availability amongst its Harrier and Hornet fleet in the later years 
and adjust its transition priorities and timing. The last active Marine 
F/A-18 squadron is currently scheduled to transition in 2027, and the 
current F/A-18 Reserve squadron does not receive its F-35s until 2030. 
The Harriers were expected to complete their transitions in 2022 in the 
fiscal year 2011 President's budget, and then 2026 in fiscal year 2012 
President's budget. The Harriers are now planned to remain in service 
through 2030 due to reduced F-35 ramp rates and the fact that they have 
more flight hour life remaining than the Hornets.
    As legacy F/A-18 squadrons are reduced, the service shortfall 
number must be considered in proportion to the primary mission aircraft 
inventory requirement. Due to a lower number of F/A-18 squadrons in the 
2023 to 2026 timeframe, the shortfall number associated with the Marine 
Corps will have a more significant impact on their few remaining F/A-18 
operational squadrons.
    Additionally, the AV-8B will operate with a shortfall of 10 
aircraft in fiscal year 2012, reaching 12 aircraft during fiscal year 
2013, based on attrition. One AV-8B squadron will be retired at the end 
of fiscal year 2013 to meet USMC manpower reductions, allowing the 
remaining squadrons to operate without a shortfall. The Navy will 
transition three additional squadrons from F/A-18C to F/A-18E and then 
redistribute those F/A-18C aircraft amongst the DoN requirements.
    The DoN continues to meticulously manage the fatigue life and 
flight hours of our tactical aircraft. Since 2004, we have provided 
fleet users guidance and actions to optimize aircraft utilization rates 
while maximizing training and operational opportunities. The inventory 
forecasting tool (IFT) projects the combined effects of transition 
plans, attrition, and pipeline requirements on the total strike fighter 
aircraft inventory. The IFT is updated in conjunction with budget 
submittals to provide forecasts of the strike fighter inventory 
compared to the requirements. The tool utilizes these critical 
variables to project future inventories--F/A-18E/F and F-35B/C 
deliveries, force structure, aircraft usage rates, structural life 
limits, depot turnaround time, fatigue life expenditure (FLE), arrested 
and field landings, and catapult launches.
F-35B/F-35C Lightning II
    The Department of the Navy (DoN) remains firmly committed to both 
the F-35B short takeoff and vertical landing (STOVL) variant and the F-
35C carrier variant (CV) of the Joint Strike Fighter (JSF) program, as 
they are essential to our immediate and long-range Navy and Marine 
Corps aviation strategy and the Nation's security. F-35 will supplant 
the DoN's aging tactical aviation (TACAIR) fleet by replacing the Navy 
and Marine Corps legacy F/A-18A-D Hornet and the Marine Corps AV-8B 
Harrier and EA-6B Prowlers. The incorporation of F-35B and F-35C 
aircraft into our naval force will provide the dominant, multi-role, 
fifth-generation capabilities that are essential across the full 
spectrum of combat operations to deter potential adversaries and enable 
future naval aviation power projection.
    The F-35B STOVL variant combines the multi-role versatility and 
strike fighter capability of the legacy F/A-18 with the basing 
flexibility of the AV-8B. The Marine Corps will leverage the F-35B's 
sophisticated sensor suite and very low observable (VLO) fifth-
generation strike fighter capabilities, particularly in the area of 
data collection and information dissemination, to support the Marine 
Air Ground Task Force (MAGTF) well beyond the abilities of today's 
MAGTF expeditionary attack, strike and electronic warfare assets. 
Having these capabilities in one aircraft will provide the joint force 
commander and the MAGTF commander unprecedented strategic and 
operational agility. Similarly, the F-35C CV complements the F/A-18E/F 
Block II and EA-18G in providing survivable, long-range strike 
capability and persistence in an access-denied environment. Together, 
the F-35B and F-35C will provide the expeditionary strike group and 
carrier strike group commanders a survivable, ``day-one'' strike 
capability in a denied access environment with the tactical agility and 
strategic flexibility to counter a broad spectrum of threats and win in 
operational scenarios that cannot be addressed by current legacy 
aircraft.
    The overall F-35 development program has been re-planned and is now 
resourced with adequate margin and realistic planning factors to 
complete system development and demonstration (SDD). Key activities 
that supported the replan included the development of an integrated 
master schedule (IMS), execution of a schedule risk assessment (SRA), 
and completion of the integrated baseline review (IBR). Under these 
efforts, the Department of Defense revised flight test rates, 
established longer software development spans, included revised systems 
engineering processes, and established new performance measurements. 
This plan has strong support within the Department of the Navy as we 
believe it places the development program on sound footing towards 
delivering full Block 3 capabilities.
    In January 2011, Secretary Gates placed the F-35B on probationary 
status because it was experiencing significant unique technical issues. 
F-35B testing was decoupled from the other two variants, allowing the 
program to increase focus on F-35B-specific development issues while 
testing on the other variants progressed. All three variants improved 
their testing performance in 2011. In particular, the F-35B 
successfully completed more flights and more test points than planned, 
including the first F-35B shipboard suitability test and operations 
with BF-2 and BF-4 aboard the USS Wasp. The F-35B is now demonstrating 
development, test, and production maturity comparable to and not 
substantially different from the other F-35 variants. With this data, 
the Secretary of Defense (SECDEF) made the decision to lift STOVL from 
probation on January 20, 2012. As with the other variants, some 
additional technical issues have been identified on the F-35B since 
probation began. However, none of these issues rises to the level of 
significance of those that placed STOVL on probation, and they are 
consistent with the kind of discovery to be expected in any complex 
tactical aircraft development program. Similar F-35A and F-35C 
technical issues being discovered in test have been proactively 
addressed and are being resolved concurrent with flight test. The 
decision to lift probation will result in absolutely no reduction in 
DoN F-35B oversight or the level of attention given by the Department 
of Defense (DOD) to each of the JSF variants going forward.
    DOD established the F-35 program with a planned measure of 
concurrent development and production that balanced cost, risk, and 
need for TACAIR modernization. Concurrency, however, is a transient 
issue in which risks progressively decline through the end of SDD. The 
F-35 program is currently experiencing changes driven by design 
maturity discoveries as ground test, flight test, and overall system 
qualification efforts proceed. As more testing is completed, 
concurrency risks are progressively reduced as the design is confirmed 
or issues identified requiring changes are incorporated. Earlier 
aircraft are open to a greater need for changes, and as succeeding low-
rate initial production lots are built, their cumulative requirements 
for retrofit modifications decline.
    F-35 sustainment costs remain a concern. The DoN continues to 
support the F-35 Joint Program Office in its disciplined approach to 
analyzing and reducing sustainment costs. While the JPO and the 
Services made progress in 2011, there is more work to do in this area 
and the focus remains. For example, over the next 12 months the JPO 
will complete the F-35 business case analysis (BCA). The results from 
the BCA will assist the PEO in refining the current F-35 support 
strategy by identifying the best mix of existing Service/Partner 
organic capabilities with that of the Industry team to develop the 
optimum long term best value F-35 support solution. The DoN, working in 
concert with the JPO, will analyze options outside of the PEO's span of 
control to reduce operating cost such as; reviewing basing options and 
the sequencing of those actions, unit level manpower/squadron size, and 
discrete sustainment requirements. Through these combined efforts, the 
Department believes the PEO can increase convergence on an affordable 
F-35 sustainment strategy that both meets the required level of 
Service/Partner performance and lowers the total life cycle cost of the 
overall program.
    The initial operational capability (IOC) for F-35B and F-35C have 
not yet been established and will be determined by each service, based 
on both the program's performance and how the service defines IOC. In 
general terms, for example, the Marine Corps F-35B IOC is defined as a 
squadron of 10 aircraft able to execute the full range of TACAIR 
directed mission sets and to deploy and operate from F-35B compatible 
ships and austere expeditionary sites. The Marine Corps plans to 
achieve IOC with a multi-mission capable Block 2B aircraft as described 
in the JSF Operational Requirements Document (ORD)/Change 3. For the 
Navy F-35C, IOC is defined as a squadron of 10 ORD compliant Block 3F 
aircraft that are ready to deploy and operate from CVNs after having 
completed initial operational test and evaluation (IOT&E). The Marine 
Corps IOC for the F-35C will follow the Navy's lead to ensure 
capability symmetry onboard carriers.
    The fiscal year 2013 President's budget requests $1.5 billion in 
Research, Development, Test & Evaluation, Navy (RDT&E,N) to continue 
the F-35 SDD program and $2.7 billion in Aircraft Procurement, Navy 
(APN) for 10 F-35 aircraft (6 F-35B and 4 F-35C) with associated 
aircraft hardware and spares. These resource requirements fully align 
to the SECDEF's F-35 program replan. Maintaining this rate, and an 
eventual optimum production ramp rate, is critical towards achieving F-
35 affordability goals and preventing excessive expenditures on 
aircraft with limited service-life and decreasing operational 
relevance.
    The DoN is aware of the many challenges that remain on the F-35 
program. However, this aircraft is an essential future Navy/Marine 
Corps aviation capability and the DoN is fully committed to the F-35B 
and F-35C variants of this program. The DoN continues to closely 
monitor all F-35 development, production, and sustainment to ensure 
that this capability is obtained at the lowest cost, at the earliest 
date possible, to meet our national security obligations.
F/A-18 Overview
    The F/A-18 Hornets have consistently met readiness and operational 
commitments. There are 22 Navy Super Hornet squadrons with 440 F/A-18E/
Fs; deliveries and squadron transitions will continue through 2016. 
There are 15 Navy and 13 Marine F/A-18 A-D squadrons with 625 legacy A-
D Hornets. While the F/A-18A-Ds transition to the F/A-18E/F and F-35, 
the current inventory of F/A-18A-Ds will comprise more than half of the 
DoN's strike fighter inventory well into 2013. Super Hornets and legacy 
Hornets have conducted more than 148,000 combat missions since 
September 11, 2001. While deployed ashore and aboard our aircraft 
carriers at sea, F/A-18s have brought significant precision ordnance 
and laser-guided munitions to the fight, and have employed thousands of 
rounds of 20-millimeter ammunition supporting forces during strafing 
runs. These aircraft continue to provide vital overwatch and direct 
support to our troops on the ground in combat overseas.
    Both the legacy Hornet and the Super Hornet were procured with an 
objective of 20 years' time in service. The average legacy Hornet has 
exceeded that goal, while the Super Hornet is already at almost 30 
percent of its expected 20 year life. It is reasonable to conclude, 
based on current trends that most aircraft will substantially exceed 20 
years in service.
F/A-18 A/B/C/D (Legacy) Hornet
    The fiscal year 2013 President's budget request is $79.6 million in 
APN for the continuation of SLEP, systems upgrades and obsolescence 
programs for the inventory of 625 legacy F/A-18 Hornets. Funds 
requested will procure and install center-barrel modifications and 
service life extension program (SLEP) kits required for extending the 
service life to 10,000 flight hours of select candidate F/A-18A-D 
aircraft. The high flight hour (HFH) inspections and SLEP modifications 
can extend the F/A-18A-D service life to 10,000 hours and mitigate the 
impacts of the SFS. Continued investment in program related engineering 
(PRE) and program related logistics funds within the Operations and 
Maintenance, Navy accounts is critical for sustaining the combat 
relevancy of the DoN's legacy platforms through the TACAIR transition.
    The Service Life Management Program (SLMP) monitors and improves 
the health of the F/A-18A-D fleet through analyses of TACAIR 
inventories and management of usage rates at the squadron level. 
Seventy-four percent of the F/A-18 A-D fleet have over 6,000 flight 
hours while 32 aircraft have over 8,000 flight hours. To meet our 
operational commitments through mid 2020s, we will be required to 
extend the service life of at least 150 F/A-18A-D to 10,000 flight 
hours. The F/A-18 A-D Service Life Assessment Program (SLAP) has 
completed and we are identifying all of the inspections and 
modifications necessary to extend the airframe service life to 10,000 
flight hours. Based upon those results, we are midway through a three-
phased SLEP. SLEP Phase A identified the critical safety of flight 
locations that needed immediate inspection and identified notional 
repair concepts. SLEP Phase B categorized parts by criticality, and 
upgraded analytical tools for use by the Naval Air Systems Command 
(NAVAIR) and original equipment manufacturer engineers to design 
repairs. SLEP Phase C will finalize all remaining Phase B work and 
develop inspections and modifications required to extend the service 
life of 150 legacy F/A-18s. Efforts to extend the life of the F/A-18 A-
D's major subsystems and avionics, independent of the airframe, are 
also underway.
    The fiscal year 2013 President's budget request includes SLEP 
requirements for 150 airframes. The first aircraft were inducted in 
early fiscal year 2012. Although risk is inherent in extending the 
service life of an aircraft, the technical risk in developing 
modification kits to achieve the goal of 10,000 flight hours is low. 
The Fleet Readiness Centers have the capacity to execute the required 
number of HFH inspections and SLEP modifications. Material availability 
and engineering disposition turn-around times influence depot 
efficiencies.
    In order to maintain a tactical advantage, we will continue to 
procure and install advanced systems such as Joint Helmet-Mounted 
Cueing Systems (JHMCS), Multi-Function Information Distribution System 
(MIDS), APG-73 radar enhancements, Advanced Targeting FLIR (ATFLIR) 
upgrades, and LITENING for the marines on selected F/A-18A-D aircraft.
F/A-18 E/F Super Hornet
    The fiscal year 2013 President's budget requests $2.0 billion in 
APN for procurement of 26 F/A-18 E/F Block II (Lot 26-38) aircraft. The 
F/A-18E/F continues to transition into the fleet, improving the 
survivability and strike capability of the carrier air wing. The Super 
Hornet provides increased combat radius and endurance, and a 25 percent 
increase in weapons payload over the legacy Hornets. The President's 
budget request for fiscal year 2013 includes $276.7 million in APN to 
implement commonality, maintain capabilities and improve reliability 
and structural safety of the Super Hornet fleet. The Super Hornet uses 
an incremental development approach to incorporate new technologies and 
capabilities: the JHMCS, ATFLIR with shared real-time video, Shared 
Reconnaissance Pod System, MIDS data-link, multi-sensor integration, 
and continued advancement of the APG-79 active electronically scanned 
array (AESA) radar.
    The program continues to deliver on-cost and on-schedule and the 
last year of procurement to complete the program of record (POR) of 565 
aircraft is planned for 2014. Production shutdown begins in mid-2012 at 
the subvendor level and concludes in 2016. A MYP contract for 124 
(fiscal years 2010 through 2013) F/A-18E/F Super Hornets and EA-18G 
Growlers was signed on September 24, 2010. In December 2010, SECDEF 
added 41 E/F aircraft to the fiscal year 2012 President's budget 
request in fiscal years 2012 through 2014. All Lot 30 (fiscal year 
2006) and beyond F/A-18E/Fs and EA-18Gs have the APG-79 AESA radar 
system installed in production, and a retrofit program exists to modify 
133 Lot 26-29 Block II aircraft with the AESA radar. More than 300 APG-
79 AESA radars have been produced to date. The Navy plans to equip all 
419 Block II Super Hornets with AESA radars, providing the Super Hornet 
a significant increase in detection range, lethality and survivability 
over the legacy Hornets. Successfully deploying since 2007, AESA radar 
equipped squadrons are highly valued by fleet commanders because of 
their ability to share tactical battle space management data with the 
non-AESA radar tactical aircraft in the carrier battle group. The F/A-
18E/F and EA-18G with the APG-79 are force multipliers.
    The fiscal year 2013 President's budget includes a request for 
$11.0 million RDT&E,N to support the F/A-18E/F SLAP study requirement. 
Currently, the F/A-18 E/F fleet has flown approximately 30 percent of 
the available 6,000 total flight hours; the remaining service life will 
not be adequate to meet operational commitments through 2035. In 2008, 
the Navy commenced a three phased F/A-18E/F SLAP to analyze actual 
usage versus structural test data and identify the feasibility of 
extending F/A-18E/F service life from 6,000 to 9,000 flight hours via a 
follow-on SLEP. The F/A-18E/F SLAP will define the necessary 
inspections and modifications required to achieve 9,000 flight hours 
and increase total and arrested landings, and catapults beyond 
currently defined life limits and is currently assessed as low risk. 
The SLMP philosophy has been applied to the F/A-18E/F fleet at an 
earlier point in its lifecycle than the F/A-18A-D, which will optimize 
FLE, flight hours and total landings aligning aircraft service life 
with fleet requirements.
Airborne Electronic Attack (AEA)/EA-6B Prowler
    The fiscal year 2013 President's budget request includes $19.7 
million in RDT&E,N for electronic warfare (EW) counter response; $187.0 
million RDT&E,N for Next Generation Jammer (NGJ); $10.6 million RDT&E,N 
for MAGTF EW, $50.0 million in APN for common airborne electronic 
attack (AEA) systems; $30.1 million in APN for all EA-6B series 
aircraft; and $34.1 million APN for MAGTF EW.
    Currently, 69 EA-6Bs in the Navy and Marine Corps support 64 
operational aircraft in 13 Active squadrons and 1 Reserve squadron. 
This includes 37 Navy and Marine Corps Improved Capability (ICAP) II 
aircraft and 32 ICAP III aircraft. Following the final Navy EA-6B 
transitions to EA-18G in 2015, all ICAP III EA-6Bs will transfer to and 
be operated by the Marine Corps. The final retirement of the EA-6B from 
the DoN inventory will be by the end of 2019.
    Marine aviation is on a path towards a distributed AEA system of 
systems that is a critical element in achieving the MAGTF EW vision: a 
composite of manned and unmanned surface, air, and space assets, on a 
fully collaborative network providing the MAGTF commander control of 
the electromagnetic spectrum when and where desired. In development are 
the ALQ-231 Intrepid Tiger II communications jammer, UAS EW payloads, a 
software reprogrammable payload and an EW Services Architecture to 
facilitate collaborative networked electronic warfare battle 
management.
    The Intrepid Tiger II is intended to be carried on the AV-8B and 
eventually other fixed and rotary wing platforms and will provide 
direct AEA support to ground troops engaged in combat operations. 
Intrepid Tiger II development and procurement is in response to Marine 
Corps requirements for increased precision EW capability and capacity 
across the MAGTF and provides EW capability directly to tactical 
commanders without reliance upon the limited availability of the low-
density/high-demand EA-6B Prowler.
    The NGJ is new electronic warfare technology that replaces the 40-
year-old ALQ-99 system and is designed to provide modified escort power 
in support of joint and coalition air, land, and sea tactical strike 
missions. NGJ is critical to the Navy's vision for the future of 
airborne electronic attack strike warfare. Funding is vital to maintain 
schedule, allowing the program to transition to the technology 
development phase and ensure timely start of the EA-18G long lead 
integration activities.
Airborne Electronic Attack (AEA)/EA-18G Growler
    The fiscal year 2013 President's budget request is $1.1 billion in 
APN for procurement of 12 EA-18G aircraft and $13 million in RDT&E,N 
for correction of deficiencies. The first EA-18G squadron deployed in 
an expeditionary role in November 2010 to Iraq and subsequently 
redeployed on short notice to Italy in March 2011 in support of 
Operation New Dawn (OND) and Operation Unified Protector (OUP). The EA-
18G received accolades from both U.S. Central Command (CENTCOM) and 
Supreme Headquarters Allied Powers Europe for the AEA's enabling 
contribution to the battlespace.
    In 2009 the Navy began transition from EA-6Bs to EA-18Gs. The first 
carrier-based EA-18G squadron deployed in May 2011. All three Active 
component Navy expeditionary squadrons and two of the 10 carrier based 
squadrons have completed transition to the EA-18G. The Navy will be 
divested of EA-6Bs by 2015. The program of record is for 114 EA-18G 
aircraft, of which 90 have been procured to date. The final procurement 
of EA-18Gs is planned for 2013. As directed by the Quadrennial Defense 
Review in 2009, SECDEF added 26 EA-18G aircraft to the program of 
record across the FYDP to increase joint force capacity to conduct 
expeditionary electronic attack. The EA-18G fleet has flown 
approximately 5 percent of the 7,500 total flight hours per aircraft 
and are meeting all operational commitments.
    The Navy has completed an analysis of alternatives (AoA) to 
determine the best path forward for the NGJ. The NGJ system will 
replace the aging and limited inventory of ALQ-99 electronic warfare 
pods currently flown on the EA-18G and EA-6Bs and provide the DOD with 
the advanced comprehensive electronic attack capability required to 
outpace the threat.
E-2D Advanced Hawkeye (AHE)
    The fiscal year 2013 President's budget requests $119.1 million in 
RDT&E,N for continuation of SDD and $1.040 million in APN for five Full 
Rate Production (FRP) Lot 1 aircraft and advance procurement (AP) for 
fiscal year 2014 FRP Lot 2 aircraft.
    The E-2D Advanced Hawkeye is the Navy's carrier-based airborne 
early warning and battle management command and control system. The E-
2D provides theater air and missile defense and is capable of 
synthesizing information from multiple onboard and off-board sensors, 
making complex tactical decisions and then disseminating actionable 
information to Joint Forces in a distributed, open-architecture 
environment.
    Utilizing the newly developed AN/APY-9 mechanical electronic scan 
array radar and the Cooperative Engagement Capability system, the E-2D 
works in concert with surface combatants equipped with the Aegis combat 
system to detect, track and defeat air and cruise missile threats at 
extended range and provide battle group commanders required reaction 
time. This system-of-systems architecture, known as Naval Integrated 
Fire Control-Counter Air, provides vital force protection and allows 
the Navy to safely project forces into the littorals and overland to 
ensure access in contested areas.
    The E-2D Advanced Hawkeye program is in the production and 
deployment phase after the Defense Acquisition Board (DAB) approved 
Milestone C in June 2009, at which time the program received 
authorization for procurement of the first two lots of LRIP aircraft 
(LRIP Lot 1 is two aircraft and LRIP Lot 2 is three aircraft). The SDD 
flight test program is 100 percent complete and all key performance 
parameter thresholds have been met. An operational test readiness 
review was successfully conducted on February 1, 2012, certifying entry 
into Initial IOT&E, and IOT&E will continue through August 2012. Both 
LRIP Lot 1 aircraft were delivered in 2011, and delivery of the three 
LRIP Lot 2 aircraft will be completed in 2013. A DAB for approval to 
procure the final two lots of LRIP aircraft, Lots 3 (five aircraft) and 
4 (five aircraft), as well as AP for FRP Lot 1, was successfully held 
on in March 2011 and the respective contracts have been awarded. LRIP 
Lots 3 and 4 aircraft will be delivered in 2014 and 2015, respectively. 
From a cost standpoint, the estimate at complete has been stable for 
over 54 months and the program is on schedule for an FRP Decision in 
the first quarter of fiscal year 2013. All major acquisition milestones 
have been achieved on or ahead of schedule since program inception in 
2003.
AV-8B Harrier
    The fiscal year 2013 President's budget requests $38.7 million in 
APN funds to continue development of the AV-8B Readiness Management 
Program, Operational Flight Program and avionics weapons systems 
development and integration, and Engine Life Management Program. The 
fiscal year 2013 President's budget requests $42.2 million in Overseas 
Contingency Operation (OCO) procurement funding for Marine Corps 
expeditionary LITENING targeting pod upgrades installation of OCO-
procured ALE-47 kits (improved aircraft self protection, expendable 
system).
    The AV-8B continues to be deployed heavily in support of 
operational contingencies. Each Marine Expeditionary Unit (MEU) deploys 
with embarked AV-8Bs. As of 2012 the AV-8B, equipped with precision 
weapons, LITENING targeting pods with a video downlink to ROVER ground 
stations, beyond visual range air-to-air radar missiles, is a proven, 
invaluable asset for the MAGTF and joint commander across the spectrum 
of operations. In 2012, the AV-8B has received the H6.0 Operational 
Flight Program enabling full integration of the ALE-47 suite and 
Digital Improved Triple Ejector Rack increasing the smart weapon 
carriage capability from 4 weapons to 10. The Harrier out-of-service 
date has been extended from 2022 to 2030, based on current F-35B 
transition plans. As a result, the AV-8B program must focus on 
sustainment efforts to mitigate significant legacy inventory 
shortfalls, maintain airframe sustainment and address reliability and 
obsolescence issues of avionics and subsystems. Additionally, this 
aircraft must be funded to maintain combat relevance to include 
tactical datalink and sensor improvements in order provide continued 
operation in support of operational contingencies and transition 
qualified aircrew to the F-35. The current digital aided close air 
support (CAS) technology installed on the AV-8B is obsolete.
    Operation Odyssey Dawn confirmed the expeditionary advantages of 
STOVL capabilities by placing the Harrier as the closest fixed-wing 
asset to Libya. Such dynamic support slashed transit times to the 
battlefield by two-thirds and kept close air support aircraft on 
station without strategic tanking assets. Capability upgrades, 
obsolescence mitigation and readiness initiatives must be funded to 
ensure the AV-8B remains relevant, healthy and sustained through 2030.
                        assault support aircraft
MV-22
    The fiscal year 2013 President's budget requests $54.4 million in 
RDT&E, N for continued product improvements and $1.5 billion in APN for 
procurement of 17 MV-22Bs (Lot 17) and $95.9 million for continuation 
of follow-on block upgrades. Fiscal year 2013 is the first year of the 
planned follow-on V-22 MYP contract covering fiscal year 2013-2017. The 
funds requested in the fiscal year 2013 President's budget fully fund 
Lot 17 and procure long lead items for Lot 18 as well as Economic Order 
Quantity buys for Lots 18-21. The Marine Corps continues to field and 
transition aircraft on time. The APN request includes $95.9 million to 
support the ongoing Operations and Safety Improvement Programs (OSIP), 
including correction of deficiencies and readiness.
    The MV-22B has been supporting the Marines continuously since 
October 2007, in extreme environmental conditions during thirteen 
deployments to Iraq, Afghanistan and aboard amphibious shipping. In 
February 2011, the V-22 fleet exceeded a total of 100,000 flight hours. 
The MV-22B squadrons in Afghanistan and the MEU are seeing mission 
capable rates in the 70 percent range and are performing every assigned 
mission. Additionally, the Osprey has the lowest Class A flight mishap 
rate of any USMC-fielded tactical rotorcraft over the past 10 years.
    The effectiveness and survivability of this revolutionary, first-
of-type MV-22B Osprey tiltrotor has been repeatedly demonstrated in 
combat. The rescue of a downed F-15E airman during Operation Odyssey 
Dawn was an example of what the Navy and Marine Corps' expeditionary 
force brings our Nation. As an integral part of that seaborne presence, 
the MV-22B was able to perform its part of this mission with 
unprecedented speed and agility. Twenty minutes from the time he was 
evading capture in hostile territory, the rescued pilot was safely back 
on American territory aboard USS Kearsarge.
    Under the existing MYP, Ospreys have been delivered under cost and 
on time. The fifth and final buy under the multiyear occurred in fiscal 
year 2012; the fiscal year 2013 President's budget request includes 
provisions for a second MYP which builds on the successes of the first. 
This second MYP will procure 91 MVs over 5 years and will produce 
significant savings when compared to single year procurements. The 
stability it provides supports the Marine Corps' need to retire old 
aircraft and field new and better capabilities. Additionally, the 
stabilization of the supplier base encourages long-term cost reduction 
initiatives on the part of the prime contractors and their suppliers.
    The introduction of this new tiltrotor capability into combat has 
provided valuable lessons with respect to readiness and operating 
costs. Improvements to both continue and are having a clear effect on 
increasing aircraft availability and decreasing flight hour costs. At 
the close of fiscal year 2011, the mission capability rate of the MV-22 
was up 19 percent over fiscal year 2010 and the cost per flight hour 
decreased 13 percent in the same period. Due to these cost reduction 
efforts, the V-22 program received the prestigious David Packard 
Excellence in Acquisition Award which recognizes exemplary performance 
and innovation acquiring and delivering products and capabilities to 
the warfighter.
    To keep these improvements on track a readiness OSIP was introduced 
into the fiscal year 2012 President's budget. This OSIP provides a 
stable source of crucial modification funding as the Ospreys continue 
to improve readiness and reduce operating cost.
    The MV-22B capability is being increased and fielded over time via 
a block upgrade acquisition strategy. The great benefit of a fly-by-
wire rotorcraft was very clear recently when the Osprey increased 
airspeed and lift by simply modifying the flight control software. Such 
improvements require thorough testing; fiscal year 2013 RDT&E,N funds 
will be utilized to complete a fully-instrumented test aircraft which 
will replace the existing test aircraft. The current test aircraft is 
five iterations behind the V-22 being flown today and requires hundreds 
of maintenance man-hours per flight hour to operate and maintain.
                          fixed wing aircraft
KC-130J
    The fiscal year 2013 President's budget requests $942 million in 
APN across the FYDP for procurement of eight KC-130Js and continued 
product improvements. Targeted improvements include propeller and air-
to-air refueling hose reel reliability, aircraft survivability through 
advanced electronic countermeasure modernization and replacing Vietnam-
era flare dispensers used for battlefield illumination, greatly 
enhancing mission effectiveness.
    The KC-130J Hercules achieved IOC in 2005 and has been fielded 
throughout our active force, bringing increased capability, performance 
and survivability with lower operating and sustainment costs to the 
MAGTF. Forward deployed continuously in support of Operations Iraqi and 
Enduring Freedom since 2005, the KC-130J continues to deliver marines, 
fuel and cargo wherever needed. In 2011 the KC-130J continued to be a 
force multiplier for the Marine Corps through its support to combat 
operations in Afghanistan, humanitarian and disaster relief efforts in 
Pakistan, Tunisia and Japan, tactical recovery of downed aircrew in 
Libya, and support to Marine Expeditionary Units worldwide.
    In September 2010, the Marine Corps fielded the first bolt-on/bolt-
off Harvest Hawk intelligence, surveillance, and reconnaissance (ISR)/
weapon mission kit for the KC-130J, expanding the role of the MAGTF's 
tanker. With the mission kit installed, the KC-130J is capable of 
providing persistent close air support and multi-sensor imagery 
reconnaissance for our Marines in harm's way. Three mission kits have 
been fielded to date, with three more expected to field in fiscal year 
2013.
    The USMC has procured 47 KC-130Js, 32 aircraft short of the 79 
aircraft program of record. Procurement of the program of record will 
allow us to fully outfit our Active and Reserve Force with this unique, 
multi-mission assault support and refueling platform. The Reserve 
component is programmed to begin transition from the legacy KC-130T 
aircraft to the more capable, more efficient KC-130J aircraft beginning 
in fiscal year 2015. This Reserve component transition will begin with 
the aircraft requested in the fiscal year 2013 President's budget. 
Delays in procurement would force the Marine Corps to sustain the KC-
130T aircraft longer than planned at an increased cost.
P-8A Poseidon
    The P-8A Poseidon recapitalizes the maritime patrol anti-submarine 
warfare (ASW), anti-surface warfare (ASUW) and armed ISR capability 
currently resident in the P-3C Orion. The P-8A combines the proven 
reliability of the commercial 737 airframe and avionics with an open 
architecture that enables integration of modern sensors and robust 
communications. The fiscal year 2013 President's budget requests $421 
million in RDT&E, N for integrated development and associated testing 
and $2.837 billion for procurement of 13 FRP P-8A Poseidon aircraft 
which are scheduled to begin delivery in May 2015. APN funding supports 
AP for the subsequent FRP procurement lot. The program is on track for 
IOC in late 2013 when the first squadron will have completed transition 
and is ready to deploy. The P-8A program is meeting all cost, schedule 
and performance parameters in accordance with the Acquisition Program 
Baseline.
    In August 2010 the P-8A program surpassed Milestone C, authorizing 
the Navy to proceed with procurement of LRIP Lots 1, 2, and 3 for 6 
aircraft in fiscal year 2010, 7 aircraft in fiscal year 2011 and 11 
aircraft in fiscal year 2012. The Navy awarded the LRIP Lot 1 contract 
in January 2011 and LRIP Lot 2 contract in November 2011. On March 
2012, the first LRIP aircraft was delivered to Patrol Squadron 30 at 
NAS Jacksonville, FL. The first three flight test aircraft are being 
flown at NAS Patuxent River, MD, in support of integrated operational 
test and evaluation (IOT&E). Two of three production representative 
aircraft have been accepted by the Navy to support IOT&E. The third of 
these aircraft has been supporting integrated test and training in 
preparation for IOT&E and will be formally accepted by the Navy prior 
to commencement of IOT&E.
P-3C Orion
    The legacy P-3C fleet continues to provide ASW, ASUW, and ISR 
support for Joint and Naval operations worldwide. In fiscal year 2013, 
$148.4 million is requested for P-3C airframe and mission systems 
sustainment. Nearly one third ($41.4 million) is for wing modifications 
to support the CNO's P-3 Fleet Response Plan, as well as supporting EP-
3E requirements, which are executed within the P-3 Airframe Sustainment 
Program. Mission systems sustainment and modernization totals $107 
million to address numerous safety of flight and obsolescence issues. 
The P-3C is being sustained to maintain warfighting capability and 
capacity until completion of P-8A transition in fiscal year 2018.
    The aircraft is well beyond planned fatigue life of 7,500 hours for 
critical components, with an average airframe usage of over 17,000 
hours. Since February 2005, 14 aircraft grounding bulletins have 
impacted 118 P-3 aircraft. In December 2007, NAVAIR's ongoing RDT&E 
funded P-3 Fatigue Life Management Program determined that in addition 
to existing structural fatigue issues associated with the forward lower 
wing section (Zones 2-4), the lower aft wing surface (Zone 5) of the P-
3 aircraft showed fatigue damage beyond acceptable risk resulting in 
the grounding of an additional 39 P-3 aircraft. As of February 2012, a 
total of 75 aircraft have been grounded for Zone 5 fatigue. P-3 
groundings due to known material fatigue will continue for the 
remainder of the P-3 program, and unknown fatigue issues will continue 
to present persistent risk until P-8A transition is complete. A return 
to pre-December 2007 aircraft availability numbers was achieved in 
December 2010; 83 P-3C mission aircraft are available today. Preserving 
funding for Zone 5 and outer wing kits and installations is critical to 
sustaining the minimum number of P-3Cs until replaced by the P-8A. The 
Navy will continue to manage closely the service life of the P-3C 
through transition to the P-8A Poseidon.
EP-3 Aries Replacement/Sustainment
    The EP-3E ARIES is the Navy's premier manned airborne intelligence, 
surveillance, reconnaissance, and targeting (AISR&T) platform. The 
joint airborne SIGINT common configuration includes signals 
intelligence (SIGINT) spiral upgrades, which, in conjunction with 
SECDEF and the ISR Task Force (ISR TF) surge efforts, are fielding a 
robust multi-intelligence (INT) capability inside the FYDP. Multi-INT 
sensors, robust communication, voice over IP and data links employed by 
the flexible and dependable P-3 air vehicle help ensure effective 
AISR&T support to conventional and non-conventional warfare across the 
current range of military operations. Operating around the globe, the 
EP-3E continues to satisfy critical Joint, Combatant Commander, and 
Service airborne ISR priorities and requirements.
    In fiscal year 2013, the President's budget request is $79.4 
million in APN, including $13.0 million for OCO to address EP-3E SIGINT 
and communications capability upgrades and obsolescence. The APN 
request supports the FRP installations and procurements for 
communications intelligence modifications necessary to keep pace with 
the evolving threat. The EP-3E program continues to modify aircraft 
with multi-intelligence capability to meet emergent classified 
requirements. Modifications are necessary to keep the platform viable 
until the EP-3 capabilities are recapitalized.
    The Navy is in the process of developing the AISR&T family of 
systems construct to recapitalize the EP-3 AISR&T capabilities within 
existing of Program of Record platforms; BAMS, VTUAV, UCLASS, P-8, H-
60, and E-2D. The strategy has been further refined to focus on module 
systems and payloads required for the Navy to conduct AISR&T on a 
variety of vehicles, providing the COCOM with scalable capability and 
capacity. An inclusive full spectrum approach of the Navy sea and shore 
based manned and unmanned platforms align with the CNO's priorities.
                       assault support helicopter
CH-53K Heavy Lift Replacement Program
    The fiscal year 2013 President's budget requests $606 million 
RDT&E,N to continue SDD of the CH-53K. Since completing its critical 
design review in July 2010, the CH-53K program began system capability 
and manufacturing process demonstration, and started fabrication of the 
first test aircraft. During fiscal year 2013, the program will continue 
work on manufacturing the various test articles needed to support 
developmental test activities to achieve the planned first flight of 
the CH-53K in 2014.
    The new build CH-53K will replace the legacy fleet of CH-53D/E 
helicopters with an aircraft that provides the performance necessary to 
support our future warfighting requirements. The CH-53E Super Stallion 
provides unparalleled combat assault support to the MAGTF and is one of 
the Marine Corps' most-stressed aviation communities. CH-53s, providing 
vital lift of heavy equipment, supplies and troops, are currently 
deployed in Afghanistan, the Horn of Africa, and onboard ship with our 
MEUs. Since May 2011, CH-53D/Es have flown over 19,000 hours; carried 
more than 73,000 passengers and moved over thirteen million pounds of 
cargo in support of coalition forces in Afghanistan and the Horn of 
Africa while flying well above their programmed rates in austere, 
expeditionary conditions. The need for heavy lift support has increased 
substantially when compared to last year's numbers over the same 
reporting period. The only heavy lift helicopters deployed to 
Afghanistan, CH-53D/Es have performed combat external recoveries of 
five coalition helicopters during this period. Forward-deployed 
aircraft have been operating at up to three times the peacetime 
utilization rates.
    To keep these platforms viable until the CH-53K enters service, the 
fiscal year 2013 President's budget requests $61.4 million for both 
near- and mid-term enhancements, including Integrated Mechanical 
Diagnostic System, T-64 Engine Reliability Improvement Program kits, 
directed infrared countermeasures, critical survivability upgrade, and 
sustainment efforts such as Kapton wiring replacement. While these 
aircraft are achieving unprecedented operational milestones, they are 
nearing the end of their service life. The CH-53E is approaching 30 
years of service and the CH-53D is scheduled to retire from active 
service in late 2012, after operating for almost 40 years.
    The new-build CH-53K will fulfill land and sea based heavy-lift 
requirements not resident in any of today's platforms, and contribute 
directly to the increased agility, lethality, and presence of joint 
task forces and MAGTFs. The CH-53K will transport 27,000 pounds of 
external cargo out to a range of 110 nautical miles, nearly tripling 
the CH-53E's lift capability under similar environmental conditions, 
while fitting into the same shipboard footprint. The CH-53K will also 
provide unparalleled lift capability under the high altitude, hot 
weather conditions similar to those found in Afghanistan, greatly 
expanding the commander's operational reach.
    Maintainability and reliability enhancements of the CH-53K will 
improve aircraft availability and operational effectiveness over the 
current CH-53E with improved cost effectiveness. Additionally, 
survivability and force protection enhancements will increase 
protection dramatically, for both aircrew and passengers, thereby 
broadening the depth and breadth of heavy lift operational support to 
the joint task force and MAGTF commander. Expeditionary heavy-lift 
capabilities will continue to be critical to successful land- and sea-
based operations in future anti-access, area-denial environments, 
enabling seabasing and the joint operating concepts of force 
application and focused logistics.
                      attack and utility aircraft
UH-1Y/AH-1Z
    The fiscal year 2013 President's budget requests $31.1 million in 
RDT&E,N for continued product improvements and $824.1 million in APN 
for 28 H-1 Upgrade aircraft: 15 UH-1Y and 13 AH-1Z (includes one OCO) 
aircraft. The program is a key modernization effort designed to resolve 
existing safety deficiencies, to enhance operational effectiveness, and 
to extend the service life of both aircraft. The 85 percent commonality 
between the UH-1Y and AH-1Z will reduce lifecycle costs and logistical 
footprint significantly, while increasing the maintainability and 
deployability of both aircraft. The program will provide the Marine 
Corps 349 H-1 aircraft through a combination of remanufacturing and new 
production.
    The H-1 Upgrades Program is replacing the Marine Corps' UH-1N and 
AH-1W helicopters with state-of-the-art UH-1Y and AH-1Z aircraft. These 
legacy aircraft have proven enormously effective over decades of heavy 
use, and as they reach the end of their service lives, we look forward 
to expanding utility and attack helicopter capabilities. The new 
``Yankee'' and ``Zulu'' aircraft are fielded with integrated glass 
cockpits, world-class sensors, and advanced helmet-mounted sight and 
display systems. The future growth plan includes a digitally-aided, 
close air support (CAS) system designed to tie these airframes, their 
sensors, and their weapons systems together with ground combat forces 
and capable DOD aircraft. Low-cost weapons such as the Advanced 
Precision Kill Weapon System II (APKWS II) will increase lethality 
while reducing collateral damage.
    The UH-1Y ``Yankee'' aircraft achieved Initial Operating Capability 
(IOC) in August 2008 and full rate production (FRP) in September 2008. 
The ``Yankee Forward'' procurement strategy prioritized UH-1Y 
production in order to replace the under-powered UH-1N fleet as quickly 
as possible. The AH-1Z completed its operational evaluation (OT-II3C) 
in June 2010 and received approval for FRP in November 2010. As of 
April 6, 2012, 81 aircraft (58 UH-1Ys and 23 AH-1Zs) have been 
delivered to the Fleet Marine Force; an additional 50 aircraft are on 
contract and in production. Lots 1-5 aircraft deliveries are complete 
and Lot 6 deliveries are progressing on schedule. To date, all aircraft 
deliveries since Lot 3 have been completed ahead of the contracted 
schedule date.
    The AH-1Z achieved IOC in February 2011 and in November 2011, the 
first all-Upgrades (UH-1Y/AH-1Z) MEU departed on November 15, 2011 with 
the USS Makin Island Amphibious Ready Group. The UH-1Y completed its 
first overseas deployment with the 13th MEU in July 2009 and has 
supported sustained combat operations in Operation Enduring Freedom 
(OEF) since November 2009. The fourth OEF UH-1Y deployment (nine 
aircraft) is ongoing, and aircraft continue to meet required readiness 
goals. This deployment marks 2 years in OEF with the UH-1Y flying 
nearly 11,500 hours in support of combat operations. The aircraft 
continue to fly three times the normal continental United States 
(CONUS)-based utilization rate in OEF, and increased sortie rates are 
expected in support of the 11th MEU. The combined UH-1Y/AH-1Z fleet has 
flown over 44,000 hours since first delivery in January 2007.
    In December 2011, to address existing attack helicopter shortfalls, 
the Marine Corps decided to pursue an all AH-1Z build new (ZBN) 
procurement strategy and leave AH-1W airframes in inventory rather than 
removing them to begin the remanufacture process. The transition to an 
all ZBN airframe strategy is planned to begin with Lot 10 (fiscal year 
2013) as reflected in the current USMC program of record. The previous 
mix of 131 remanufactured AH-1Z and 58 ZBN aircraft has been revised to 
delivery of 37 remanufactured AH-1Z and 152 ZBN aircraft. The total 
aircraft procurement numbers remain the same at 160 UH-1Ys and 189 AH-
1Zs for a total of 349 aircraft.
                  antisubmarine and support helicopter
MH-60R and MH-60S
    The fiscal year 2013 President's budget requests $843.1 million for 
19 MH-60R aircraft including Advanced Procurement (AP) for 19 fiscal 
year 2014 aircraft and $6.9 million RDT&E,N for continued replacement 
of the Light Airborne Multi-Purpose System MK III SH-60B and carrier-
based SH-60F helicopters with the MH-60R. The RDT&E,N funds will 
continue development of the Mode V interrogation capability for the 
identification friend-or-foe system. The Automatic Radar Periscope 
Detection and Discrimination program, a fleet-driven capability upgrade 
to the APS-147 Radar, is scheduled for IOC in fourth quarter, fiscal 
year 2013.
    The MH-60R is used in both ASW with its dipping sonar, sonobuoys 
and torpedoes and in the surface warfare (SUW) role with its 
Electronics Surveillance Measures system, multimode radar with inverse 
synthetic aperture radar, Forward Looking Infrared (FLIR) system and 
Hellfire missiles. It has demonstrated significant improvement in 
capability in the ASW and SUW capability roles over legacy systems. The 
MH-60R program achieved FRP in 2006 and the fifth MH-60R operational 
deployment is currently underway with HSM-77 aboard the carrier USS 
Abraham Lincoln (CVN-72). There are five operational carrier air wing 
squadrons and two fleet replacement squadrons operating the MH-60R. 
Three additional air wing and two Expeditionary operational squadrons 
will transition to the MH-60R by the end of fiscal year 2013.
    The fiscal year 2013 President's budget requests $456.9 million in 
APN for 18 MH-60S aircraft including AP for 18 fiscal year 2014 
aircraft and $29.7 million in RDT&E,N funds for the MH-60S to continue 
development of the Organic Airborne Mine Countermeasures (OAMCM) (Block 
II) and the Armed Helicopter (Block III) missions. The MH-60S is the 
Navy's primary combat support helicopter designed to support carrier 
and expeditionary strike groups. The MH-60S has replaced three legacy 
Navy helicopter platforms. The basic MH-60S reached IOC and FRP in 
2002. The Armed Helicopter configuration reached IOC in 2007 and OAMCM 
is scheduled to reach IOC with the LCS Mission Module in 2014. The 
fifth MH-60S operational deployment is currently underway with HSC-12 
aboard USS Abraham Lincoln (CVN-72). MH-60S helicopters currently 
operate with self-defense equipment, crew-served weapons and Hellfire 
missiles. MH-60S configuration enhancements include fixed forward 
firing weapons that will begin fielding in 2012. There are five 
operational carrier air wing squadrons, six Expeditionary squadrons, 
and two fleet replacement squadrons operating the MH-60S. One 
additional air wing squadron will transition to the MH-60S by the end 
of fiscal year 2013.
    The National Defense Authorization Act for Fiscal Year 2012 and 
Consolidated Appropriations Act included congressional authority to 
enter into the joint Army UH-60M/HH-60M and Navy MH-60R/S helicopter 
MYP contract (MYP8) and the Navy MH-60R/S Mission Systems and Common 
Cockpit contract (MYP2).
                       executive support aircraft
VH-3D/VH-60N Executive Helicopters Series
    The VH-3D and VH-60N are safely performing the executive lift 
mission worldwide. As these aircraft continue to provide seamless 
vertical lift for the President and Vice President of the United 
States, the Department is working closely with HMX-1 and industry to 
sustain these aircraft until a Presidential Replacement platform is 
fielded. The fiscal year 2013 President's budget requests an investment 
of $58 million to continue programs that will ensure the in-service 
Presidential fleet remains a safe and reliable platform. Ongoing 
efforts include the Cockpit Upgrade Program for the VH-60N, 
Communications Suite Upgrade, Structural Enhancement Program and the 
Obsolescence Management Program. The VH-3D Cockpit Upgrade Program, a 
fiscal year 2012 new start program, will provide a common cockpit with 
the VH-60N and address obsolescence issues. Continued investments in 
the in-service fleet will ensure continued safe and reliable execution 
of the executive lift mission.
VH-71/VXX Presidential Helicopter Replacement Aircraft
    The fiscal year 2013 President's budget includes $61.1 million for 
continuing efforts on VXX, the follow-on program for presidential 
helicopters. The fiscal year 2013 request reflects a funding adjustment 
that is a result of rephasing the VXX program.
    The requirement for a replacement Presidential helicopter was 
validated by the Joint Requirements Oversight Council; the details and 
specifications on how the requirement will be met safely and affordably 
have not yet been finalized. VXX activity in 2012 will focus on 
completing the update to the AoA, and to continue to develop an 
acquisition strategy that targets affordability, cost control and 
reduction of risk prior to the award any major contracts. The Navy will 
leverage the results from the risk and cost reduction activities 
associated with maturing technologies to not only improve the 
functionality and sustainment of the in-service Presidential helicopter 
fleet, but to also position the replacement program for optimal 
execution.
                        unmanned aerial systems
MQ-4C Broad Area Maritime Surveillance (BAMS) UAS
    The fiscal year 2013 President's budget requests $657.5 million 
RDT&E,N to continue SDD of the BAMS UAS, $51.1 million in APN for 
procurement of long-lead materials for the first lot of low-rate 
initial production aircraft, and $70.9 million in Military Construction 
to construct a main operating base at NAS Jacksonville, as well as a 
forward operating base and a maintenance training facility to support 
IOC. The Milestone B decision for the BAMS UAS program was achieved on 
April 18, 2008. The program is on schedule and will complete first 
flight this year, with Milestone C planned for fiscal year 2013. The 
BAMS UAS program will meet the Navy requirement for a persistent ISR 
capability. BAMS UAS is a large Group-5 system that will greatly 
enhance situational awareness of the battlespace and shorten the 
sensor-to-shooter kill chain.
    The Navy procured two Air Force (USAF) Global Hawk (Block 10) UASs 
in fiscal year 2004 for demonstration purposes and to perform risk 
reduction activities for the BAMS UAS Program. This effort is known as 
the BAMS-Demonstrator (BAMS-D) program. In April 2011, Navy accepted 
three additional Block 10 aircraft from the USAF to be utilized as 
spare parts assets. BAMS-D UAS has been deployed to the CENTCOM theater 
of operations for over 3 years.
MQ-8B Vertical Takeoff and landing Unmanned Aerial Vehicle (VTUAV) and 
        associated Rapid Deployment Capability (RDC) efforts
    The MQ-8 Fire Scout is an autonomous vertical takeoff and landing 
tactical UAV (VTUAV) designed to operate from all air-capable ships, 
carry modular mission payloads, and operate using the Tactical Control 
System and line-of-sight Tactical Common Data Link. Fire Scout has 
completed over 200 autonomous ship board take-offs and landings. The 
fiscal year 2013 President's budget requests $99.6 million RDT&E to 
continue development of an endurance upgrade (MQ-8C), integrate radar 
and integrate weapons on the MQ-8B, and $133.8 million APN for the 
production of six Fire Scout MQ-8C aircraft and ship control stations. 
The RDT&E budget includes funding to increase endurance and integrate 
specialty payloads to support the Special Operation Forces (SOF) 
mission using the RDC process (Approved AFRICOM JUONS) and satisfy a 
NAVCENT Urgent Operational Needs Statement 18-month Rapid Deployment 
Capability for the weaponization of the MQ-8B. The MQ-8B aircraft 
quantity supports Littoral Combat Ship (LCS) missions, near-term SOF 
missions until the MQ-8C endurance upgrade is fielded and ISR TF 
demands in Afghanistan. Procurement of ship-based control stations is 
aligned with both the LCS mission and outfitting frigates (FFGs) and 
other ships to support the SOF missions. The ship-based control station 
and other ship ancillary equipment is common between MQ-8B and MQ-8C. 
Production of the MQ-8C was included in the APN budget starting in 
fiscal year 2012. Commonality of avionics, software, and payloads 
between the MQ-8B and MQ-8C is being maximized. The primary difference 
between the MQ-8B and MQ-8C is in the commercial airframe provided for 
each variant. The MQ-8B uses the Schweitzer 333 helicopter while the 
MQ-8C uses the Bell 407 helicopter. The MQ-8C will almost triple the 
MQ-8B endurance and greatly increase the payload capacity. At least 28 
MQ-8C aircraft Endurance Upgrades are required to support the SOF 
mission and are included in the RDC. The MQ-8B system has performed a 
military utility assessment (MUA) aboard USS Halyburton to evolve fleet 
concepts for operation of the system and successfully completed a 2 
month SOF proof of concept evaluation in an operational environment. 
Fire Scout has been integrated into and is currently deployed aboard 
USS Simpson and deployments are in work for USS Klakring, USS Bradley, 
and USS Samuel B. Roberts to support SOF and Navy operations in 2012 
and 2013. Fire Scout was deployed to Afghanistan in April 2011 to 
support the ISR Task Force with 300 hours per month of ISR video from 
an expeditionary facility. As of February 2012, Fire Scout has provided 
over 2,100 ISR flight hours in Afghanistan. The Afghan 90 day user 
assessment gave Fire Scout its highest grades in all categories, and 
the user has requested additional Fire Scout aircraft and spares to 
grow the requirement to 600 hours per month. The Fire Scout program 
will also continue to support integration and testing in all LCS-based 
mission modules. Navy continues to cooperate with the Coast Guard for 
their ship-based UAS planning.
Unmanned Combat Air System Carrier Demonstration
    The fiscal year 2013 President's budget requests $142.3 million 
RDT&E to continue the Navy Unmanned Combat Air System Carrier 
Demonstration (UCAS-D) efforts to research a tactical jet-sized, 
carrier-suitable, low-observable-relevant, unmanned aircraft system. 
The UCAS-D program will demonstrate UCAS carrier operations and 
autonomous aerial refueling (AAR), and mature required technologies to 
technology readiness level (TRL)-6 in support of potential follow on 
unmanned acquisition programs. The aviation/ship integration portion of 
the program is meeting all technical objectives, with surrogate 
aircraft flights in vicinity of aircraft carriers (CV) completed in 
2009 and 2010. In July 2011, the first ever unmanned coupled approaches 
to CVN landing were completed and integration data was gathered during 
F/A-18 surrogate testing aboard USS Dwight D. Eisenhower (CVN-69). The 
UCAS-D contract was competitively awarded to Northrop Grumman in August 
2007. The program was re-baselined in 2010 due to delays in the 
original contract schedule which was focused on early completion of 
UCAS-D objectives. The re-baselined schedule is executable within 
existing resources; completion of the carrier demonstration is planned 
for fiscal year 2013. The first X-47B (AV-1) completed its first flight 
February 4, 2011 and has flown a total of 16 envelope expansion flights 
at Edwards AFB, CA. AV-2 completed its first flight November 22, 2011. 
AV-1 completed transport to NAS Patuxent River, MD, in December 2011 to 
begin check-outs and testing in support of carrier suitability and 
operations. Shipboard X-47B deck handling operations and flight 
operations in the vicinity of an aircraft carrier are scheduled to 
begin in the fourth quarter of 2012. Actual catapult launches, arrested 
landings and additional flight operations in the vicinity of a CV are 
scheduled to be completed in 2013. The latest AAR testing period was 
completed in January 2012 utilizing a manned surrogate aircraft, and 
AAR development and testing will continue throughout 2012 and 2013. The 
program is constrained by USN CVN schedules and planning. Currently the 
program is working closely with USN and CVN leadership to reduce risk 
and align program and CVN operational schedules to best accommodate 
demonstration objectives. UCAS-D is an essential first step toward 
full-scale development of a carrier-suitable unmanned ISR/strike 
platform. Successful UCAS-D sea trials will set the stage for potential 
follow-on acquisition programs.
Medium Range Maritime UAS
    The fiscal year 2013 President's budget indefinitely defers the 
Medium Range Maritime UAS (MRMUAS) prior to initiation of Milestone A. 
OSD (AT&L) approved the MRMUAS Material Solution Analysis and 
authorized the start of an AoA and a draft capability development 
document (CDD) in fiscal year 2011. The AoA and CDD drafting will be 
completed in fiscal year 2012. These documents will support the Navy's 
next generation of sea based Group 4 UAS and identify technology 
investments needed to improve the Navy's sea based UAS systems.
Tactical Control Station
    The fiscal year 2013 President's budget requests $9.1 million RDT&E 
for the Tactical Control Station (TCS). TCS provides a standards 
compliant, open architecture, with scalable capabilities for command, 
control, of the VTUAV system. TCS completed the software transition 
from the Solaris operating system to the Linux operating system in 
2011. The Linux operating system conversion will overcome hardware 
obsolescent issues with the VTUAV Solaris-based control stations and 
provide lower cost software updates using DOD common application 
software. In addition, the TCS Linux upgrade will enhance collaboration 
with the Navy's future UAS common control station. The TCS program is 
also supporting the VTUAV weaponization, radar, and MQ-8C endurance 
upgrade RDC efforts. The TCS program has continually met schedule and 
cost goals over the last 5 years while delivering quality software. In 
fiscal year 2013, TCS will continue the VTUAV RDC efforts, support 
transitioning the Linux operating system software to a technology 
refreshed control station, enhance the VTUAV Ocean Surveillance 
Initiative for ships Automatic Identification System and sensor track 
generation, and develop an interface to an ISR Process Exploit 
Dissemination (PED) system. The PED system will facilitate imagery 
analysis and utilization by the host ship.
Cargo Unmanned Aerial System
    The fiscal year 2013 President's budget is not requesting funding 
for continued Cargo Unmanned Aerial System (CUAS) deployment in fiscal 
year 2013. The previous effort supported the USMC operational 
requirements captured in a CUAS Joint Urgent Operational Needs (JUONS). 
The Marine Corps is assigned the lead service. Two vendors were awarded 
contracts in support of Cargo UAS development. The CUAS initiative is a 
MUA which will inform a follow-on program of record.
    Lockheed Martin/Kaman KMAX Cargo UAS completed the quick reaction 
assessment on time and was selected for the RDC. CUAS operations were 
started in November 2011 and are planned for 6 months with priced 
options for an additional 6 months. The CUAS is meeting the RDC goals 
and is also supporting the development of UAS concept of operations 
(CONOPS).
    The purpose of the Cargo UAS capability is to develop CONOPS to 
``get trucks off the roads'' in combat zones, minimizing the improvised 
explosive device threat to logistics convoys. The CUAS will provide a 
low risk, persistent, 24-hour capability for dispersed forces on the 
battlefield. This capability mitigates the requirement for manned 
ground vehicles to resupply forces in remote locations. The CUAS will 
also augment manned aviation assault support assets and airdrop methods 
when the weather, terrain, and enemy pose an unsuitable level of risk. 
Aerial delivery of cargo by the CUAS, between main logistical hubs and 
remote ``spokes,'' is being executed under the control of a ground 
control station at a main operating base and a remote terminal at the 
drop-off zone.
RQ-21A Small Tactical Unmanned Aircraft System (STUAS)
    The fiscal year 2013 President's budget requests $33.9 million in 
RDT&E,N ($9.73 million Navy, $24.2 million Marine Corps) and $9.6 
million in APN and $27.6 million in PMC for 15 (5 USN, 10 USMC) RQ-21A 
Integrator STUAS that will address Marine Corps and Navy ISR capability 
shortfalls currently supported by service contracts. This Group 3 UAS 
will provide persistent, ship and land-based ISR support for tactical-
level maneuver decisions and unit level force defense/force protection 
missions. Milestone B and contract award occurred in July 2010. 
Milestone C and LRIP decisions are scheduled for the first quarter of 
fiscal year 2013. STUAS will enter into IOT&E 3rd Qtr fiscal year 2013.
RQ-7B Marine Corps Tactical UAS (MCTUAS)
    The fiscal year 2013 President's budget requests $0.9 million RDT&E 
to continue development efforts and government engineering support and 
$49.3 million in APN to support the continuation of congressionally 
mandated TCDL retrofits for RQ-7B Shadow units. USMC Shadow squadrons 
have seen continuous service in Iraq and Afghanistan since 2007. The 
USMC received its 13th RQ-7B Shadow system in first quarter fiscal year 
2012, completing baseline fielding for four squadrons. The USMC Shadow 
systems are identical to Army Shadow systems, bringing interoperability 
and commonality between Army and Marine Corps unmanned aircraft units 
operating side-by-side in Afghanistan. An 18-month initiative to 
weaponize two USMC RQ-7B systems with a laser-guided projectile was 
started in the first quarter of fiscal year 2012.
Unmanned Carrier Launched Airborne Surveillance and Strike System
    The fiscal year 2013 President's budget requests $122.5 million 
RDT&E for the Unmanned Carrier Launched Airborne Surveillance and 
Strike (UCLASS) System efforts. The UCLASS system will enhance carrier 
capability and versatility for the Joint Forces commander through 
integration of a persistent and mission flexible unmanned aircraft into 
the carrier air wing. In April 2011, the UCLASS initial capabilities 
document was approved by the Joint Requirements Oversight Council. The 
UCLASS system will provide persistent intelligence surveillance and 
reconnaissance (ISR) with precision strike in a range of mission 
including irregular warfare and major combatant operations 
environments. It will be sustainable onboard an aircraft carrier, as 
well as ashore, and will be designed to minimize increases in the 
logistics footprint of the current carrier air wing. The UCLASS system 
will have the ability to pass command and control information along 
with sensor data to other aircraft, naval vessels, and ground forces. 
Sensor data will be transmitted, in either raw or processed forms, at 
appropriate classification levels, to exploitation nodes afloat and 
ashore. Interfaces will be provided with existing ship and land-based 
command and control systems, including ISR tasking, as well as 
processing, exploitation, and dissemination systems. The UCLASS system 
will achieve these capabilities through the use of a carrier-suitable, 
semi-autonomous, unmanned air segment, a control system and 
connectivity segment, and a carrier segment.
                            weapons programs
Tactical Tomahawk BLK IV Cruise Missile Program
    The fiscal year 2013 President's budget requests $308.97 million of 
Weapons Procurement, Navy (WPN) for procurement of an additional 196 
BLK IV weapons and associated support, $34.9 million of OPN for the 
Tactical Tomahawk Weapon Control System (TTWCS), and $8.8 million in 
RDT&E for capability updates of the weapon system. WPN resources will 
be for the continued procurement of this versatile, combat-proven, 
deep-strike weapon system in order to meet surface and subsurface ship-
fill load-outs and combat requirements. OPN resources will address the 
resolution of TTWCS obsolescence and interoperability mandates. RDT&E 
will be used to complete engineering, test, and transition of the Joint 
Multi-Effect Warhead System into the program production baseline. Since 
the submittal of the President's budget request for 2012, Congress 
approved the fiscal year 2011 Omnibus reprogramming request for $310 
million to replace the 221 missiles expended in Operation Odyssey Dawn. 
These additional missiles will be procured in fiscal year 2012. Due to 
constraints in the ceiling in the fiscal year 2012 contract, 56 
missiles funded with fiscal year 2012 procurement funds will be added 
to quantities funded with fiscal year 2013 procurement funds (196) and 
will be ordered under the fiscal year 2013 contract.
Tomahawk Theater Mission Planning Center
    Tomahawk Theater Mission Planning Center (TMPC) is the mission 
planning segment of the Tomahawk Weapon System. Under the umbrella of 
TMPC, Tomahawk Command and Control System (TC2S) develops and 
distributes strike missions for the Tomahawk Missile; provides 
precision strike planning, execution, coordination, missile control and 
reporting; and enables Maritime Component Commanders the capability to 
plan and/or modify conventional Tomahawk Land-Attack Missile missions. 
The fiscal year 2013 President's budget requests $2.5 million RDT&E and 
$42.9 million OPN for continued TMPC system upgrades and support. These 
resources will complete fielding of TC2S version 4.3, complete the 
upgrade and testing to TC2S versions 5.0, begin the redesign of legacy 
software code in the Tomahawk Planning System, a TC2S component, to 
increase system security, and initiate the upgrade to TC2S version 6.0. 
These planned upgrades will improve joint interoperability, mission 
planning time and system usability. These resources are critical 
towards supporting 125 planning sites, to include Cruise Missile 
Support Activities; Tomahawk strike and mission planning cells; carrier 
strike groups, command and control nodes and labs/training classrooms.
Sidewinder Air-Intercept Missile (AIM-9X)
    The fiscal year 2013 President's budget requests $21.1 million of 
RDT&E and $80.2 million of WPN for this joint DoN and USAF program. 
RDT&E will be applied toward AIM-9X/BLK II developmental/operational 
tests and requirements definition for Joint Staff-directed insensitive 
munitions requirements, as well as initial AIM-9X/Block III development 
activities. WPN will be for production of a combined 150 all-up-rounds 
and captive air training missiles and missile-related hardware. The 
AIM-9X Sidewinder missile is the newest in the Sidewinder family and is 
the only short-range infrared air-to-air missile integrated on USN/
USMC/USAF strike-fighter aircraft. This fifth-generation weapon 
incorporates high off-boresight acquisition capability and increased 
seeker sensitivity through an imaging infrared focal plane array seeker 
with advanced guidance processing for improved target acquisition; and 
advanced thrust vectoring capability to achieve superior 
maneuverability and increase the probability of intercept of adversary 
aircraft.
Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120)
    The fiscal year 2013 President's budget requests $2.9 million for 
continuing RDT&E efforts and $102.7 million for production of 67 
captive air training missiles and missile-related hardware. AMRAAM is a 
joint Navy and Air Force missile that counters existing aircraft and 
cruise-missile threats. It uses advanced electronic attack capabilities 
at both high and low altitudes, and can engage from beyond visual range 
as well as within visual range. AMRAAM provides an air-to-air first 
look, first shot, first kill capability, while working within a 
networked environment in support of the Navy's theater air and missile 
defense mission area.
Small Diameter Bomb II
    The fiscal year 2013 President's budget requests $31.1 million of 
RDT&E for the continued development of this joint DoN and USAF weapon 
and bomb-rack program. Small Diameter Bomb II (SDB II) provides an 
adverse weather, day or night standoff capability against mobile, 
moving, and fixed targets, and enables target prosecution while 
minimizing collateral damage. SDB II will be integrated into the 
internal carriage of both the Navy (F-35C) and Marine Corps (F-35B) 
variants of the Joint Strike Fighter and will be compatible with the 
BRU-61/A miniature-munitions carriage. The Joint Miniature Munitions 
Bomb Rack Unit (JMM BRU) BRU-61A/A is being developed to meet the 
operational and environmental integration requirements for internal bay 
carriage of the SDB II in the F-35B and F-35C. SDB II entered Milestone 
B in August 2010 and successfully completed its Critical Design Review 
in January 2011. JMM BRU will enter technology development in May 2013.
Joint Standoff Weapon
    The fiscal year 2013 President's budget requests $5.5 million of 
RDT&E for continued Joint Standoff Weapon (JSOW)-C-1 test activity and 
$127.6 million of WPN for production of 280 all-up rounds. The JSOW-C-1 
variant fills a critical capability gap by adding maritime moving-
target capability to the highly successful baseline JSOW-C program. 
JSOW-C-1 targeting is achieved via a data-link and guidance software 
improvements.
Advanced Anti-Radiation Guided Missile
    The fiscal year 2013 President's budget requests $7.0 million of 
RDT&E for the follow-on development and test program and $86.7 million 
of WPN for production of 100 all-up rounds and captive air training 
missiles. The Advanced Anti-Radiation Guided Missile (AARGM) 
development program transforms the legacy High-Speed Anti-Radiation 
Missile (HARM) into an affordable, lethal, and flexible time-sensitive 
strike weapon system for conducting destruction of enemy air defense 
missions. AARGM adds multi-spectral targeting capability and targeting 
geospecificity to its supersonic fly-out to destroy sophisticated enemy 
air defenses and expand upon the HARM anti-radiation missile target 
set. The program was approved for its third LRIP contract in October 
2012. IOT&E restarted on August 10, 2011 and fired the last live test 
shots in March 2012. IOC on the F/A-18C/D aircraft is planned for the 
third quarter of fiscal year 2012. A full rate production decision is 
planned for the second half of fiscal year 2012.
Hellfire Weapon System
    The fiscal year 2013 President's budget requests $91.5 million, 
including $17.0 million of OCO funding, for 1,210 Hellfire all-up-round 
weapons. Hellfire procurements are a mix of thermobaric, blast/
fragmentation, and anti-armor warheads, to provide maximum operational 
flexibility to our warfighters. This procurement quantity will bring 
the inventory total to approximately 60-percent of the munitions 
requirement and will increase our training assets. The DoN continues to 
support legacy Hellfire weapons as well as procure and support 
technology enhancements that will provide the warfighter the 
flexibility to prosecute new and emerging threats. The Hellfire missile 
continues to be a priority weapon for current military operations as it 
enables our warfighters to attack targets in the caves of Afghanistan, 
as well as to prosecute military operations in urban environments.
Advanced Precision Kill Weapon System II
    The fiscal year 2013 President's budget requests $42.1 million of 
PAN&MC, including $17.9 million of OCO funding, for procurement of 
2,358 Advanced Precision Kill Weapon System II (APKWS II) Precision 
Guidance Kits. After the DoN assumed program authority from the Army on 
September 30, 2008, Congress appropriated funding and approved a DoN 
above-threshold reprogramming (ATR) request in fiscal year 2008 to 
complete APKWS II development. Milestone C was achieved in April 2010 
and LRIP contract award in July 2010. IOT&E was successfully completed 
in January 2012. IOC was achieved in March 2012. The program is on 
track for a full rate production decision the third quarter of fiscal 
year 2012. APKWS II will provide an unprecedented precision guidance 
capability upgrading our current unguided rockets, improving accuracy 
and minimizing collateral damage. The program is on schedule to meet 
the needs of our warfighters in today's theaters of operations.
Direct Attack Moving Target Capability
    The fiscal year 2013 President's budget requests $15.4 million for 
the second FRP order of 1,069 weapons. Direct Attack Moving Target 
Capability (DAMTC) was initiated as a fiscal year 2007 RDC in response 
to an urgent requirement identified by the combatant commander 
overseeing operations in Iraq and Afghanistan. The RDC has now 
transitioned to a formal program of record, designated Joint 
Integration, entering the Department's formal acquisition system at 
Milestone C. DAMTC provides a flexible, dual-mode weapon capable of 
precision guidance and attack on stationary targets through the 
weather, as well as reactive targeting and attack of moving and 
maneuvering targets in clear weather. The material solution for the 
DAMTC program is the Laser Joint Direct Attack Munition. The Laser JDAM 
leverages proven baseline JDAM technology and the existing JDAM 
logistics infrastructure mitigating life-cycle support costs.
Joint Air-to-Ground Missile
    The fiscal year 2013 President's budget provides no funding for the 
Joint Air-to-Ground (JAGM) Program. The JAGM system is currently a 
Joint Department of the Army/Department of the Navy pre-Major Defense 
Acquisition Program with the Army designated as the lead service. The 
Government utilized full and open competition to initiate the 
technology development (TD) phase of the JAGM program. In the TD Phase, 
the two contractors completed a preliminary design review, wind tunnel 
and ground testing, and flight testing in support of initial Navy 
platform integration activities. The originally planned 27-month TD 
phase is complete and OSD AT&L recently provided approval to extend the 
JAGM TD Phase. The Services recognize that Hellfire capability and 
inventory issues need to be addressed and that the requirement for JAGM 
remains valid. The extended TD Phase is addressing affordability 
concerns with the JAGM missile, and discussions continue between the 
DoN, the Army and OSD on the path forward.

    Senator Lieberman. Thanks very much, Admiral.
    We will have 7-minute rounds for each of the Senator's 
questions, and I would ask that we would be notified when we 
hit that 7 minutes.
    General Wolfenbarger, let me just ask a few follow-up 
questions on the F-22 problems in part for the record but, 
obviously, because I am interested. Describe what some of the 
problems have been from the pilots' point of view with the life 
support systems and hypoxia.
    General Wolfenbarger. Sir, we have had about 14 incidents 
of hypoxia-like symptoms prior to standing down the fleet, and 
that lasted about 4 months. We then began to fly again, and we 
have had 11 incidents since. Each individual is different in 
terms of their own unique symptoms, but there is generally 
disorientation, perhaps some dizziness, a feeling of nausea in 
some cases.
    Senator Lieberman. Obviously, there are symptoms 
experienced in air in the plane.
    General Wolfenbarger. Yes, sir.
    Senator Lieberman. Have the pilots been left with symptoms 
after they leave the aircraft?
    General Wolfenbarger. At times, yes, sir, and when they 
land, they are highly encouraged on the first onset of a sense 
that something does not feel right, that if there is any doubt 
in their mind at all, they have been counseled to return to 
base and to immediately report the incident, at which point 
they are screened, various samples are taken and sent to the 
medical experts so that we can collect the data associated with 
these incidents when they do occur.
    Senator Lieberman. Have any of the pilots been left with 
lasting disabilities as a result of these problems?
    General Wolfenbarger. No, sir, not to my knowledge.
    Senator Lieberman. Proceed then with the additional 
information you were going to offer.
    General Wolfenbarger. Sir, over the last few years in 
operation of the F-22, as we started to realize we were having 
these incidents, we have had a number of safety investigations 
that we have undertaken. Most recently, we had asked our 
scientific advisory board to do a very in-depth study. Through 
all of that work, we have yet to determine what the root cause 
is of that hypoxia-like reaction.
    We have, however, in each one of those investigations 
collected a body of recommendations and risk mitigation types 
of activities that we could undertake. As we went through the 
process of standing down the fleet and did as much data 
collection as we could do on the ground to facilitate that 
analysis, and as we began to contemplate the need to return to 
fly, this is our only fifth generation aircraft in our 
inventory.
    Senator Lieberman. Yes. That is what is so critical.
    General Wolfenbarger. Our combatant commanders are 
requesting it be deployed, if for nothing else, the deterrence 
value of that asset. As we stood down, we realized that our 
pilots were beginning to be impacted in terms of their 
proficiency not being in the cockpit and being in the air.
    We went through five rigorous steps in determining we were 
ready to return to fly.
    We started off by doing a full fleet inspection. We did a 
comprehensive first one-time inspection and then we have 
continued to inspect since to determine if there were any 
indicators that there are issues with the life support system.
    We trained the crews, so we educated them on everything 
that we knew up to that point. We also shared with them the 
concept of operations that we ask them to operate to, which is, 
again if you have any doubt, any sense that there is something 
not right with you or with your airplane, there is no penalty 
for returning to base and informing the leadership that there 
has been an incident.
    We then took several steps to protect the crews. I 
mentioned that there are 17 things that we have either fielded 
or have underway or have ahead of us. As I mentioned, the 
existing system in the airplane is an emergency oxygen system. 
We had some feedback from the pilots that reaching for the 
handle was difficult to do with some of the cold weather gear, 
particularly up in the Alaska arena. So we took steps. In fact, 
that mitigation has already been fielded, as well as asking 
each one of our pilots to wear pulse oximeters on their finger 
as they fly so that they can monitor their own oxygen levels 
and when it reaches a point at which they would be concerned, 
then that is an indication that they need to return to base. 
There are several others. There are 17 in total.
    Then we began to collect the data as we returned to flying, 
and we have been analyzing the data ever since.
    We are determined to get to the root cause. We have all of 
the best minds on this that we can find, and that is across 
DOD. Certainly we have had Navy participation in this effort. 
We have had National Aeronautics and Space Administration 
participation. We have had academia and industry experts as 
well trying to core to what the root cause is. We started with 
hundreds of potential root causes as we went through the 
failure tree analysis. We have cored to two primary limbs in 
that tree. Either it is an issue with a contaminant getting 
into the system or it is an issue with not having enough oxygen 
coming to our pilots. There are a number of different things 
that we are reviewing for each of those different categories of 
root causes.
    We have some recent data that we are starting to believe 
that we are coming to closure on that root cause. We are 
realizing that we operate this aircraft differently than we 
operate any of our other fighter aircraft. We fly at a higher 
altitude. We execute maneuvers that are high G at high 
altitude, and we are on that oxygen system at those high 
altitudes for periods of time.
    Senator Lieberman. So that may be part of the problem.
    General Wolfenbarger. That is what we are coring to, sir. I 
am not ready to say yet that we are ready to declare a root 
cause. But we do feel that we, through all of those mitigation 
activities and through the training of the air crews, believe 
that we are safe to fly with the stipulation that when an air 
crew member feels as though there is an issue, they know 
exactly what to do.
    Senator Lieberman. I just want to clarify. You said that 
since the fleet went up in the air again, we have had 11 more 
cases. I presume that is a very small percentage of the 
missions flown.
    General Wolfenbarger. That's .1 percent, yes, sir.
    Senator Lieberman. Did you say less than 1 percent?
    General Wolfenbarger. Yes, sir, .1 percent.
    Senator Lieberman. Point 1 percent.
    General Wolfenbarger. Yes, sir.
    Senator Lieberman. But still, I presume that our goal is 
zero.
    General Wolfenbarger. Yes, sir, absolutely.
    Senator Lieberman. I appreciate the effort that you put 
into this.
    Are the manufacturers of the life support systems involved 
in all this work?
    General Wolfenbarger. Yes, sir, absolutely.
    Senator Lieberman. I presume it is critical to fly at the 
altitudes that the plane is being flown at. So if that is the 
problem, what might the solution be?
    General Wolfenbarger. I think we have to finish that root 
cause analysis, sir, and get to what those mitigations would be 
to completely eliminate the problem.
    I would tell you that we have found in the work that we 
have done that these hypoxia-like incidents with an on-board 
oxygen generation type of a system are not unique to the F-22. 
There are other fleets that we have experienced hypoxia-like 
incidents in as well. We are incorporating feedback from all of 
those other communities and we are getting to what the root 
cause might be and certainly sharing what we discover.
    Senator Lieberman. Yes. I presume that there are no common 
physical characteristics in the pilots that have experienced 
this. I know they are all in good shape, but have you checked 
for that as well?
    General Wolfenbarger. Yes, sir. That is part of that data 
collection that is ongoing, although I will tell you that our 
Air Combat Command is running this task force that is doing all 
of that data collection and analysis. So I would need to, if 
you are interested, come over and sponsor a full-blown briefing 
on that.
    Senator Lieberman. Yes, I would be interested in having 
that happen.
    My time is up, but for now, I want to thank you. Obviously, 
it is an unfortunate situation. That is the last thing that you 
want and the Air Force wants. I appreciate the very thorough 
response. Obviously, I hope and I am confident that you will 
stay on it until you figure out what is wrong so we make sure 
that no other pilots experience this. Thanks very much.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Good questions.
    Ma'am, first of all, congratulations as well. I know we met 
privately and I know you are going to be overseeing the bases 
that are in Massachusetts. So I look forward to having a long 
and productive relationship with you.
    I want to commend you for taking the necessary steps to 
find the cause of this very serious problem. I guess I am left 
with the question: Is the F-22 safe to fly?
    General Wolfenbarger. Yes, sir, we feel it is. Through 
having taken all of those risk mitigation activities and 
through that, education and training of the air crews, the Air 
Force's position is that it is safe to fly. That does not mean 
that we are done with all of the activity to get to that root 
cause and to fix it.
    Senator Brown. I know the F-22 pilots who raise safety 
concerns and decline to fly on that basis. Will you ensure that 
retaliation against them is not going to be part of what is 
happening in the future?
    General Wolfenbarger. Absolutely, sir. There is clearly the 
whistleblower protection, the statute that protects those 
folks.
    Senator Brown. Do you consider them whistleblowers?
    General Wolfenbarger. Yes, sir, we do. They are fully 
protected, and our Chief and our Secretary have made that 
understood in our Air Force.
    Senator Brown. Do you know if the Air Force or the Virginia 
Air National Guard are considering taking any administrative or 
disciplinary actions against the pilots that came forward in 
the 60 Minutes piece? Are they also protected?
    General Wolfenbarger. It is, sir, a little out of my lane, 
but I would tell you that my understanding is that the Chief 
and the Secretary and the Air Force have issued direction that 
these individuals are protected and that no negative action be 
taken.
    Senator Brown. How about you, Admiral? Do you think the 
program is still stable in your view, the F-35?
    Admiral Venlet. Yes, sir, Senator. I believe that in 
response to your opening remarks, the description of what has 
gone on in the last 2 years in the briefings we have presented 
and the questions that have been asked, there have been a lot 
of changes and adjustments to the program, but I would cast the 
last 2 years as a very detailed 2-year adjustment to the 
program.
    There was one change to the test program that began in the 
spring of 2010 when the breach to the Nunn-McCurdy thresholds 
was declared, and it was concluded when the Under Secretary of 
Defense approved our new baseline which took us 2 years to get. 
I believe it was a necessary amount of time. We added money. We 
added time to the schedule. So there has been one adjustment to 
the test program, and I believe we have a schedule and a budget 
that says we should deliver the full capability.
    Senator Brown. As required in last year's defense bill 
language, will the 12 and 13 jets be procured under a fixed-
price contract?
    Admiral Venlet. Yes, sir, absolutely they will.
    Senator Brown. So the contractor would be responsible for 
all costs that go above the target costs specified in the 
contract?
    Admiral Venlet. Yes, sir, beginning with our lot 6 in 2012, 
absolutely.
    Senator Brown. We still have no idea when the operational 
jets will be delivered to any of the Services. Is that a fair 
statement?
    Admiral Venlet. Sir, at Eglin Air Force Base, which is the 
initial training base, there are six Air Force conventional 
takeoff and landing (CTOL) variant and they commenced flight 
ops there in April.
    Senator Brown. They commenced? They are flying?
    Admiral Venlet. Yes, sir, they are.
    Senator Brown. So how is that going?
    Admiral Venlet. They have over 30 flights. It is a growing 
time of maturity for the airplane, and we are collecting good 
information. They are very pleased.
    Senator Brown. What type of information do you think you 
will need to establish the initial operation capability (IOC) 
dates for the Navy's carrier variant and the Marine Corps' 
STOVL?
    Admiral Venlet. Yes, sir. After we completed the baseline 
for the test program, what is going on now is the detailed 
planning for the operational test. The Air Force has described 
the completion of the initial operational test is desired for 
them to declare IOC. I will present a test and evaluation 
master plan to the Under Secretary this fall with that detailed 
planning in it.
    All three Services understand when Block 3 capability will 
be delivered. We have three blocks: initial training; initial 
warfighting; and Block 3 is the full capability. That will 
finish development testing in 2016 and be released to the fleet 
in 2017. So the Services see our confidence in that schedule. 
They are very pleased with the performance of the program last 
year in 2011, but they would say, ``Dave, we would like you to 
be more than a 1-year wonder.'' Let us string a couple years of 
good performance together, get that operational testing plan 
done, and then we will declare IOC after that.
    Senator Brown. Admiral Skinner, can you provide an update 
on the arresting hook challenge that has delayed the delivery 
of the Navy variant and how much rework will it require and how 
much will it cost? Is the contractor or the taxpayer left 
footing the bill on that?
    Admiral Skinner. Senator, it is true that when we did the 
initial field carrier arrestment testing, that we did not 
engage the hook with the cross deck pendant. It has happened to 
other aircraft besides the F-35.
    The engineering team in the JPO supported by NAVAIR experts 
in the area have gone through the initial fault trees for that 
occurrence. They are still in the analysis phase for that. They 
are supposed to bring those findings forward at a preliminary 
design review at the end of next month, at which time we will 
be able to ascertain the follow-on, the scope of the fix, and 
how much the fix will cost, and if there will be a schedule 
penalty associated with implementation of that fix.
    Senator Brown. That will include who is responsible and how 
much it will cost and who is paying for it?
    Admiral Skinner. Yes, sir.
    Senator Brown. Okay.
    Ma'am, once again back to you. On the adaptive engine 
technology development, why is this important for the Air Force 
to continue with the program? I understand it has the potential 
to reduce our energy dependence. I am wondering if that is an 
accurate statement. Do you believe it is important to maintain 
our industry's competitive edge in the aircraft industry?
    General Wolfenbarger. Yes, sir, absolutely. That is why we 
wanted to press on with that program. It is a follow-on program 
to the Adaptive Versatile Engine Technology (ADVENT) program 
which is looking at the next generation of turbine engine 
technology. It is intended to be a competitive acquisition. We 
are opening up the opportunity to all of our industry partners 
to participate in that source selection. The intention is to 
certainly protect the industrial base in this vital area for 
this Nation, but to also reduce specific fuel consumption, as 
you noted. A 25 percent reduction is what the goal is with this 
new technology.
    It is purely technology maturation. It is not the start of 
an engineering, manufacturing, and development program. The 
intent is to mature the technology so that we are ready should 
there be an engine program in the future that requires that 
technology.
    Senator Brown. Thank you.
    Admiral Skinner, I just have one final question. I know the 
Navy has been forced to extend the lives of the F-18s. It still 
faces, however, a tactical aircraft shortfall with respect to 
the need. Has the SLEP kept the tactical aircraft shortfall 
within manageable numbers for you?
    Admiral Skinner. Senator, we manage our tactical aircraft 
shortfall, or strike fighter shortfall, within the Navy via an 
inventory forecasting tool. One component of it, which is a 
SLEP, which is an additional demand, a supply side. So we are 
looking at a couple of things in order to ensure the strike 
fighter shortfall stays below manageable levels. One is the 
procurement of additional 50 Super Hornets that we had last 
year in last year's budget. The addition of 150 SLEP'ed 
aircraft will also contribute to that, and then there is a 
myriad of other things that will contribute to keeping the 
strike fighter shortfall manageable.
    Senator Brown. So you are adjusting and adapting and you 
feel you are okay?
    Admiral Skinner. Yes, sir.
    Senator Brown. That is really all I wanted to know. Thank 
you.
    Senator Lieberman. Thank you, Senator Brown.
    Senator Blumenthal, thanks for being here and I call on you 
now.
    Senator Blumenthal. Thank you very much, Mr. Chairman.
    Thanks to each of you for being here today and for your 
service to the country. Congratulations, General Wolfenbarger.
    I am very encouraged, Admiral Venlet, by your testimony 
that the JSF is on track and that the design is sound and will 
deliver, which is very good news to the Nation. Maybe I should 
not say news, but it certainly is a very solid endorsement of 
the program which I believe is vitally important to the future 
of our country. You very persuasively attest to the 
technological marvel that it will be once it is achieved. Like 
any such highly technologically advanced system, there are 
bound to be issues along the way, hiccups, and bumps in the 
road, and I gather your feeling is that we are overcoming those 
kinds of software issues and other kinds of problems that are 
bound to arise in any such highly complex and advancing system.
    Admiral Venlet. Yes, sir. Every issue that we have in view 
today is very much in the category of normal development for a 
fighter tactical aircraft. Good old-fashioned engineering is 
going to take care of every one of those, and we will work on 
each of them hard enough and long enough until they are deemed 
good enough by the fleet, sir.
    Senator Blumenthal. One point that I think is often lost on 
the public and maybe on some in this body is that the JSF is 
replacing a litany of legacy aircraft across the Services. The 
cost of maintaining those aircraft and training separately for 
each of them in, I think, the view of many of us would exceed 
the eventual cost of the JSF. I wonder whether there is any way 
to depict those costs for the American people so that they 
understand that the JSF in a sense is not really or cannot be 
viewed on its own. It has to be viewed comparatively to what 
the costs would be of maintaining other aircraft.
    Admiral Venlet. Yes, sir. We are looking very hard at the 
sustainment costs and the cost to own this aircraft because it 
is a large fleet that we aspire to own, as well as for our 
partner countries around the world, which are very important to 
contributing to the body of F-35s in the world that will be 
supported. There is great opportunity to leverage that. We are 
looking at the categories of cost that industry can affect, the 
category of costs that the Services affect by the requirements 
that we have, and then the category of costs that are affected 
by the strategies of the acquisition program by DOD. Each one 
of these is getting great scrutiny.
    The F-35 is coming with tremendous capabilities. It is 
coming with a tremendous software system that will help its 
maintenance, its operation. It is integral to the air system. 
It cannot operate effectively without it. It is something that 
maintainers and squadron operators have aspired to for a long 
time. It is very complex, and it has some difficulties early in 
development. But again, those deviations are relatively small 
in the big picture of the program, and by attacking them now, 
we will be able to keep them on track.
    Senator Blumenthal. Is there an estimate on what it would 
cost to maintain and continue the existing aircraft or the 
combination of aircraft without the F-35?
    Admiral Venlet. Sir, I cannot speak with authority on the 
existing fleet, but what I can say is when those cost 
comparisons are made, the challenge predominantly arises that 
you are comparing a decade mature fleet in any Service that has 
lived with the realities of the constrained resources of each 
budget that it gets. In the F-35, since we have not got a body 
of experience in the fleet, we are estimating the full 
requirement for the future without the constraints of short 
budgets that will eventually be assigned to it. So it makes 
those comparisons difficult. It will cost more to operate and 
sustain than our existing fleet, no doubt. But it comes in the 
balance of the value that it brings for the country.
    Senator Blumenthal. You make the point in your testimony 
that you think that the remaining problems can be solved if the 
program is properly resourced. Are you satisfied that the 
President's budget provides those resources in a sufficient 
amount?
    Admiral Venlet. Yes, sir, absolutely I am.
    Senator Blumenthal. On the concurrency risk, is there 
anything that could have been done to lessen those costs and 
risks of concurrency looking back, and also looking forward, 
can you explain perhaps in somewhat greater detail why you 
think those risks will lessen as we go forward?
    Admiral Venlet. Yes, sir. Let me start with the last part.
    What generates changes to the aircraft are the discoveries 
that we have, again, normal discoveries in flight test, and it 
is the overlap of aircraft that have already been built after 
those discoveries are manifested, that those jets then have to 
be changed and modified after we deliver them. The extension of 
the test program was not paced by a change in the beginning of 
the production program. So that overlap of test and production 
is greater than what was originally intended.
    The characteristic that will lessen the discovery of 
changes will come about in early 2015. We test the durability 
or the fatigue life of the structures, all three of them, and 
we test out to two and three lifetimes so that you have margins 
to operate safely for the one lifetime that is required. You 
discover most of those changes in the first two lifetimes of 
ground testing. That will complete for all three variants in 
early 2015.
    The flight test contribution is principally the loads that 
are experienced in flight. So all three variants will get to 
about 80 percent of their loads envelope tested in early 2015. 
Our experience shows in fighter aircraft development that you 
learn most of your discovery about the structure and the life 
of the jet from 80 percent loads in flight, two lifetimes of 
fatigue, and after that, we expect that is also an important 
use for partners where most of their procurement is beyond that 
window, and it is predominantly a burden that we will bear. I 
am funded in these near-years for the critical ones that have 
to be put in.
    Senator Blumenthal. I gather the engines are doing well.
    Admiral Venlet. The engines are doing very well, sir. We 
are very pleased. The performance of the STOVL was a marvel to 
watch aboard the USS Wasp. I was privileged to go with the 
Secretary of the Navy and the Commandant one weekend while that 
testing was going on and to see two STOVLs wildly exceed the 
expectations of that flight test in that period. I have done 
initial sea trials in aircraft, and you generally get portions 
of the expected test done. That completed everything expected. 
It was wonderful, and the propulsion system was a pleasant site 
to behold.
    Senator Blumenthal. You have just answered my last 
question. I thank you very much.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Blumenthal.
    Admiral, to put this in context for those who are in the 
room or watching, the F-35 JSF is a really important program to 
our military. It is a big program. It is expensive, but it is 
critical. So the delays and cost increases that have occurred 
are troubling, but I appreciate the seriousness with which you 
have responded. The Nunn-McCurdy breach, to state it in 
simplistic terms, was a critical breach. That meant that the 
program was heading to a point where it was 50 percent more 
costly than the original baseline.
    So you have now done a technical baseline review of the 
program and you are implementing changes which you described 
today.
    Let me ask you a tough question but it is one that is on 
our minds. Are you confident that with the changes you have 
implemented, it is unlikely that there will be additional 
delays in development or production of the JSF?
    Admiral Venlet. Sir, thank you. That is a very appropriate 
question and one that I think about nearly constantly with the 
team and the program.
    I speak frequently about software and the complexity of the 
software. That will be the leading risk in successfully 
delivering a Block 3 capability.
    My basis for the confidence in my opening statement lies 
here. When we did the technical baseline review, sir, in 2010 
after the Nunn-McCurdy breach, we recognized that the program 
had advanced to a point where those first two iterations of its 
capability, Block 1 and Block 2, initial training and initial 
warfighting, were already far enough along the line. 
Unfortunately, they did not get off on a sound requirements 
baseline and a stable foundation. So, we predominantly added 
margin for those to complete successfully. There were resources 
in money and there were resources in time for those.
    The Block 3 capability, sir, which is really what the fleet 
needs to have, is going to begin on a very rigorous and sound 
design review basis so that it will have the best possibility 
to succeed. We have time and money to do that. I have lived in 
the acquisition domain long enough to know how disappointing it 
is to my fleet shipmates and Air Force and Marine Corps to come 
up short or late with a capability. I think it was very 
determinedly done to set this program on a foundation with 
money that it needs and the time it needs to succeed, sir, like 
you are asking me if it will.
    We have a plan that is resourced with time and money. It 
has been scrutinized independently by the systems commands' 
experts in scheduling and schedule risk assessments and master 
schedule building. They have looked me in the eye and confirmed 
for me they believe we have what it takes in time and money to 
absorb the further learning. We have the remainder of 2012, 
2013, 2014, 2015, and 2016 for flight tests. There will 
undoubtedly be learning and discovery. If it all stays within 
the family of normal fighter development, we have the ability 
to absorb that learning, make changes, and stay on schedule and 
cost.
    Senator Lieberman. Okay. So, bottom line, you are 
confident, encouraged at this moment, based on the changes that 
you are implementing after the technical baseline review, that 
there will not be additional delays in the development or 
production of the JSF.
    Admiral Venlet. Yes, sir.
    Senator Lieberman. I appreciate that.
    Let me ask another one of those bottom line questions, 
which is whether the cost of concurrency for each successive 
lot of aircraft is coming down or rising or remaining 
essentially the same?
    Admiral Venlet. Sir, the cost of the concurrency impact on 
each year's production steadily declines. It is higher in these 
earlier years. We can speak about it in the cost per jet. That 
is one view of it. But the other view is each year you are 
buying more aircraft, and so that total bill gets bigger. The 
cost per aircraft goes down each year. But, the first year we 
bought two. Then we bought 12, 17, and 30. So we are buying 
more. So the magnitude of the total bill goes up.
    We are working very hard to analyze every one of those 
changes, categorize them into must-do because they affect short 
service life or those that could be deferred and done with 
modification budgets later in the life or possibly handled by 
inspection. So we are applying that rigor to it to maintain and 
manage those costs.
    Senator Lieberman. One of the steps that you have taken 
that was strong and I appreciate was that you told the 
contractor that you are withholding award of six of the fiscal 
year 2012 aircraft with the intent to award these six with the 
2013 contract, and that will be based on performance from the 
contracting team. That is a tough move but one that is 
justified by both the facts of what has happened and the demand 
for the program.
    Can you describe for the subcommittee the measurable 
criteria against which the contractor will be judged when you 
decide whether to award these six 2012 aircraft with the 2013 
contract?
    Admiral Venlet. Yes, Senator. Let me begin saying I feel my 
duty to the Secretary is to manage the program so that we 
succeed and we do buy those jets. So we are withholding them, 
but I am definitely looking for success in this. My viewpoint 
from here, a third of the way into the year, is that of the 
categories that I have described to the committee, several of 
them are on track and doing fine. The others are not off track, 
but they have more to be revealed before we can say. Those 
issues are, number one, the software, and principally the 
design review activity of Block 3 software must occur 
successfully this year. I have promising signs in view right 
now of that intent and behavior by industry.
    The management of the concurrency change is very important. 
The time from initial discovery to when the engineering is 
available to cut it into production, it reduces the 
modification after delivery. So we want that span time to go 
down. We will be tracking that specifically. It is a time from 
discovery to cut-in of a change.
    The qualification of the components, the actuators and the 
other boxes in the airplane when they go through their 
reliability qualifications, through the environmental testing, 
that is on a path that very much determines the reliability of 
the aircraft and its cost of ownership. That is tracking very 
well at this point.
    Flight test overall is another one which is on track. These 
are discussed frequently with industry, and we will provide an 
enhanced description of those as the year progresses, sir.
    Senator Lieberman. We would appreciate hearing about that.
    Just a final quick question. Are you considering some award 
option other than all or nothing of the six aircraft that we 
have discussed?
    Admiral Venlet. Sir, yes. Something between zero and six is 
certainly within the consideration.
    Senator Lieberman. Okay. Thank you very much.
    Senator Brown.
    Senator Brown. Thank you.
    Admiral Skinner, just to follow up where I left off, if the 
F-35 is delayed again, say, by 2 years due to developmental 
issues, how would this affect your ability to continue 
extending the service lives of the F-18s?
    Admiral Skinner. Senator, if the F-35 is delayed 2 years, 
we will have the ability to extend the service life of 150 of 
our aircraft. That is the current program of record for the 
SLEP. The population of jets that are available for SLEP 
exceeds those 150. So in the future, we would have the 
opportunity, if the need arose, to SLEP additional jets if we 
had to.
    Senator Brown. Thank you.
    Admiral Venlet, with regard to the software, let me just 
make sure I do not misstate. In the most recent version of the 
selected acquisition report (SAR) for the JSF, it says that the 
software risk is the top developmental issue for the program, 
and you are aware of the challenges. What concerns do you have 
about the pace of the progress and development of software for 
the program?
    Admiral Venlet. Yes, sir. The deviations in the software 
are relatively small in the big picture of the program, and 
that is why we are fortunately going to work very hard to keep 
those from growing. Specifically in the Block 2A release to 
flight test, just to help you understand the time I am talking 
about, there is about a 3-month pressure of delivery in a 
particular release of Block 2 in the flight test. That is going 
to have an impact on training but not a large impact and is, in 
the big picture of the program, not going to pressurize Block 
3.
    In the full air system, the ground system software, we call 
it the Autonomic Logistic Information System (ALIS). The 
particular version with Block 1 has about a year impact to it. 
That was in view when we did the technical baseline review. 
That is not a new revelation, but we will have about 80 percent 
of the capability of the eventual Block 3. So by absorbing that 
year on ALIS, the ground system, we will have a sound 
foundation to get the last 20 percent out by Block 3.
    Senator Brown. Then just to shift gears just a little bit, 
could you describe how the developmental dial strategy will 
work and describe the specific decision criteria that were used 
to award the manufacture of more F-35 jets if they reduce 
concurrency and build jets on cost and on schedule with good 
quality without requiring in- or post-assembly line changes?
    Admiral Venlet. Yes, sir. Those are the criteria of 
software performance this year in the Block 3 design reviews: 
the improvement of concurrency change management; the progress 
in the flight test program in total; the line replaceable 
units; and the qualification test of the components. There is 
one more that just flew out of my head that I can find here in 
a letter, sir. But essentially it was the same description I 
gave to Senator Lieberman a moment ago.
    Senator Brown. I just wanted to make sure I did not miss 
anything. Thank you.
    Admiral Venlet. Yes, sir.
    Senator Brown. Ma'am, just one final question. Under the 
current structure retrofit program, over the next few years the 
Air Force will need more than $100 million to retrofit the F-22 
fleet just to ensure that they can meet the required 8,000 
hours of service life. Over the last 2 years, the Air Force 
sole-sourced to the F-22 prime contractor, Lockheed Martin, two 
contracts totaling almost $1.4 billion for sustainment of the 
F-22 fleet for just those 2 years. The Air Force recently 
completed a sustainment strategy for the F-22 and concluded 
that a joint contractor-government approach could save over $1 
billion in sustainment costs of the aircraft.
    How far along is the Air Force in adopting this study's 
recommendations and transitioning to joint sustainment with the 
contractor, and to what extent is the Air Force actively 
exploring opportunities to bring some competition to the 
sustainment work in the future, if at all?
    General Wolfenbarger. Senator Brown, we are executing that 
strategy. It was approved in the middle of last year. I believe 
it was May 2011. We have currently transitioned, I believe it 
is, 19 hardware types of workload. We have several others in 
the dozens ahead of us. That is on the hardware side.
    We also are in the process of working on the software 
transition as well. One of the integration laboratories that 
had been part of the prime contractor's development activity 
has been now relocated up to Hill Air Force Base, and it is 
going through its checkout now to be used to execute the 
organic activity associated with the software portion of that 
study.
    You are absolutely right. It is more than $1 billion of 
anticipated savings. We are into the execution of that plan. It 
is going to take us through fiscal year 2019 to get to all of 
those different steps in that plan, and we will continue to put 
a spotlight on where we can compete.
    Senator Brown. Despite the Raptor is in sustainment, 
subject to modernization, will the Air Force continue to 
include the program in its SAR to afford Congress sufficient 
visibility into the program?
    General Wolfenbarger. Yes, sir. One of the recommendations 
that came out of a recent Government Accountability Office 
study was that we should break out the next major modification 
effort and characterize that as its own acquisition category 
program. We have agreed to do that. So what we will see in the 
future is actually two different SAR reports, one for the 
baseline program and one for that next increment of added 
capability.
    Senator Brown. Thank you, ma'am.
    General Wolfenbarger. Yes, sir.
    Senator Lieberman. Thank you, Senator Brown.
    Senator Blumenthal.
    Senator Blumenthal. Going back to the JSF and going through 
some of the issues that I think remain outstanding, you are 
fairly confident that the software problems are on their way to 
solution and will be solved.
    Admiral Venlet. Sir, I would say you can never take your 
eye off the software, and there will be that diligence by the 
Aeronautical Systems Center and the NAVAIR engineers working 
with industry. It will take that concerted, combined effort to 
succeed. I believe, if that is applied appropriately, it will. 
What we are fortunate in is that the involvement of those 
independent systems commands with that expertise to guide this 
is very much involved in the program, more so than it was 
before. That is my basis for believing that, sir.
    Senator Blumenthal. The weight management issue you are 
confident is solved or on its way to being solved?
    Admiral Venlet. Yes, sir. Weight has been very well 
controlled in these last couple years in the program.
    Senator Blumenthal. The thermal concerns, are those still 
an issue?
    Admiral Venlet. There are several thermal concerns. I am 
not exactly sure what you have in mind, but I will speak to a 
couple of them.
    There was the temperature at the roll post for the STOVL 
where the actuators needed some extra protection. That has been 
added. There has been temperature control of the fuel in the 
aircraft that would impact it. That has been improved by a 
dual-vane boost pump. Those are the two initial thermal issues 
that come to mind.
    Senator Blumenthal. The logistics information system?
    Admiral Venlet. Yes, sir. ALIS is what I was speaking 
about. It is a very powerful, good thing for the program that 
the fleet will get tremendous benefit out of. It is a very 
software-intensive system that is as challenging to develop and 
adjust as the mission system on the aircraft, the radar, and 
the other sensors. It is being managed just as rigorously as 
the mission system software.
    Senator Blumenthal. To what extent would those issues or 
others that have already been encountered be subject to the 
requirement that we wrote into the last defense authorization 
act that anything above the fixed cost be held accountable to 
the contractor?
    Admiral Venlet. Yes, sir. That provision will be complied 
with in the production contracting. When we negotiate the lot 6 
and the subsequent contracts, we will negotiate a target cost, 
and the terms and conditions of the contract will require that 
any costs incurred above that target will be fully borne by 
industry, and that will be both in the aircraft and the engine 
contracts.
    Senator Blumenthal. How about the costs to date?
    Admiral Venlet. The costs in the previous programs--we have 
the first 3 years of production--were cost-plus contracts, and 
we are paying those costs and there is a share line of those 
overruns. In lot 4, the 2010, and lot 5, those were our first 
two fixed price incentive contracts, and so there is a target 
cost, and those overruns are shared, but they have a ceiling 
that bounds the Government's exposure.
    Industry's performance on those has improved steadily year 
by year. There was 11 to 15 percent on those early ones. Lot 4 
is about 7 percent. So I am very pleased with that. That 7 
percent is shared 50/50 with industry. In lot 5, we began 
sharing these concurrency costs, to the benefit of the 
Government. That will continue as well, sir.
    Senator Blumenthal. Looking forward to the economies of 
scale that will be achieved over the 5-year defense procurement 
program, over that 5-year period, a lot of those economies of 
scale will be achieved as a result of foreign partners or 
foreign military sales by the contractor. If economically those 
countries are unable or unwilling to make those purchases that 
are projected, will that significantly impact the costs of the 
program for us?
    Admiral Venlet. Yes, sir. Every country that buys an F-35 
contributes to the benefit of quantity for cost control or cost 
reduction. Right now, every one of the original partners is 
solidly in the program. Certainly Italy did reduce by 41 jets. 
Australia is talking about an adjustment to the right. But 
those countries are still in, and so, I think, the success news 
is that they have stayed in the partnership. They have reacted 
to macro-economic conditions in their own country, and their 
recent adjustments will be because of that less than it is 
their confidence in the program.
    We are in somewhat of a plateau here in these near years in 
the 2029 to 2030 range. My view is that the attainment of 
affordability in this plateau range does not need to be 
postponed. We can still work and expect and seek industry to 
achieve affordability even when this plateau is flat by paying 
attention to quality and getting the costs of quality down. We 
are tracking those metrics. The engine quality numbers are in 
single digits. The aircraft are above that at this point. We 
are discussing that with them. Processes throughout the 
supplier base can still show improvement. I am not saying there 
are any glaring problems. But we will work hard to improve 
affordability even while we are on this plateau.
    Senator Blumenthal. My reason for asking was not a concern 
that they do not want to be a part of the program, but that 
they will feel that their economic challenges may preclude, 
just as the United States has those challenges. Obviously, 
European countries even more so. My worry, and it may be shared 
by others, is that they may just decide they cannot afford it, 
that their militaries cannot pay for it, not that they do not 
want it. That was my reason for asking this question.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Blumenthal.
    Let me just follow up on that line of questioning by my 
colleague from Connecticut.
    The JSF program from the beginning was envisioned to be an 
international program. Just for the record, remind us, if you 
would, Admiral, how many other countries are participating in 
the JSF program?
    Admiral Venlet. Yes, sir. There are the United States plus 
10. The original eight--Turkey, Italy, The Netherlands, 
Denmark, United Kingdom, Norway, Canada, and Australia--are all 
solidly in, as they have been. In 2010, Israel signed a letter 
of offer and acceptance for their initial 19 to 20 aircraft. We 
were very pleased with that and they are a very committed 
partner of the program. Japan has chosen in a competition, and 
next month we expect a formal signature on their letter of 
offer and acceptance. We are in the midst of preparing a 
proposal to deliver in response to South Korea's fighter 
competition.
    Senator Lieberman. Good. First, let me say I am impressed 
that you remembered all 10 by name.
    Their participation, to say the obvious, is not minimal. 
Their participation is important to the fiscal viability of the 
program. Right?
    Admiral Venlet. Absolutely, yes, it is.
    Senator Lieberman. I just want to draw out a little because 
I appreciated what you said in response to Senator Blumenthal's 
question. First, what is the process by which you keep our 
international partners informed of ongoing developments of the 
program? Has there been no time, as we have had the discussions 
quite publicly here in Congress and elsewhere, the media about 
the increase in cost and delay in production, have there been 
any concerns expressed to you by the international partners?
    Admiral Venlet. Absolutely, sir. They watch the reactions 
of the program and they do express those concerns. Let me speak 
to the interaction and how they stay involved and informed.
    Senator Lieberman. Yes.
    Admiral Venlet. Embedded right in my program office team 
right here in Washington are senior level officers from each of 
those countries, and several of those countries have people 
actually embedded into our teams and are contributing to 
engineering. The thing I forgot a minute ago on the criteria 
for deciding was durability and fatigue testing. That connects 
to this statement. There is an Australian Air Force officer who 
is the deepest expert on service life issues, and so when I am 
asking questions and I see him stand up in response, it is 
really comforting because there is a long history between the 
United States and Australia on the F-18 program. So those 
officers are embedded in the program.
    Twice a year we have a joint executive steering board where 
we meet with the partners at the one- and two-star military and 
civilian level. In fact, we head to Hartford tomorrow for a day 
and a half with our partner countries at the National Armament 
Director, which is equivalent to our Under Secretary of Defense 
for Acquisition, Technology, and Logistics, and industry Chief 
Executive Officers. Those are formal interactions. We have 
requirements working groups. We have sustainment working groups 
that the partners all attend with U.S. Services.
    Every time we have an adjustment we see coming in the 
program, as soon as our budgets are delivered to Capitol Hill, 
we immediately take the impact of that budget and push it to 
the countries as well so they have an impact. They are not 
being affected by changes in the development program costs 
anymore. It is about the procurement changes and the flyways.
    Senator Lieberman. Bottom line, except for the case you 
mentioned about Italy, which may have more to do with their 
budget problems, all 10 are on board.
    Admiral Venlet. Yes, sir. Each country has different 
situations going on with a level of parliamentary support, but 
they are all solidly on board.
    Senator Lieberman. Yes. They all want to buy.
    Am I correct that they were aware of or perhaps even 
involved with you in the judgment you made about holding back 
the six 2012 aircraft?
    Admiral Venlet. We did not involve them in the creation of 
that strategy, sir. We do not intend that strategy to affect 
any of their aircraft.
    Senator Lieberman. Right.
    Admiral Venlet. This is really just in the lots 6-7 
timeframe. That will be analyzed year after year whether we 
will continue with that, and it does not affect any of their 
aircraft.
    Senator Lieberman. But obviously they are aware of it now.
    Admiral Venlet. Yes, sir, they are.
    Senator Lieberman. Are they generally supportive?
    Admiral Venlet. In the sense that we find the support here 
for the protection of the capability. The real fundamental 
about that strategy, sir, is to assure that the jets we buy 
have the maximized capability and service life, and so we 
observe the 2012 test program and get that confidence. They are 
appreciative of that.
    Senator Lieberman. I am glad to hear that, and that is what 
I would assume. You have done a lot after your technical 
baseline review to bring this program onto schedule and within 
reasonable costs. But I think holding back those aircraft was 
really important and I am glad that the international partners 
agreed.
    General Wolfenbarger, I wanted to ask you a different kind 
of question, which you actually referred to a bit earlier. This 
is the decision by the Air Force Research Lab to award a 
contract for a program called ADVENT. You will forgive a little 
bit of what may seem like paranoia, but I forgot the exact 
Satchel Paige line here. But you know, if you are not looking 
back, somebody actually might be following you. It is a 
combination of two lines. You get what I am pointing to.
    We just have gone through a multiyear battle here in 
Congress about whether we would build one or two engines for 
the JSF. Maybe you have already heard it. Probably you have. 
But there is concern that this ADVENT program is actually the 
beginning or an end run on the decision of Congress to have one 
engine program for the JSF. I wanted to ask you flat out. Is 
the Adaptive Engine Technology Development program actually an 
alternative engine, a second engine, for the F-35?
    General Wolfenbarger. No, sir, it is not. It is a 
technology maturation program that takes the advances that we 
have seen under the ADVENT program and takes them to the next 
maturity level. This engine could be used in a whole host of 
platforms should it ever reach the point of being a development 
program. Right now, it is just a question of ensuring that we 
are ready to go should we as an Air Force decide that we want 
to embrace this opportunity to really reduce the fuel 
consumption in future generations of either strike aircraft, 
bomber aircraft, or tactical aircraft. This technology is 
usable across all of those platforms in the future should we 
transition to a development program. This is, as I said, purely 
technology maturation.
    Senator Lieberman. So the main purpose for this program is 
in terms of fuel consumption. Is that right?
    General Wolfenbarger. Yes, sir, and to keep our industrial 
base active in this turbine engine business so that we keep 
that intellectual capital that is so important to this country.
    Senator Lieberman. One of the questions that I have heard 
posed about it is, and I understand you said it is also, in 
part, about the industrial base. But if the goal is to improve 
fuel consumption and fuel efficiency, then why not invest in 
improving some of the existing engine programs for aircraft? In 
other words, are we heading down a road here with a new 
program, at a time when all of DOD is under tremendous fiscal 
pressure, that we cannot afford? In other words, is there a 
better use for this money by putting it into improving existing 
engine programs to improve fuel efficiency?
    General Wolfenbarger. Sir, we would not be able to reach 
those levels by just improving the existing engines. This 
effort really does leverage off of some fairly exciting 
technological advances under ADVENT and allows, as I think I 
might have mentioned, the opportunity for all of industry to 
participate. We had down-selected under ADVENT to two 
industrial partners. This allows us to kick off yet another 
technology maturation effort and open up that door to all of 
industry that may want to participate.
    Senator Lieberman. Okay. We will keep hopefully not totally 
motivated by paranoia, but we will keep an eye on this and ask 
you to continue to report to us about how it is doing.
    I think one of the important points to make, and Admiral 
Skinner, I will ask you to talk about this. General 
Wolfenbarger, maybe you want to get involved. You have used 
this term SLEP during the hearing. It is too close actually to 
the word from a different language which is ``schlep.'' That is 
something entirely different than the SLEP program.
    Basically the SLEP program is an attempt to keep existing 
aircraft flying longer than they might have been intended to 
fly, and this is why I bring it up here. Is it true that some 
of the delays anticipated in the JSF program force us to take 
steps to extend the life of existing aircraft? I will start 
with you, General Wolfenbarger.
    General Wolfenbarger. Yes, sir, that is true. For the F-16 
program, we are looking at a bridge capability that is made up 
of two activities. One is SLEP, which does allow us to ensure 
that our service life for a portion of the F-16 fleet can be 
extended from the 8,000 hours that it is today up to 10,000 
hours. We have a sliding scale opportunity relative to the 
numbers. Right now in the President's budget, we have funding 
for 300 F-16 to extend that service life.
    Senator Lieberman. It is a serious number.
    How do you evaluate risk, which goes back again to the 
question of safety. How do we minimize risk in aircraft that we 
are attempting to keep going longer than they were originally 
intended to?
    General Wolfenbarger. Sir, we actually go through a very 
rigorous testing process, a full-scale structural testing 
activity, which we have undertaken on the F-16 fleet now, to 
inform us what needs to be done to ensure that structurally we 
can keep these aircraft sound.
    Senator Lieberman. Admiral, do you want to get into this? I 
must say that some of the numbers given at some of the posture 
hearings before the full committee on the average age of some 
of our aircraft were unsettling because they have risen 
dramatically. Have they not?
    Admiral Skinner. Yes, sir, they have. We have been flying 
our aircraft quite a bit over the course of the last decade. 
There is inherent risk in extending the service life of any 
aircraft. We have folks who know how to do that.
    But for the Navy, in our program to SLEP 150 legacy Hornets 
in the fuselage area, we are at the very beginning of that 
program, and so it is a matter of what we do not know as 
opposed to what we know. Now, we have done a Service Life 
Analysis Program (SLAP) so that we think that we have areas 
identified that we can develop and produce at low risk kits to 
fix those particular areas that the analysis shows, but until 
we really get into the fleet and open up those aircraft and 
look inside of them, that is when we will really know if that 
analysis is accurate. So we start our first two aircraft later 
on this fiscal year and follow on with additional aircraft next 
year, and so we will know about where we are with that SLEP 
program probably next year.
    We have done some risk mitigation factors. We have done the 
SLAP. We have looked inside the aircraft for our high flight 
Arrow program that gets us up to 8,600 hours. We have a service 
life management program that we manage the fatigue life as we 
fly them, and we have a greater population of supplemental 
aircraft than what we have to do in the program of record. So 
if we open up an aircraft and it looks like it is beyond 
economic feasibility to repair, then we can button it up and 
get another one.
    But there is inherent risk in extending the service life of 
tactical aircraft because we fly them and operate them very 
rigorously, as you are well aware, sir.
    Senator Lieberman. Yes. That is the point I appreciate you 
are making and why there is such pressure, as you well know, 
Admiral Venlet, on bringing the JSF in on schedule.
    Give me some sense of what judgments you are making about 
availability of the JSF and the number of aircraft that you 
have decided to SLEP. In other words, is it based on the 
current prediction of availability of the JSF? General?
    General Wolfenbarger. Yes, sir, it is. It is based on the 
fiscal year 2013 President's budget profile.
    Senator Lieberman. Right.
    The same, Admiral?
    Admiral Skinner. Yes, sir.
    Senator Lieberman. Obviously, any further delays would have 
an impact on that, and in that sense, although I know you will 
do everything you can to minimize risk, would both force more 
investment in extending the service life of existing aircraft 
and involve a risk that we can, I am confident, minimize with 
the JSF.
    Admiral, do you want to comment on that?
    Admiral Venlet. Yes, sir. The F-35 program needs to deliver 
our production jets to relieve the burden. So the most powerful 
thing is for, first of all, the President's budget to be 
supported and funded and then for those jets to deliver with 
full life and full capability, and that is what my job is to 
tend to.
    Senator Lieberman. Okay. I thank the three of you very 
much.
    At the risk of being redundant, I just cannot say how 
important this JSF program is. You know that. You work on it 
every day. I think I am typical of most Members of Congress 
which is that we strongly support this program because we know 
how necessary it is, but we also are going to continue to push 
to get it back on schedule and bring down the cost per unit.
    I personally think you have taken some very strong steps in 
the last couple of years, and I hope that our authorization 
bill and the budget will reflect that in terms of our response 
to the President's budget request. So anyway, keep it up 
because there is a lot on the line.
    The subcommittee and the full committee will mark up our 
defense authorization bill for the coming fiscal year 2013 in 
the final week of this work period which would be the week of 
May 21. So your testimony today has been very timely and 
helpful to the committee as we prepare that markup.
    I thank you very much.
    We will keep the record of the hearing open for another 5 
days for any additional statements or questions that anyone 
has.
    With that, thank you, the three of you, for your 
extraordinary service to our country.
    General Wolfenbarger, somebody once said to me when a 
barrier is broken by one person, it opens the doors of 
opportunity wider for every other American. You are about to 
break a barrier. Good luck. Congratulations. Thank you.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                       airborne electronic attack
    1. Senator McCaskill. Admiral Skinner, as you are well aware, the 
ability to control the electronic spectrum has become a critical 
capability for today's warfighters. The Department of Defense (DOD) has 
a growing demand for electronic attack platforms, and specifically, 
airborne electronic attack (AEA) systems. However, the Government 
Accountability Office (GAO) recently found that the Services are 
pursuing the development of unique systems to satisfy their AEA 
requirements, but some of these systems have overlapping capabilities. 
This raises a real concern regarding a duplication of effort and a 
waste of taxpayers' dollars.
    GAO recommended that DOD, among other things, ``determine the 
extent to which the most pressing AEA capability gaps can best be met--
using the assets that are likely to be available--and take steps to 
fill any potential gaps.'' DOD concurred with this recommendation, 
noting that plans were in place to have U.S. Strategic Command perform 
an annual assessment of DOD electronic warfare capabilities. However, 
this assessment has not yet been completed.
    GAO, in its most recent report, noted that the ``Navy has fielded 
EA-18G aircraft with limited cost and schedule growth to date.'' With 
the near-term retirement of the last remaining EA-6B Prowler squadrons, 
and the electronic warfare capabilities of the F-35 B and C variants 
not projected to be fully available until well into the next decade, 
there appears to be a pending shortfall in critical AEA capability. 
With the success of the Navy's EA-18G Growlers in Afghanistan and 
Operation Odyssey Dawn, and GAO's assessment, serious consideration 
should be given to filling needed joint AEA capability with the EA-18G 
aircraft. Given the fact that DOD has not yet completed its planned 
assessment of electronic attack capabilities, does the Navy's budget 
request for EA-18G Growlers take into account joint AEA requirements?
    Admiral Skinner. Yes. The budget reflects the Navy's plan to 
recapitalize the Navy AEA force structure of 10 carrier air wings, 3 
Active component expeditionary squadrons, and 1 Reserve squadron with 
the EA-18G. The three Navy Active component expeditionary squadrons 
have completed their transition to the Growler along with three of the 
carrier-based squadrons. The Navy will be completely divested of all 
its EA-6Bs by the end of fiscal year 2015 and complete its transition 
in fiscal year 2016. The Marine Corps plans to replace its EA-6Bs with 
the Marine Air Ground Task Force Electronic Warfare (MAGTFEW) system of 
systems capability that will directly support the MAGTF commander. This 
combination of Navy and Marine Corps systems is a holistic service 
approach that addresses the full spectrum of electronic warfare 
requirements. The joint AEA requirement is under review by DOD to 
determine if the force structure meets total combatant commander 
capacity requirements.

    2. Senator McCaskill. Admiral Skinner, has the Navy engaged in 
planning or preparation for additional procurement of Growlers if 
required to maintain joint AEA capacity?
    Admiral Skinner. No, the Navy has not made preparations for 
additional procurement of Growlers to maintain the current joint AEA 
capacity. As always, the Navy keeps its options open on how to man, 
train, and equip its forces to meet joint requirements. The Navy 
believes the capability in the fiscal year 2013 President's budget 
supports the joint AEA requirements with 10 carrier based EA-18G 
squadrons, 3 Active component expeditionary EA-18G squadrons, and 1 
Reserve component EA-18G squadron. As Marine Corps Prowlers retire, the 
MAGTFEW will provide the joint forces with a scalable, flexible, and 
cost effective approach to irregular warfare and MAGTF-type missions. 
DOD is examining this force structure to determine if adequate AEA 
capacity will be achieved for the combatant commanders.

    [Whereupon, at 4:31 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
